<html>
<title> - DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED AGENCIES APPROPRIATIONS FOR 1999</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]


<DOC>
 
                 DEPARTMENTS OF COMMERCE, JUSTICE, AND
                   STATE, THE JUDICIARY, AND RELATED
                    AGENCIES APPROPRIATIONS FOR 1999

========================================================================

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION
                                ________

  SUBCOMMITTEE ON THE DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE 
                    JUDICIARY, AND RELATED AGENCIES

                    HAROLD ROGERS, Kentucky, Chairman

JIM KOLBE, Arizona                 ALAN B. MOLLOHAN, West Virginia
CHARLES H. TAYLOR, North Carolina  DAVID E. SKAGGS, Colorado
RALPH REGULA, Ohio                 JULIAN C. DIXON, California
MICHAEL P. FORBES, New York        
TOM LATHAM, Iowa                   

NOTE: Under Committee Rules, Mr. Livingston, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

         Jim Kulikowski, Therese McAuliffe, Jennifer Miller,
                    Mike Ringler,and Cordia Strom,
                           Subcommittee Staff


         Printed for the use of the Committee on Appropriations
                                ________

                                 PART 7
                                                                   Page
 Secretary of State...............................................    1
 Administration of Foreign Affairs................................  221
 International Organizations and Peacekeeping.....................  307
 United States Information Agency and Broadcasting Board of 
   Governors......................................................  363
 State/ACDA/USIA/BBG Inspector General............................  501
 Asia Foundation..................................................  529

                              <snowflake>

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
49-687                      WASHINGTON : 1998
------------------------------------------------------------------------

             For sale by the U.S. Government Printing Office            
        Superintendent of Documents, Congressional Sales Office,        
                          Washington, DC 20402                          












                       COMMITTEE ON APPROPRIATIONS                      

                   BOB LIVINGSTON, Louisiana, Chairman                  

JOSEPH M. McDADE, Pennsylvania         DAVID R. OBEY, Wisconsin            
C. W. BILL YOUNG, Florida              SIDNEY R. YATES, Illinois           
RALPH REGULA, Ohio                     LOUIS STOKES, Ohio                  
JERRY LEWIS, California                JOHN P. MURTHA, Pennsylvania        
JOHN EDWARD PORTER, Illinois           NORMAN D. DICKS, Washington         
HAROLD ROGERS, Kentucky                MARTIN OLAV SABO, Minnesota         
JOE SKEEN, New Mexico                  JULIAN C. DIXON, California         
FRANK R. WOLF, Virginia                VIC FAZIO, California               
TOM DeLAY, Texas                       W. G. (BILL) HEFNER, North Carolina 
JIM KOLBE, Arizona                     STENY H. HOYER, Maryland            
RON PACKARD, California                ALAN B. MOLLOHAN, West Virginia     
SONNY CALLAHAN, Alabama                MARCY KAPTUR, Ohio                  
JAMES T. WALSH, New York               DAVID E. SKAGGS, Colorado           
CHARLES H. TAYLOR, North Carolina      NANCY PELOSI, California            
DAVID L. HOBSON, Ohio                  PETER J. VISCLOSKY, Indiana         
ERNEST J. ISTOOK, Jr., Oklahoma        ESTEBAN EDWARD TORRES, California   
HENRY BONILLA, Texas                   NITA M. LOWEY, New York             
JOE KNOLLENBERG, Michigan              JOSE E. SERRANO, New York           
DAN MILLER, Florida                    ROSA L. DeLAURO, Connecticut        
JAY DICKEY, Arkansas                   JAMES P. MORAN, Virginia            
JACK KINGSTON, Georgia                 JOHN W. OLVER, Massachusetts        
MIKE PARKER, Mississippi               ED PASTOR, Arizona                  
RODNEY P. FRELINGHUYSEN, New Jersey    CARRIE P. MEEK, Florida             
ROGER F. WICKER, Mississippi           DAVID E. PRICE, North Carolina      
MICHAEL P. FORBES, New York            CHET EDWARDS, Texas                 
GEORGE R. NETHERCUTT, Jr., Washington  ROBERT E. (BUD) CRAMER, Jr., Alabama
MARK W. NEUMANN, Wisconsin             
RANDY ``DUKE'' CUNNINGHAM, California  
TODD TIAHRT, Kansas                    
ZACH WAMP, Tennessee                   
TOM LATHAM, Iowa                       
ANNE M. NORTHUP, Kentucky              
ROBERT B. ADERHOLT, Alabama            

                 James W. Dyer, Clerk and Staff Director
















DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED 
                    AGENCIES APPROPRIATIONS FOR 1999

                              ----------                              

                                      Wednesday, February 25, 1998.

                    UNITED STATES SECRETARY OF STATE

                                WITNESS

HON. MADELEINE K. ALBRIGHT, SECRETARY OF STATE

                           General Statement

    Mr. Rogers. The hearing will come to order. It is a 
pleasure today to welcome Secretary of State Madeleine Albright 
in her second appearance before the Subcommittee as Secretary 
of State. In addition, Madam Secretary, you have appeared on 
several prior occasions in your former position of U.N. 
Ambassador, so your appearance here is an annual event for us 
and a happy one, I might add.
    When you appeared last year, you had just finished your 
first trip overseas as Secretary, to favorable reviews, we 
might add. Now, a year later, you have experienced firsthand 
the challenges of being responsible for the nation's foreign 
policy as well as leading a Department that has some 23,000 
employees, and 250 embassies and consulates overseas. It seems 
to me the challenge facing you is to use American leadership to 
solve crises, not just contain them.
    Over the past year, in addition to travel overseas, you 
have done some domestic travel, of course, as well, and I think 
you have discovered that some of the toughest audiences might 
be here at home.
    It is, of course, the fiscal year 1999 budget request for 
funding to operate the Department of State as well as 
assessments for international organizations that brings you 
before the Subcommittee today and it is our job to examine that 
request in the context of the need to assure a balanced budget.
    In addition, there are important developments with respect 
to Iraq and other areas of our foreign policy that may provoke 
a question or two, as well, or comments from you.
    There is one point I need to bring to your attention. I do 
not know if you are aware, but your statement was not provided 
by the Department to the Committee until this morning. 
Normally, we ask for copies of the statement three days in 
advance and to try to accommodate special circumstances. The 
statement, of course, provides members the basis to prepare for 
the hearing, so we would hope that maybe we could have the 
statement earlier.
    Secretary Albright. I apologize.
    Mr. Rogers. Madam Secretary, your statement will be made a 
part of the record, and if you would like to summarize, we 
would be pleased to hear from you.
    [The information follows:]


[Pages 3 - 139--The official Committee record contains additional material here.]



                  Secretary Albright's Opening Remarks

    Secretary Albright. Thank you very much, Mr. Chairman. I 
believe this is my sixth time that I have had the opportunity 
to testify before this Subcommittee. It is always interesting 
and almost always fun, and if there were an Oscar or Grammy for 
diligent bipartisanship, this Subcommittee would be at or near 
the top of the list.
    Mr. Rogers. I do not think we have anybody here from Ohio 
State.

                   front-burner foreign policy issues

    Secretary Albright. We could talk about that.
    I am delighted to be here to present the President's 1999 
budget request and I do apologize for the fact that my 
statement did not get here soon enough, but I encourage you to 
review it because it does deal with some of the vital issues 
and parts of the world that I cannot include in my oral remarks 
and still honor your time.

                     the current situation in iraq

    Before discussing the specific accounts, Mr. Chairman, let 
me review with you a couple of front-burner foreign policy 
issues. First is our effort through diplomacy, backed by the 
threat of force, to see that Iraq complies with its obligations 
to the world community. That effort is ongoing. Yesterday, the 
Security Council was briefed by Secretary General Annan on the 
agreement reached last weekend and that agreement promises 
immediate and unrestricted access to U.N. inspectors to sites 
in Iraq, including those from which they had been previously 
excluded. I think that is a very important point to note, 
because it does show that Saddam has reversed course. We 
attribute the Iraqi commitments not only to our own firmness 
but to the strong international pressure brought to bear on 
Baghdad by nations from around the world.
    I am aware that some in Congress have said that we should 
reject this agreement. We believe the wiser policy is to test 
the agreement.
    In the days ahead, we will be working with the Security 
Council and the U.N. Special Commission, or UNSCOM, to see that 
the agreement is implemented in a way that reflects the core 
principles upon which we have insisted, that Security Council 
resolutions be obeyed, that the integrity of UNSCOM be 
preserved, and that there be no artificial time tables or 
linkages that would prevent UNSCOM from doing a full and 
professional job.
    Now, I have spoken to the Secretary General a number of 
times in the last four or five days and we have had a number of 
excellent conversations which I think are working towards the 
clarification of some of the questions that you all have had up 
here, and let me just give you a few of those now and then 
maybe you will want to talk more about them.
    He assured me of the following points. He has the highest 
respect for the work of UNSCOM and Chairman Butler, who will 
continue to lead the commission. Butler will remain very much 
in charge under the terms of the new agreement and he will 
continue to be as independent as he has always been.
    What is going to happen is that there will be one 
additional UNSCOM commissioner appointed, bringing the total 
number under Butler to 22 and the relations of the new 
commissioner and Butler will be the same as the existing 
arrangements. The team leader of the Special Group, which will 
be within UNSCOM--there is going to be a special group for 
presidential sites--the team leader of that will be an UNSCOM 
technician. The diplomats that will be going along will be 
observers only with UNSCOM retaining operational control, and 
there is absolutely no equivalence between UNSCOM and Iraq and 
the Secretary General knows that. I would be happy to take more 
questions on that.
    With our support, we think that UNSCOM will be testing 
Iraq's commitments thoroughly and comprehensively, and as 
President Clinton said Monday, our soldiers, our ships, and our 
planes will stay there in force until we are satisfied Iraq is 
complying with its commitments.
    The events of the past few days have not changed our 
fundamental goal, which is to end or contain the threat posed 
by Saddam Hussein to Iraq's neighbors and the world. A solid 
U.N. inspection and monitoring regime backed by sanctions and 
enforcement of the no-fly and no-drive zones is our 
preferredmeans of achieving that goal, but we retain the authority, the 
responsibility, the means, and the will to use military force if that 
is required.
    Mr. Chairman, during my visits last week to Tennessee, 
South Carolina, and most audibly Ohio, I heard two somewhat 
different but understandable desires voiced by the American 
people. The first was a strong desire to see the Iraq crisis 
settled peacefully, the second to see Saddam Hussein removed 
from power.
    Unfortunately, we cannot guarantee a peaceful outcome 
without opening the door to yet another round of Iraqi 
cheating, which we will not do. But if we must use force, why 
not go all the way and remove Saddam from power? The answer is 
that it would necessitate a far greater commitment of military 
force and a far greater risk to American lives than is 
currently needed to contain the threat Saddam poses.
    This leaves us with a policy that is, quite frankly, not 
fully satisfactory to anyone. It is a real world policy, not a 
feel-good policy. But I am convinced it is the best policy to 
protect our interests and those of our friends and allies in 
the Gulf. It embodies both our desire for peace and our 
determination to fight, if necessary. It takes into account 
current realities without in any way ruling out future options. 
It presents the leaders in Baghdad with a clear choice and it 
reflects principles that are vital to uphold, not only in the 
Gulf now but everywhere always.

                             bosnian peace

    Mr. Chairman and Members of the Committee, the recent focus 
on the situation in Iraq should not divert our attention from 
other important decisions we must make this year. For example, 
we will see in Bosnia a major test of our commitment to create 
a Europe whole, peaceful, and free. Around Christmas, I went to 
Bosnia with the President and Senator Dole and a number of 
members of Congress. We found a nation that remains deeply 
divided but where multi-ethnic institutions are once again 
beginning to function, economic growth is accelerating, 
indicted war criminals are being tried, more refugees are 
returning, and perhaps most important, a new Bosnian-Serb 
government has been elected that is committed to implementing 
the Dayton accords.
    More slowly than we foresaw but as surely as we hoped, the 
infrastructure of Bosnian peace is gaining shape and the 
psychology of reconciliation is taking hold. But if we turn our 
backs on Bosnia now, as some urge, the confidence we are 
building would erode and the result could well be a return to 
genocide and the war.
    Accordingly, we have agreed with our allies that NATO will 
continue to lead a multi-national force in Bosnia after SFOR's 
mandate expires in June. Without expanding that mandate, we 
will ensure that the new force has an enhanced capability to 
deal with the task of ensuring public security and we will 
review the size of the force periodically as part of our 
strategy to gradually transfer its responsibilities to domestic 
institutions and other international organizations.
    Mr. Chairman, quitting is not the American way and we 
should continue to play an appropriate role in Bosnia as long 
as our help is needed, our allies and friends do their share, 
and most importantly, the Bosnian people are striving to help 
themselves. That is the right thing to do and it is the smart 
thing for it is the only way to ensure that when our troops do 
leave Bosnia, they leave for good.

                     asia-pacific community issues

    One of our most important foreign policy objectives is to 
build an inclusive Asia-Pacific community based on stability, 
shared interests, and the rule of law. To this end, we have 
fortified our core alliances, crafted new defense guidelines 
with Japan, and embarked on four-party talks to create a basis 
for lasting peace on the Korean peninsula. We have also 
intensified our dialogue with China, achieving progress on 
proliferation, security cooperation, and other matters while 
maintaining our principles on respect for human rights, and we 
have been working with the IMF to respond to the financial 
crisis in East Asia.
    Our approach is clear. To recover from instability, the 
nations affected must reform, and if they are willing to do so, 
we will help. East Asia is home to some of our closest allies 
and friends, such as South Korea, whose new President, Kim 
Daejung, is being inaugurated today. The region also includes 
some of the best customers for U.S. products and services.
    Moreover, since the IMF functions as a sort of 
intergovernmental credit union, its efforts to assist East 
Asian economies will not cost U.S. taxpayers a nickel. Still, 
there are some who say we should disavow the IMF and abandon 
our friends, letting the chips or dominoes fall where they may. 
It is possible if we were to do so that East Asia's financial 
troubles would not spread and badly hurt our own economy and 
that new security threats would not arise in the region where 
100,000 American troops are deployed. This is possible, but I 
would not want to bet America's security or the jobs of your 
constituents on that proposition, for it would be a very, very 
bad bet.
    Even with the full backing for the IMF and diligent reforms 
in East Asia, recovery will take time and further tremors are 
possible. The best way to end the crisis is to back the reforms 
now being implemented, approve the supplemental IMF funding 
requests submitted by the President earlier this month, work to 
keep the virus from spreading, and develop strategies for 
preventing this kind of instability from arising again.

 united nations reform and paying our united nations peacekeeping bill

    Mr. Chairman, there is much that America can accomplish 
unilaterally, bilaterally, or in cooperation with close allies. 
Many problems can best be dealt with through broad 
international action, and that is why we participate in 
international organizations, including the United Nations. Last 
year, as you recall, we worked together to develop a three-year 
plan to encourage United Nations reform while paying our 
overdue U.N. bills.
    Unfortunately, that spirit of cooperation broke down 
towards the end of the session when a small group of House 
members blocked final passage of this and other key measures. I 
testified before the authorizing committees about my concerns 
with the tactic used and will not belabor the point here. 
Certainly, your Subcommittee did its part by appropriating the 
$100 million called for in the first year, Now we have to find 
a way to free up that money and to gain approval of funds for 
years two and three.
    Mr. Chairman, I have been discussing the U.N. and America's 
role in it with this Subcommittee since 1993, as you pointed 
out, and together, we have helped the U.N. to achieve more 
reform in the past half-decade than in the previous 45 years. 
We have seen the U.N. staff cut and its budget brought under 
control. We have seen assessments for peacekeeping drop by 80 
percent. We have seen the Inspector General's office grow from 
conception to infancy to the development of a full set of 
increasingly sharp teeth, and we have seen a new generation of 
leaders take the helm.
    Slowly but surely, a culture of accountability, 
transparency, and results is taking hold at the U.N., and as 
you know, Mr. Chairman, this progress has not come easy. We 
have faced opposition every step of the way and the job is far 
from finished.
    But let me tell you frankly that if we are not able to pay 
our U.N. arrears soon, our legs will truly be cut out from 
under us at the U.N. We are told daily by our best allies and 
friends that U.S. credibility will be sadly diminished and that 
will hurt America and cost Americans.
    Let me just cite one example. Last December, the General 
Assembly voted on a plan that could have, and I believe would 
have, cut our U.N. assessments by roughly $100 million every 
year. Our diplomatic team had worked long and hard to make this 
possible, but when the U.N. arrears package was killed, support 
for that proposal disappeared. It took a heroic effort to keep 
alive the chance for a new vote during the first half of this 
year, and if we do not seize this opportunity, we will not have 
another one until the year 2000.
    So we have a choice. We can fail once again to act, to 
undermine our own diplomatic leadership and deprive our 
taxpayers of savings we might otherwise be able to achieve, or 
we can pay our arrears, restore full U.S. influence, and make 
possible a reduction in our assessments that will save U.S. 
taxpayers money for as long as we are in the U.N. I know this 
choice will not be made by this Subcommittee alone, but I ask 
your support for prompt action not tied to any unrelated issue 
on our supplemental appropriations request for U.N. arrears and 
I am convinced it is the right choice for America.

           fy 1999 state department operating budget request

    Mr. Chairman, there was a time not that long ago when our 
managers at the State Department could afford to be guided by a 
just-in-case philosophy. Planning, acquisitions, and training 
could be based on what might be needed. Today, we are compelled 
by the pace of change and the tightness of budgets to practice 
just-in-time management. That requires putting personnel, 
resources, and infrastructure where they are required when they 
are required and being prepared to reposition them rapidly and 
flexibly when they are not, but we still need to make some 
well-placed investments.
    This year, our request for State Department operating funds 
is $2.2 billion, barely above last year's, but we are also 
seeking an increase of $243 million in our security and 
maintenance account to upgrade our facilities, especially in 
Germany and China.

             move of the german capital from bonn to berlin

    Next year, the Germans will complete the move of their 
capital from Bonn to Berlin and we need to make the same move 
with our diplomatic personnel. Remember that this move is not 
simply a matter of convenience or geography. It is a reflection 
of one of the great events of this century, an event in which 
America played a central role. For behind Berlin's 
establishment as the capital of a united and democratic Germany 
is a half-a-century's partnership between the United States and 
that country, a partnership cemented with the Berlin airlift 50 
years ago this summer and which ultimately helped defeat 
communism and bring down the wall, and it is unthinkable that 
the United States should not be well represented in the capital 
of a nation with the world's third-largest economy, which is 
host to the single largest overseas contingent of U.S. troops, 
and which is one of our closest friends.
    We estimate the new U.S. embassy in Berlin will cost $120 
million. We are requesting $50 million this year and expect to 
raise the rest through the sale of excess U.S. property.

                             posts in china

    In China, the U.S. presence is large, growing, and vital to 
our interests. Undoubtedly, as the Department's Inspector 
General has confirmed, our posts in China are in terrible 
shape. We have developed a plan to remedy this beginning with 
new housing in Shanghai and including a full new embassy in 
Beijing for which I hope very much we will have your support.

                         information technology

    With respect to information technology, our needs are 
basic. We want to install late 20th century computer technology 
at every post before the 21st century begins. We need to 
replace overloaded phone switchboards before they experience 
what is known as catastrophic failure. We need to implement new 
information security features and we want to ensure that when 
the clock strikes midnight on December 31, 1999, our computers 
do not crash and send us back to the age of quill pens and 
scribes. So I hope you will support us in acquiring 
communication systems that are secure, reliable, and expansive 
enough to meet the demands of the information age.

                       diplomatic representation

    Mr. Chairman, as Secretary of State, I can tell you that 
Americans can be very proud of the people, whether Foreign 
Service, civil service, or foreign nationals, who work every 
day, often under very difficult conditions, to protect our 
citizens and our interests around the world. They are great. 
But if we are to maintain the high standards of diplomatic 
representation we need, we must continue to emphasize high 
standards in recruiting, training, and managing our personnel 
and we must understand how much the world has changed.
    I think that, as all of you know, there are a whole set of 
entirely new skills that are needed by the Foreign Service and 
we need to be able to train our people in these skills. We also 
need to make sure that we have diversity in our hiring and we 
are making progress. I am particularly proud of the large 
number of women competing successfully to enter the Foreign 
Service this year, but there is much more that we need to do 
and we need your help in this.

                   reorganization of foreign affairs

    We also need to be able to back many of our initiatives in 
particular countries and regions, such as build prosperity, 
fight international crime, protect the environment, and work on 
global terms. I think that we have worked very hard, as you 
know, to try to develop a plan to reorganize our foreign 
affairs agencies to reflect that arms control, public 
diplomacy, and international development belong at the heart of 
our foreign policy and I hope we will have the Subcommittee's 
support for early action on reorganization legislation this 
year.

             support for the acda and usia budget requests

    I think we have to make sure that arms control remains in 
the center of our foreign policy and ACDA is already, with the 
Director of ACDA acting double-hattedly, also serving as the 
State Department's Under Secretary for Arms Control and 
International Security Affairs. I, therefore, ask your support 
for the ACDA as well as the USIA budgets.
    I think, Mr. Chairman, we have a huge opportunity this year 
at the 50th anniversary of the time when so many of our post-
World War II institutions were started to be able to set up 
many new types of relationships between a Democratic President 
and a Republican Congress and I look forward to working with 
you. Nobody would have ever imagined that in this day and age 
that our diplomats would be dealing not only with grain and 
steel but with bits and bytes and movie rights, or even, for 
that matter, that a female Secretary ofState would one day meet 
with a black president of South Africa. So we have a great deal to do 
and I am looking forward to working with you as we look at the 
challenges ahead. Thank you very much.
    Mr. Rogers. Madam Secretary, again, you have demonstrated 
why you are in the position you are in. That is an excellent 
statement and we appreciate the fullness of it.
    We have a vote on the floor, and I think it might be the 
best if we took a short recess so that the rest of us can run 
and vote and return immediately. There is only one vote, if you 
can bear with us a few minutes.
    Secretary Albright. I would be happy to. Thank you.
    [Recess.]

    the secretary general of the united nations' agreement with iraq

    Mr. Rogers. Madam Secretary, we have apparently a series of 
votes coming up very shortly, so some of the members, I think, 
are waiting on that vote, but I think we can proceed for at 
least a while here and try to save your time.
    Madam Secretary, there is one major difference in the 
relationship between the United States and the U.N. in the 1991 
crisis and this one. In 1991, the U.N. helped the U.S. carry 
out its policy. In 1998, the U.S. is helping the U.N. Secretary 
General carry out his policy. Can you tell me, did the United 
States ask the Secretary General to negotiate an agreement with 
Saddam and is this agreement reached between Kofi Annan and 
Saddam Hussein the agreement that the United States asked the 
Secretary General to negotiate?
    Secretary Albright. Mr. Chairman, first of all, let me put 
the question that you asked in some context. Clearly, the issue 
of Iraq has been on the table since Saddam invaded Kuwait in 
1991 and we have been dealing with it, first through the Gulf 
War and then after it, through a series of Security Council 
resolutions, the purpose of which were to make sure that Saddam 
Hussein got rid of his weapons of mass destruction, having set 
up this commission called UNSCOM to do the job, and our policy 
has been one of containing Saddam Hussein.
    When I was at the United Nations and during these periodic 
sanctions reviews, we were always looking for ways to keep the 
international coalition together to keep these sanctions, the 
toughest sanctions in the history of the world, in place. As 
you know, sanctions do not really work well unless they are 
multilateral sanctions.
    Saddam Hussein periodically has tested the commitment of 
the international community, and every time when we have shown 
will, he has backed down. This time again, there was the 
question as to whether he would allow the inspectors to do 
their job. This is not a battle between the United States and 
Saddam. It is between Saddam and the world, and therefore it is 
appropriate for the international community, through UNSCOM, 
which is the eyes and ears of it, to do the inspection, and for 
various attempts to be made to resolve the situation peacefully 
through diplomatic means. I found in my talking with members of 
Congress as well as out on the road that most Americans would 
like to see this dealt with peacefully, and so that was what we 
were doing.
    Now, the Secretary General himself felt that it was 
appropriate for him to take on the role of going to see if he 
could get some kind of a solution to it. In the course of that, 
we believed that it was important for him to go with the right 
guidelines--that is what would be our own guidelines as to what 
would make a useful agreement.
    So he was having discussions on behalf of the international 
community. He has followed many of our guidelines. We are 
trying to clarify the extent to which this agreement does, in 
fact, meet our guidelines, but the most important thing here, 
Mr. Chairman, is to test whether the agreement works.
    So my answer is that he is the Secretary General. We 
provided him with what would be appropriate guidelines. We are 
now clarifying and we will test the results.
    Mr. Rogers. The newspaper account, the New York Times 
account, of this morning, essentially said that you met with 
him on February 15 at his residence to provide the American 
requirements if this mission were to proceed, but that over the 
next several days he insisted that he needed some room to 
negotiate and would not be a mere messenger. There was some 
wiggle room that he had, if you will. Is that negotiating room 
the reason that you have been struggling to get the ambiguities 
in the agreement clarified to see if it meets American 
requirements? Is that essentially correct?
    Secretary Albright. First of all, he did not go with 
instructions. I mean, he is the Secretary General of an 
organization and we are, while the most powerful member, not 
the only one. The other members of the permanent five also had 
some ideas and the permanent five actually got together to give 
him advice and he was following that, but he very clearly, and 
the others agreed, was not just a messenger but he was 
Secretary General.
    I think that what we are trying to clarify are some of the 
relationships and some of the aspects of the guidelines--that 
we provided. But as I have said, and as I said in my opening 
remarks, so far, the clarifications that he has been providing 
have, in fact, met what we have wanted to see, but the most 
important point here is to test it. I think Saddam Hussein has 
been known to agree to things and not fulfill them. This is the 
first time that he has actually signed this kind of a paper, 
but I think this is an issue of test and verify. There is no 
trust involved in this, and so that is what we are about now, 
testing to make sure that whatever the Secretary General agreed 
to is clarified.

          clarification of details in the u.n. iraqi agreement

    Mr. Rogers. So these matters that are now being clarified 
were matters that he did not have clearance before he went with 
the five Security Council members, is that accurate?
    Secretary Albright. Well, I think that there were details 
that he probably did not have. As I said, he did not have 
instructions. Plus, I have to tell you, frankly, our guidelines 
for this are the toughest. We and the United Kingdom are the 
ones that are being the toughest on this and we are asking for 
these guidelines and clarifications.
    But it is very hard, Mr. Chairman. He is a respected 
Secretary General of the U.N. and I think that a lot of the 
details also are the kinds that ultimately experts have to work 
out. So I think our sense on this is that we are glad--I mean, 
we welcome the fact that he went on this mission. We felt that 
he needed some guidelines. We appreciate what he has done, but 
we are not swallowing it hook, line, and sinker. We are asking 
for clarifications and the most important thing, as I said, is 
to make sure that as these relationships are worked out, that 
UNSCOM will be able to doits work that it has done so very well 
up until now in an independent and unconditional and unfettered way and 
that we test it.
    Mr. Rogers. Now, who will provide the clarifications?
    Secretary Albright. They are coming as a result of 
discussions between the Secretary General and Chairman Butler. 
We are asking questions. The Secretary General appeared before 
the Security Council yesterday. He was very, very tired. He had 
been on the road negotiating, so I think there are additional 
discussions going on in New York today.
    Mr. Rogers. So you are attempting to clarify from the 
Secretary General what was meant by provisions that are in the 
agreement, is that generally correct?
    Secretary Albright. Well, yes, and the experts have to work 
out the details. This is not a negotiation with Saddam Hussein. 
I mean, this is basically a way that this group is going to 
work.
    Mr. Rogers. What I am trying to get at is the 
clarifications that we are trying to work on now. Who is a 
party to ironing out those details? Are the Iraqis involved in 
that process?
    Secretary Albright. No. No. No, sir.
    Mr. Rogers. Just the U.N. and----
    Secretary Albright. The U.N. and the various other 
countries, but mostly us. We are pushing to clarify the 
relationships between UNSCOM and the diplomats and various 
parts of this and to make absolutely clear that when it says 
unfettered, unconditional, that that is what it means and these 
presidential sites, the maps and all those things. But there 
are no negotiations with Iraq on this.
    Mr. Rogers. When do you anticipate our final decision?
    Secretary Albright. I think that we will see when the 
inspectors go. I mean, our sense here, Mr. Chairman, is that 
the inspectors need to go as soon as possible and test it.
    Mr. Rogers. When will that be?
    Secretary Albright. As soon as possible. I cannot give you 
a date on that.
    Mr. Rogers. Will you wait for clarification, the 
clarifications you have mentioned on the final details, before 
they are dispatched?
    Secretary Albright. I think that they need to have some 
clarification, yes, I do, but I think this is all happening 
very rapidly.
    Mr. Rogers. So can we expect them to go in the next couple 
of days?
    Secretary Albright. I cannot give you a specific time. We 
want them very much to go soon, and as the President said, our 
forces will remain on high alert throughout this time.
    Mr. Rogers. I do not need to tell you, but time is of the 
essence here, and I am sure you agree. We do have considerable 
forces on station at great expense and at some cost in the 
other parts of the world where we have been drawn down to 
accommodate this buildup. If Saddam is not going to live up to 
the agreement, we will not know it until the inspectors go back 
and we cannot send them back until the final clarifications are 
done, so time is running here. Do you agree that time is of the 
essence?
    Secretary Albright. Absolutely, but let me just say that I 
am thinking about where we were a week ago. There was a sense 
of inevitability about using an air strike where we were 
building up a coalition, but as you know, there were many who 
were opposed to what we were doing. We now have what we believe 
is a good basis for going forward, and if, indeed, Mr. 
Chairman, the inspectors are not able to do what they want to 
do or Saddam breaks his word in any way, then we are much 
better off internationally and domestically, frankly, I 
believe, to then follow through on a military force option. But 
I do agree with you that time is of the essence and we are 
working it very fast.
    Mr. Rogers. How much time will be required to test the 
agreement, do you think?
    Secretary Albright. I cannot speak to that. I think that we 
have to allow the inspectors the independence to work their 
professional way on this. We are asking the other members of 
the Security Council to allow Richard Butler and UNSCOM to 
determine the pace as well as the location of future 
inspections, and I can just assure you that he is a very 
determined chairman of UNSCOM.
    Mr. Rogers. My fears have been confirmed. We do have 
another vote in process with only about four minutes remaining, 
and then we have, I think, maybe a couple more quick ones.
    Secretary Albright. That is fine. I am okay.
    Mr. Rogers. I apologize for taking the time, Madam 
Secretary.
    Secretary Albright. I understand.
    [Recess.]

                       access to all iraqi sites

    Mr. Rogers. Madam Secretary, we deeply appreciate your 
abiding as we carry our other responsibilities.
    The standard set by the President for the agreement is that 
it would have to assure free, unfettered access by the U.N. 
monitoring team. What we have seen thus far is, one, that there 
is a special procedure for eight of the presidential palaces 
where diplomats will be appointed, and specific procedures for 
inspection of these sites remain to be worked out, presumably 
with Iraq.
    Two, no one seems to know how many buildings are considered 
to be part of the eight sites.
    Three, according to the U.N. spokesman yesterday, Iraq will 
continue to be able to declare sites sensitive, which is the 
mechanism that Iraq has used in the past to carry things out 
the back door while the inspectors waited at the front door.
    And four, where the Secretary General himself has said that 
inspectors will have to be less pushy and more respectful of 
Iraq.
    Are these generally accurate assessments and how does that 
meet the test of free, unfettered access?
    Secretary Albright. Well, first of all, Mr. Chairman, let 
us be clear about something. For many years, Saddam Hussein has 
not allowed access to all places and what this agreement, if we 
decide that it is properly tested, does, in fact, is allow 
access to all sites, which we have never had before. So it is a 
step forward in that way.
    We do not yet, as I said earlier, have the survey maps of 
what these presidential sites are like. That is something that 
they were working on today and I have not been in touch with 
New York this afternoon to know what exactly they have gotten, 
but that is one of the issues.
    There have been previously a variety of arrangements that 
UNSCOM has found satisfactory. But the special arrangements 
have to be worked out, not with Iraq but it is UNSCOM that is 
going to have to decide how the operational control of this is 
going to work.
    I just have to tell you that as far as the United States is 
concerned, we are not going to accept an agreement that does 
not suit the purposes of unfettered, unconditional access and 
the proof of this will be in the testing and that is what our 
next steps are on this. As I said, if we do not find sufficient 
answers for this, we still will have the option of using force.
    So all this has done is to allow there to be the 
possibility of dealing with this issue by using UNSCOM, and 
UNSCOM, frankly, has been more successful than the Gulf War was 
in getting rid of weapons of mass destruction, so we will see.
    Mr. Rogers. Are there any places or sites or locales in 
Iraq that under the agreement are off limits, that we cannot 
get in?
    Secretary Albright. No. There are none, the way this is set 
up now.
    Mr. Rogers. The Presidential palaces supposedly are all 
open?
    Secretary Albright. They are, as far as this agreement is 
concerned, they are a part of this. That would be what this 
group does. And this is all very technical, and I can take a 
lot of time explaining this to you, but basically, UNSCOM 
itself has a group of experts that work for Butler. They 
themselves have been divided into groups already, those that 
are experts on chemical weapons, on biological weapons, and 
they operate in groups.
    So what is now going to happen is that there will be 
another group under UNSCOM whose job it will be to do these 
presidential sites. What has to now be worked out are the 
procedures for this.
    Mr. Rogers. Procedures?
    Secretary Albright. Procedures for how this group works. 
But it will be Chairman Butler and the people that are part of 
the group. The lead inspector of this group--I talked to the 
Secretary General this morning--will be an UNSCOM inspector. So 
there will be diplomats that are going along, but they are 
observers. They will not have any role in inspecting and they 
will not have the capability of in any way undermining or 
lessening or diminishing the role of UNSCOM.
    Mr. Rogers. But to clarify, there is no place in Iraq that 
is, under the agreement, that we cannot go in and inspect?
    Secretary Albright. According to this agreement, all sites 
are open for inspection, but there are different procedures for 
them, and that has been the case up until now, generally, that 
there has been a division between sensitive sites and regular 
sites. But this is the first time if, and this is a big if, as 
the President said, if this works where all sites are now open 
in an unconditional and unfettered way.
    Mr. Rogers. The agreement has language that the U.N. will 
``respect the sovereignty and territorial integrity of Iraq.'' 
What does that mean, and can that be used to impede 
inspections?
    Secretary Albright. That has, Mr. Chairman, been in 
previous language used by the Security Council. We ourselves 
have said that we respect the territorial integrity of Iraq 
because we want it to stay as one country. It is our 
understanding that that language in no way impedes the access.

            what constitutes a breach of the iraqi agreement

    Mr. Rogers. What would constitute a breach of the contract, 
the agreement?
    Secretary Albright. If they do not allow these inspections 
to take place.
    Mr. Rogers. Unfettered, uninhibited.
    Secretary Albright. Right.
    Mr. Rogers. Mr. Mollohan.

                  payment of united nations arrearages

    Mr. Mollohan. Thank you, Mr. Chairman. Madam Secretary, 
welcome to the hearing today as we review the State 
Department's budget request for fiscal year 1999, including a 
1998 supplemental to pay off our debts to the United Nations.
    I agree that it is time to reassert U.S. leadership in the 
U.N. and quit the role of the U.N.'s biggest debtor nation. I 
have always been supportive of paying the U.N. what we owe as a 
member nation. However, Madam Secretary, I do question the 
mechanism of using advance appropriations to accomplish that 
goal.
    Your budget for fiscal year 1999 in the aggregate is almost 
eight percent more than the 1998 appropriation. I am happy to 
see that this amount provides for overdue restoration to your 
infrastructure, for inflation and other mandatory increases, 
and for the beginning of construction of the new embassies in 
Berlin and Beijing. U.S. facilities in China are in deplorable 
condition, so I am pleased that this funding request addresses 
that problem.
    In addition, this budget request includes funding to 
proceed with the modernization of your information systems. It 
is absolutely critical that the computer systems that tie 
Washington to U.S. embassies all around the world make the 
change to the 21st century without crashing.
    In addition to your 1999 budget of $2.2 billion, you have 
requested advance appropriations of $475 million for fiscal 
year 1999 and $446 million for fiscal year 2000, totaling $921 
million for the payment of the arrears to the UnitedNations and 
related agencies.
    This amount, plus the $100 million in the 1998 
appropriation, will pay off the over $1 billion in debts to the 
U.N. and put the United States back in good standing. As I 
said, while I am not convinced that advance appropriations are 
the only way to do it, I am convinced that these arrears need 
to be paid.
    At a time when the Security Council of the United Nations 
is playing a vital role in, hopefully, averting the U.S. 
bombing of Iraq, it seems to me that the least we can do is to 
pay our debts to the U.N. In addition, I noticed that over half 
of this debt is for peacekeeping operations throughout the 
world, many operations of which have been undertaken at our 
request.
    Madam Secretary, the Administration has been negotiating 
with Congress for some time an agreement with regard to U.N. 
arrearages. Would you please advise the Committee of the status 
of the administration's negotiations with the Congress 
regarding these arrearages and U.N. reforms?
    Secretary Albright. Yes, Congressman, and thank you very 
much for what you have said in terms of the importance of 
paying up our U.N. arrears.
    First of all, let me say that what we have tried to do is 
make sure that the United Nations reforms--even those of us 
that are very supportive of the U.N., believe that it needed 
some very serious reforms. I know also that there have been a 
number of you that have felt that we should not be paying our 
arrears if we do not get the appropriate reforms. So we are 
trying to balance those two needs. The U.N. has, in fact, 
already undertaken some reforms. The Inspector General is one 
that is working well. There have been cuts in staff. We are 
able to get a cap on the budget that has never happened before. 
Secretary General Kofi Annan has put out a whole reform program 
that has worked administratively and we can provide you with 
all the details of that.
    We now have a problem because one of the reforms that we 
were trying to achieve was to get a reduction in our assessment 
rate. As you know, the U.S. has been paying 25 percent of the 
regular budget and we have agreed that it would be good to get 
that down to 20 percent. One of the reasons, Congressman, that 
we wanted to have the advance appropriation is that it is kind 
of a bone fide that we will pay our arrears. The payment out of 
them is conditioned on a set of benchmarks and reforms, but in 
order to get a lower assessment rate, which it is a three-year 
negotiation, it would have helped our negotiation with other 
U.N. members in order to get that reduction.
    The fact that we were not able to do that last year means 
that we were not able to negotiate a new assessment rate and 
one of the benchmarks that has been asked for in the bill 
cannot be met because we are not able to get the money in 
advance.
    So we are stuck. That is the problem. Our leverage in 
getting more reforms is dependent on the fact that they know 
that we will ultimately pay.
    Mr. Mollohan. What is the status of this agreement in the 
Congress? Have you achieved bipartisan support in both the 
House and the Senate on the reforms?
    Secretary Albright. Yes, sir. We had a bill where there was 
a bipartisan agreement in both houses, frankly, and what 
happened was that at the end of the session, this was held up 
by language to do with Mexico City.
    Mr. Mollohan. Can I suggest to you that there have been 
some expressions of concern on the House side, at least, by the 
authorizers that they were not really a part of that agreement 
and did not agree with some of the reform provisions?
    Secretary Albright. I think that they were part of the 
discussions. There are some members who believed that we were 
asking too much of the U.N. in terms of reform and believed 
that we were undercutting the United Nations. So for the most 
part, the objections to it from the authorizers were that they 
felt that we were unduly harsh about the United Nations.
    Mr. Mollohan. Are you communicating with those authorizing 
members who expressed those concerns and trying to address 
them?
    Secretary Albright. Yes. We have been trying, yes. But I 
tell you that it is not easy, given the fact that the 
preponderance of opinion is on the other side.

               Implemented reforms at the united nations

    Mr. Mollohan. How many of the so-called reforms are already 
being implemented at the United Nations?
    Secretary Albright. Well, a huge amount of them----
    Mr. Mollohan. And how many are not?
    Secretary Albright. Pardon?
    Mr. Mollohan. And how many are not?
    Secretary Albright. Well, I cannot give you an exact list 
at the moment. We will provide you with a list. But what I can 
tell you is that----
    Mr. Mollohan. You have made significant progress?
    Secretary Albright. Absolutely. There is no question that 
they have worked their way through a large proportion of the 
reforms and Kofi Annan himself has been one of the leaders in 
making this happen. So they have worked their way through it, 
but they have not been able to do some of the ones that are 
dependent on our providing money, such as the assessment rate.

      Request for advanced appropriations to fund U.N. Arrearages

    Mr. Mollohan. What about this advance appropriation you are 
requesting as a part of the agreement scheme, if you will? You 
did not get it last year. The Congress was not very receptive 
to the idea last year. What makes you think that it might be 
more receptive to an advance appropriation this year?
    Secretary Albright. Well, I think that what we are hoping 
is that the members will understand the validity of what we are 
doing and understand----
    Mr. Mollohan. Can I rely on your persuasive powers to come 
up here and convince them?
    Secretary Albright. I do believe that the U.N. is 
fulfilling an important role and that the possibility that it 
is there for us will become more and more evident. Also, the 
fact that we have lost now about $100 million a year to our 
taxpayers as a result of not having been able to appropriate 
arrears the money might be persuasive, because I think that 
there are many reforms we need, but one that would really be 
very evident would be a cut in our assessment rate and we 
cannot get that.
    What we managed to do, Congressman, was to, by dint of 
sheer force, keep the issue of assessment rates somewhat open 
so that we can re-vote on that in New York this year. But if we 
do not have any money in our pocket, then it is going to be 
very difficult to do that. So we need that money, and as you 
know, in the legislation as currently set up, it is not just 
paid out automatically.They have to meet a bunch of benchmarks 
before the money can be paid out.
    Mr. Mollohan. We know that you have a lot of problems with 
this legislation, the legislation that is carrying this 
agreement, or you hope will carry this agreement. Aside from 
that, if you do not get this advance appropriation, are you 
prepared, are you thinking of another way of dealing with the 
assurances to the U.N. that they are going to get paid?
    Secretary Albright. Well, except for our good word, I do 
not know how to do that. I mean, we have been----
    Mr. Mollohan. Will our good word carry?
    Secretary Albright. Pardon?
    Mr. Mollohan. At the end of the day, will our good word be 
enough?
    Secretary Albright. Well, we are losing steam. I mean, I 
can tell you from when I was ambassador there, it was 
difficult. I am sure that if you ask Ambassador Richardson, it 
is very difficult every day to be faced by other countries up 
there who are basically saying, you want us to reform, you want 
us to jump through these various hoops. Where is your money? 
And even our best friends, the British, are making those points 
to us, and it is very hard to get what we want. It is like in 
any system, these are not bills, Congressman, they are dues. It 
is like being in a club and simply deciding that you are not 
going to pay the dues.
    Mr. Mollohan. I am on your side with paying them. I think 
we need to, perhaps with regard to the method, think of another 
scheme.
    Thank you, Mr. Chairman. Thank you, Madam Secretary.

                  U.S. Diplomatic Policy Towards Iran

    Mr. Rogers. Mr. Regula.
    Mr. Regula. Thank you, Mr. Chairman. Thank you, Madam 
Secretary, even from Ohio.
    Secretary Albright. We have a lot of people here from Ohio 
today.
    Mr. Regula. You know, Columbus is used by most major 
companies as a test market.
    It is supposed to be a microcosm of America.
    Secretary Albright. Well, they are loud.
    Mr. Regula. That probably depends on the issue.
    Secretary Albright. It was great. It was great.
    Mr. Regula. You all did well. I watched it.
    Secretary Albright. Thank you.
    Mr. Regula. The policy on Iraq, as we wait to see if Saddam 
Hussein will abide by the U.N.-Iraq agreement, in addition to 
the military presence that will remain in the Gulf, there will 
be other measures taken by you and other administration 
officials to keep the pressure on Saddam Hussein to force 
compliance with the U.N. directives on weapons inspections. In 
particular, I am interested in any efforts that are being made 
with regard to recent overtures by the new president of Iran, 
Mohammad Khatami, who appears to represent a more moderate 
political wing within Iran. Washington and Teheran appear to be 
in agreement in urging Saddam Hussein to fully comply with U.N. 
resolutions. Is it time to build upon this apparent agreement 
of views and move toward a relaxation of tensions between the 
U.S. and Iran?
    Secretary Albright. Congressman, we have been very 
interested and intrigued by the election of President Khatami. 
It clearly is a departure in terms of the way that they have 
been operating. President Clinton when he was first elected 
made that point. President Khatami made a statement in which he 
made a number of points. President Clinton responded in a way. 
He sent a message at the end of Ramadan to Islamic countries 
and then had a particular paragraph directed to Iran indicating 
also our respect for their history and in some ways mirroring 
some of what President Khatami had said. As you know, our 
wrestlers have just been there and we are looking at how to 
look at various possibilities of some exchanges.
    Our problems are that the Iranians have been supporting 
terrorism, trying to acquire weapons of mass destruction, and 
they have not been supportive of the Middle East peace process. 
We have wanted to have a government-to-government dialogue, 
because while the people-to-people things are good, ultimately, 
the only way to solve problems is government-to-government 
dialogue. In the message that the President sent, he indicated 
that the best way to overcome these three problems, was by 
engaging in government-to-government dialogue.
    But we are following this very, very closely because we are 
very interested in what is going on, and I am very glad to see 
that you are interested in this.

                   Impact of USIA broadcasts to IRAQ

    Mr. Regula. I think it is an intriguing set of 
circumstances, and I noted in your opening remarks that you 
said very positive remarks about our relationship with Germany, 
which in my day and age was not quite that good. So I think 
there are always possibilities.
    The isolation of the Iraqi people, it appears that the 
people are isolated and receive most information through a 
media controlled by Saddam Hussein. I understand that USIA has 
been broadcasting into Iraq in both Arabic and English six 
hours a day and this has been increased by one half hour during 
the crisis. Do you have any idea what impact the U.S. 
broadcasts have had and what other measures could be used to 
communicate directly with the Iraqi people?
    Secretary Albright. Congressman, Dr. Duffy is going to be 
coming to testify and he can give you more detailed accounts of 
this, but we do believe that it is important for USIA to do 
what it is doing. One of the ideas that people are circulating 
is about the possibility of supporting a radio free Iraq. These 
and a number of other ideas, we are also looking into.
    I think that there is no question that the people of Iraq 
do not know enough about what is going on because they are 
totally controlled, and when Saddam can bring people out into 
the streets or make them human shields or contemplate making 
them human shields, it is a sign of a society that does not 
know what its leaders are doing. So I think that Dr. Duffy can 
address more closely for you what you asked, but we believe 
that we need to do whatever we can to let the people know what 
is going on.

                        STATUS OF NATO EXPANSION

    Mr. Regula. My last question, where are we in the process 
as far as NATO expansion to the three countries, and as part of 
that, there has been a confusing estimate of costs. NATO says 
it is between $1.3 and $1.5 billion over ten years. The 
Administration's estimate is $27 to $35 billion over roughly 
the same period. The previous CBO estimate was a range between 
$60 and $125 billion. It is quite a confusing range. I just 
wondered, where are we procedurally and how do you address this 
great variance in cost estimate?
    Secretary Albright. Well, first of all, procedurally, what 
has happened is that the President has submitted the protocols 
of ratification to the Senate, and yesterday,Secretary Cohen, 
General Shelton, and I testified to that. The countries were invited. 
We are now waiting for Senate ratification on this. There are two 
countries in Europe that have already ratified them and all members of 
NATO have to, through their parliamentary procedures, also agree to it.
    The countries themselves are already very actively 
participating through Partnership for Peace activities with us, 
and it should be noted that when the three foreign ministers 
were here a couple of weeks ago and I spoke to them about Iraq 
and the necessity of us all being together, they did, in fact, 
immediately say that they wanted to be of assistance and they 
consulted with their governments and in various ways they were 
allies even before they were allies really. So they have been 
helpful, and we hope that the Senate will advise on the 
ratification sometime next month.
    As far as the budget numbers, the confusion came from the 
following problem. Originally when the Defense Department set 
up its numbers, they had talked about having four countries in 
NATO, new countries, and a number of other variables that then 
turned out to be quite different.
    What then happened was that NATO itself has had a procedure 
whereby they have analyzed how much it would really cost. They 
sent out questionnaires to the countries. It is a very 
complicated procedure. They then came back with some numbers 
and we now have what people think is a definitive number, which 
is about $400 million over ten years.
    Mr. Regula. That is per year or a total of $400 million?
    Secretary Albright. A total of four hundred million 
additional. I mean, there is a chart which explains what is 
part of the common budget.
    But the other part, Congressman, that I think is very 
important is the countries themselves, those three countries 
have upped their own defense budgets to make themselves viable. 
They have already done a number of things in terms of having 
interoperability. So I think that it is moving quite well.
    Mr. Rogers. The Secretary's staff has indicated that she 
has to leave about 4:15, so we only have about 20 minutes. Can 
we live with five minutes apiece for the remaining members?
    Secretary Albright. I will make my answers briefer. I am 
sorry.
    Mr. Rogers. Mr. Skaggs.

              Administration's View of Mexico City Policy

    Mr. Skaggs. We have got almost 20 minutes. Thank you, Mr. 
Chairman.
    First of all, I probably owe you royalties because in 
discussion of the U.N. dues issue at home, I frequently recall 
your quip about interactions with the Brits in which they 
accuse us of representation without taxation--I am not even 
sure that was original with you, but----
    Secretary Albright. No, it was with them.
    Mr. Skaggs. But I heard it from you. Anyway, I hope we can 
improve on that.
    Pertinent to that, I was at a dinner a few weeks ago in 
which the speaker was asked about why we cannot get this 
solved. I want to be fair and accurate in representing his 
answer, but it was essentially, well, if the Democrats in the 
Administration would relent on a relatively trivial concern 
about this population policy, we could have IMF and the U.N. 
and everything else on the floor tomorrow. I thought it would 
be important to give you an opportunity to explain more fully 
why this is not a trivial matter when we are talking about the 
Mexico City policy and the disagreement that I know the 
Administration and many of us on our side have about this.
    Secretary Albright. Yes. Thank you very much. I think, 
clearly, this is an issue that has to do with family planning 
and questions of whether one is pro-life or pro-choice. This is 
a very basic issue that the Members of Congress and the 
American public have a lot of questions about. I think it is 
not a trivial issue. It has to do with a question that this 
country is seized with.
    I have said that I happen to be on one side and Congressman 
Chris Smith, who is so interested in this, is on the other, and 
I in no way dispute his right to have his view. I think there 
are an awfully lot of very good people on both sides of this 
issue and people think we ought to compromise about it.
    I do not think it is possible exactly. First of all, I 
think there is a lack of clarity on something. There are no 
Federal funds used for performing abortions or lobbying for 
that. There is a misunderstanding about that.
    What we were asked to do was to limit what lobbying could 
be done. Now, lobbying is such a broad term that it meant that 
organizations, international organizations that even attend 
conferences at which there is a discussion of their abortion 
laws, whatever country they are in, they could not be there. So 
it is basically an international gag order and limits the 
abilities of these organizations to function, despite the fact 
that they do not use American taxpayer funds.
    I think it is hard to compromise on an issue of such 
importance. It is a really important issue. Why do we not have 
a debate and a vote up or down--that is the democratic way--and 
separate it from what is national security legislation. What is 
happening here, Congressman, is this is shutting down our 
foreign policy.

 international and constitutional laws that allow the u.s. to initiate 
                      military action against iraq

    Mr. Skaggs. Thank you for your comments on that.
    I wanted to talk about the Iraq situation, but perhaps with 
a slightly different twist to it. I think it is very important 
for the United States to be as firm an adherent of the rule of 
law in these circumstances as we are able to be, and so I am 
concerned both about the international law and the domestic 
constitutional law questions with regard to the adequacy of 
authority for the United States to initiate a major military 
action against Iraq. I would assume that as to the 
international law issue, anyway, your Department would be the 
authoritative source of analysis for the United States 
Government.
    I do not know whether you also wish to tackle the 
constitutional law issue or pass that one on to one of your 
colleagues--this is not really to ask you to make a comment 
orally this afternoon. I think we need a level of precision and 
written concreteness to be adequate to the task and I just hope 
that the Department, whether the legal advisor or other 
appropriate authority could supply for the record a definitive 
statement of the government's position on these two questions.
    [The information follows:]


[Pages 159 - 160--The official Committee record contains additional material here.]



    Secretary Albright. If I could just say generally, though, 
as far as the United Nations is concerned, we believe that we 
have the authority in existing resolutions to use the force 
that we need to, and while it would be nice to have an 
additional Security Council resolution, we do not need it. Our 
sense is also that the President does have constitutional 
authority within our own system to do so, and again, it would 
be nice to have a resolution of support.
    Mr. Skaggs. Many of us hold up a different point of view on 
both of those questions and I hope we can take some of the time 
that is now made available to us to really get that 
straightened out. Thank you.
    Secretary Albright. Yes. We will do that.

              organ harvesting efforts in chinese prisons

    Mr. Rogers. Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman.
    Madam Secretary, thank you again for your indulgence and 
your time today. In the country report that the State 
Department released last year, there was reference made to the 
government of China and the positive actions that the 
Department believes have been accomplished in human rights, 
particularly that there has been some movement in human rights.
    I just wanted to touch on an issue that I know is one that 
has come up over the last several years. Harry Wu particularly, 
the human rights activist, and Amnesty International have 
played a large role in trying to expose the so-called organ 
harvesting efforts that are going on in some of the Chinese 
prisons. It is most poignant because just yesterday, I think, a 
Federal undercover operation in New York City revealed that two 
Chinese nationals, one claiming to be a former Chinese 
prosecutor, were involved in the actual sale of organs, 
kidneys, corneas, and other organs, and that, in fact, this has 
been going on for quite a while, and notation being made of 
some 50 of 200 prisoners who have been executed, their organs 
have been involved in something of this nature.
    I know there was a report from the Chinese central 
government that was released in 1990--I guess it goes back to 
1984--that acknowledges that there is this activity, and I know 
that you have been asked about this before and expressed some 
frustration on the difficulty in trying to get the Chinese 
government to clamp down on this most heinous activity.
    I just bring it to your attention again because I think 
that the State Department has made some positive movements, as 
you said, in human rights and some other areas and had some 
influence with the Chinese government. We see by what happened 
yesterday, the revelation in New York City of the sale of these 
kinds of organs. I would ask if you have some plans for the 
Department to take a more aggressive posture in clamping down 
on the sale of these organs that are apparently coming from 
prisoners who are executed, and as I understand it, the culture 
in China just would not suggest that--they would not approve of 
this and there has been no evidence that any prisoners have 
actually approved of it. I would ask and plead with you, 
frankly, that the State Department take a more aggressive 
posture on this issue.
    Secretary Albright. Congressman, you have stated everything 
clearly, that there were two Chinese citizens that were 
arrested for these alleged violations and the Chinese 
government was notified of those arrests on February 23, in 
accordance with our consular obligations. We are still trying 
to ascertain more facts about this and it is an ongoing 
investigation, so the U.S. Attorney's Office has really been 
working on this.
    But basically, as you know from our human rights report, we 
do consider this practice abhorrent and we have been very 
concerned about all of this. I can also tell you that we are 
taking these allegations seriously. We have repeatedly raised 
this issue in meetings with senior Chinese officials and we 
have asked for results of any investigation in the matter.
    The Chinese have responded that there have been no criminal 
charges filed or cases opened. Therefore, as far as we know to 
date, there are no Chinese investigations or reports of arrests 
for illegal trafficking by the People's Liberation Army in 
human organs or anyone else in China. But I can assure you that 
we will continue to pursue these issues with the Chinese 
authorities, because it is an abhorrent practice.

                       middle east peace process

    Mr. Forbes. Thank you. I just had one final question. Is 
the United States planning to offer its own peace plan to get 
the Middle East peace process moving? Are you planning to offer 
some kind of plan to Arafat and Netanyahu to try to get this 
moving?
    Secretary Albright. We have spent a great deal of time. I 
have to say, 1997 was not a great year for the peace process, 
and I met with both leaders a number of times already this 
year. We have been in touch with both of them. They had envoys 
here last week, where, I am afraid, that not a great deal was 
accomplished. We believe that, as I have said to them 
individually, the U.S. can act as a catalyst and as a mediator 
and as an honest broker, but ultimately, they are the ones that 
have to make the hard decisions and that is what we keep 
pushing them to do. We are in the midst of a process of going 
back and forth between them to try to make that happen.

       adequate military resources for carving out foreign policy

    Mr. Rogers. Mr. Latham.
    Mr. Latham. Thank you, Mr. Chairman. I appreciate the 
opportunity to see you again and have you back before the 
Committee.
    Madam Secretary, as you know, the President has now 
committed more than 35,000 soldiers, sailors, Marines, and 
airmen to the Persian Gulf region. In addition, the United 
States maintains a force of more than 35,000 troops in South 
Korea, 40,000 in Japan, 45,000 in Germany, and 13,000 in 
Bosnia. In fact, according to the Army Chief of Staff, General 
Dennis Reimer, the U.S. Army is deployed in 100 countries 
throughout the world. Actually, I think it may be more than 
that. If you count some details to embassies, it is up around 
135 countries right now.
    That being said, do you think we need to seriously question 
the Administration's foreign policy, which seems to be that 
unlimited military resources are at their disposal and yet the 
resources that the Administration provides for national 
defense, they actually decline, and some would say are 
certainly inadequate. Are there enough military resources 
available and coordinated well enough for the foreign policy 
commitments that you have, and are you concerned that the 
Administration may be overextending the military personnel and 
undermining, really, our credibility as far as enacting your 
foreign policy?
    Secretary Albright. Congressman, I sat yesterday with 
Secretary Cohen and General Shelton as they were asked about 
readiness and various issues and they obviously have concerns 
and will be discussing that with their appropriate committees. 
My own sense is that the partnership between diplomacy and the 
use of force and even the military is working very well. The 
budget for the State Department is quite small, frankly, less 
than one percent of the entire Federal budget.
    So while the military is vital to us and I applaud it and 
we need to work with it and we do, I am very concerned about my 
own budget and hope very much that we can get full funding for 
that.
    But let me also make very clear that if this particular 
agreement meets all the tests that we are putting down for it, 
then it will be a result of what is a classic case of diplomacy 
and the threat of the use of force working together. I have 
been a professor. If this works, this will be a brilliant case 
study because it is doing exactly what it is supposed to do. I 
am very proud always to be able to stand by it and to have the 
military with us on these kinds of issues.
    Kofi Annan himself said diplomacy is fine, but when it is 
backed by the threat of the use of force, it is better. The 
Russians have made that clear. All the countries that I have 
dealt with now in the last 48 hours, while they might have not 
wanted us to use force, certainly understand the value of that 
partnership, and I hope that we can continue that without 
actually using it.
    Mr. Latham. Did the fact that we have limited resources 
available and the reality, as far as if we were to go into 
Iraq, that we do not have the personnel available to occupy the 
country, did that limit the options that you had as far as 
negotiation or as far as our policy, the fact that we simply do 
not have enough resources?
    I have got an Army National Guard unit who could not go to 
mandatory training exercises because they did not have enough 
gas in the budget for the buses. I mean, it is to the point 
where I think it really does affect your ability to carry out 
foreign policy.
    Secretary Albright. Well, let me say that on the Iraq 
question specifically, the options that we had on this 
particular issue were to do nothing and let this go forward, to 
have an invading army, the role of which would be to overthrow 
Saddam Hussein----
    Mr. Latham. Did we have that option?
    Secretary Albright. Well, I think we decided, all of us, 
that when there were half a million American troops there in 
1991, the decision was made not to do that and that there is no 
way of proving, even with that number, that you could have 
achieved that result. So I do not think, sir, that----
    Mr. Latham. I am just questioning, excuse me, is that 
option available.
    Secretary Albright. But I do not think that the problem 
here was not enough resources. I think it is more a policy 
question of wondering whether even a large number could do the 
job or whether that was the right national security decision, 
because our national interest on this is to try to diminish his 
weapons of mass destruction threat and his threat to his 
neighbors. While this position may not be aesthetically 
pleasing, it is strategically sound. And I have also said that 
we are ready to deal with a post-Saddam regime, but I do not 
think, sir, that it has to do with the lack of resources.
    Mr. Latham. I would also like to submit some questions to 
you for the record.
    Secretary Albright. Thank you.

                u.s. involvement in middle east process

    Mr. Latham. Thank you, Mr. Chairman.
    Secretary Albright. Could I clarify something, Congressman 
Forbes, on the Middle East? We do not have a plan. We have 
ideas that we are working with in terms of trying to get them 
to make their own decisions, but there is no such thing as an 
American plan for the Middle East peace process.
    Mr. Forbes. Will there be one?
    Secretary Albright. I do not think so. I think the 
important point here is for the parties themselves. They are 
the ones that have to make the hard decisions.

     u.s. authority to declare a breach of the u.n. iraqi agreement

    Mr. Rogers. We are going to try to get the Secretary out of 
here momentarily because she does have other engagements, as 
difficult as that is for us to believe.
    Madam Secretary, the agreement, I assume at some point in 
time, will be submitted to the Security Council for resolution 
of approval, is that correct?
    Secretary Albright. They are, as we speak, working on a 
resolution that would embody parts of the agreement.
    Mr. Rogers. And assumedly, that then would contain all the 
clarifications that you have spoken of earlier?
    Secretary Albright. I am not sure that they will be in the 
resolution itself, but there will be a way for us to assure 
ourselves of the clarifications. But it is the testing of them 
that is the clear point here.
    Mr. Rogers. Now, the question arises, suppose we, the U.S., 
decide that there has been a breach or a non-compliance with 
the agreement. Do you have to go back to the Security Council 
to have them declare breach or can you unilaterally, can the 
U.S. unilaterally declare there has been non-compliance or a 
breach and proceed with whatever actions you wish to take?
    Secretary Albright. I do not have the President's words in 
front of me, but he did say when he appeared to discuss this 
that the decision was going to be ours and it would be at a 
time and place of our choosing and we were not waiting for 
anything. We believe we have authority, as I said to 
Congressman Skaggs, so we are not waiting for anything.
    But I do think, sir, that it is very important for us to 
test whether this system works, and it is not something that is 
going to be able to be determined in one single test. It is 
very hard. I think we are going to have to make sure that this 
system works, and if it does not work, we will make the 
decision, which is in America's national interest.

         what saddam hussein received from u.n.-iraqi agreement

    Mr. Rogers. The question is, what did Saddam get out of 
this deal? He had to get something in order to come to the 
agreement. Did he get something in return?
    Secretary Albright. I think that the record of Saddam is 
that he has changed his mind a number of times when there has 
been determination and unity, and what he did was reverse 
course and allow this unfettered access. I think that my sense 
of what he got out of it was some attention, basically, from 
the world, and there are those who believe that sanctions ought 
to be lifted. We do not believe that.

                 lifting of u.n. sanctions against iraq

    Mr. Rogers. Well, what he wants eventually, I assume, is 
the lifting of sanctions. Is there anything in the agreement or 
in the understandings or in the clarifications that relate to 
the lifting of the sanctions?
    Secretary Albright. I do not have the exact words--but 
basically it calls for bringing to the attention of the 
Security Council the fact that sanctions ought to be lifted. 
Now, I can tell you again from my experience there that 
somebody brings that to the attention of the Security Council 
every time there is a sanctions review, and every time that 
that review comes up, the British and the Americans and 
sometimes others will say he has not fulfilled his obligations 
under the relevant Security Council resolutions and we will not 
lift sanctions. That continues to be our position, that he has 
to fulfill the relevant Security Council resolutions.
    Mr. Rogers. But he does have a fairly powerful voice now 
speaking for lifting the sanctions in the Secretary General, is 
that not correct?
    Secretary Albright. No. I think previous Secretary General 
Boutros-Ghali had the same opinion, so there is nothing 
different in that. And believe me, we do have a veto in the 
Security Council and this is an issue that we are watching very 
carefully.
    Mr. Rogers. The Secretary needs to leave forthwith. Does 
the gentleman have a quick question?
    Mr. Obey. I have just one comment and one question. With 
respect to Columbus, I would simply say that as a graduate of 
the University of Wisconsin, I deeply resent that anybody even 
mentions Ohio State. They beat us 17 straight times at 
Columbus. And so if I were you, I would deny I ever was in 
Columbus.
    Mr. Rogers. Madam Secretary, let me just say, in response 
to that, I am sitting between Ohio State and Wisconsin here, 
but I am just going to tell you, if you will come to Lexington, 
to Rupp Arena, we will be real quiet.
    Secretary Albright. I will be happy to.
    Mr. Obey. I just wanted to say, Madam Secretary, that I am 
happy with the way things turned out in Iraq. As you know, I 
had some concerns about long-term consequences of our engaging 
in an air attack on Iraq. I think it is obvious that the 
Secretary General would not have come away with anything 
significant had the administration not sent a substantial 
military force to the area, and I think that was a very useful 
thing to do.
    I am somewhat amused by those who seem to say, well, the 
administration ought to raise its targets and have a more 
ambitious and expansive plan for dealing with it. I think those 
who are blithely saying that we ought to raise our goal to 
simply get rid of Saddam ought to be frank enough to say that 
what they are talking about is injecting 200,000 or 300,000 
troops into the area. It is nice to mouth the soft language, 
but people need to understand what it would take to actually 
accomplish that.
    I would simply say with respect to U.N. arrearages, I hope 
that the Congress supports the Administration request because I 
think that, especially at a time like this, it would be very 
useful. I know how I would feel if I were a member of the club 
and somebody else had not paid up their dues and yet they were 
trying to tell the club what we ought to be doing on a day-to-
day basis as the big guy on the block. I think I would have 
minimum high regard for that reaction and I think we 
unnecessarily handicap ourselves in the United Nations if we do 
not finally take care of thoseobligations. I thank you for 
coming.
    Secretary Albright. Congressman, it is absolutely true and 
one feels it every day up there, and I think the fact that the 
United Nations is working effectively for us in many ways, and 
especially on the Iraq issue where the Secretary General has at 
least provided the possibilities of dealing with this in a 
diplomatic way.
    As I have said to the Chairman and others here, this is not 
over. We have to test this, and I have been asked by others 
whether I feel relieved. Not particularly. I mean, I am taking 
this one step at a time and I think we have to test it, and 
there is no question that our force presence there has made a 
difference. But I think we have to try to clarify what has been 
agreed to and test it and we always have that option.
    As for a large ground force, there was a large ground force 
there and it did not proceed. There is no guarantee even that a 
large ground force could accomplish this.
    Mr. Obey. Right.
    Secretary Albright. So I think we are doing the right 
thing. I do think that we have to continue to test it and, Mr. 
Chairman, on the question of sanctions and the Secretary 
General, he is not himself calling for lifting of sanctions. 
What he has said is that he would raise the issue in the 
Security Council, and others have done that. So that is 
something that is not his to be decided. It is to be decided by 
the member states.
    Mr. Rogers. In wrapping up the hearing, in a timely 
fashion, let me attempt to close here briefly.
    The counterweight to the argument that we are on the right 
path here is a fear that, as captured in the recently-released 
CIA paper on Iraqi weapons of mass destruction programs of 
February 13, which the President referred to in his address at 
the Pentagon, ``Saddam's strategy in dealing with UNSCOM is 
unchanged. He is actively trying to retain what remains of his 
weapons of mass destruction programs while wearing down the 
will of the Security Council to maintain sanctions.''
    This agreement could very well play right into that 
strategy, leaving Saddam in place until he again can test the 
coalition again that we had so much trouble holding together in 
this crisis. He has not been punished. He has been encouraged. 
He has been treated like a world leader. And now he has the 
Secretary General as somewhat of a counterweight to our 
willingness to bring the issue of the end of sanctions to the 
attention of the Security Council.
    So Saddam, a threat to the world, remains even more firmly 
in place as a result of this agreement. In fact, one could 
argue he has been somewhat strengthened by this process. You 
can comment if you would like.
    Secretary Albright. Mr. Chairman, I do not believe that he 
has been strengthened by it. I think that what he has done is 
allowed, if we test it, unfettered, unconditional access to all 
sites, something that we never had before. And my own sense 
about this is that UNSCOM has done a great job in the seven 
years, but they clearly were getting close to things that he 
wanted to hide. He has now submitted to the fact that those 
sites will be open for inspection by, and this is what we have 
to assure ourselves of, a professional group of experts under 
the direction of UNSCOM, this same group. So we have to test 
that.
    So I do not think he is strengthened. I think that he will 
play it. Obviously, we were talking about the fact that he has 
control of media and I think that he will play that to the 
hilt. There is no question about that. But in my mind, he has 
not been strengthened, and if he does not change his behavior, 
we will act. We are no less intent on acting than we were a 
week ago, but I think that it is useful for this diplomatic 
opportunity to work to get a peaceful resolution. If it does 
not work, it will be evident to the entire world that this 
person who signed an agreement with the Secretary General who 
represents the international community, has reneged and it will 
give us even more validity in acting, not that we needed it, 
but it will, I think, do that.
    So I think that this is not the end. We are going into a 
very intense period here now where I will continue to work 
diplomatically. Our forces will stay there and the inspectors 
will test, and I am sure that we will have lots more questions 
about it. I do believe that the Secretary General performed a 
useful function. It is now our time, as members of the Security 
Council, to do our job and for the United States to remain ever 
vigilant that the tests are properly carried out and prepared 
to act if they are not.
    Mr. Rogers. In that respect, I think you will find 
unanimity in the Congress, as well.
    Thank you very much for your time and your attention.
    Secretary Albright. Thank you.
    Mr. Rogers. Let me say to you in closing, we are still 
under the same spending caps that we were under last year. The 
budget agreement tells us what we can and cannot spend in terms 
of numbers. We are still squeezed, even though there is talk of 
surplus out there on the horizon somewhere.
    I am very much concerned along with you that the State 
Department has been shortchanged for the last dozen years. This 
current year, we attempted to begin to rectify that problem. I 
know how it hurts and we are very much aware ofyour needs and 
we are going to do all that we can to help you.
    I am very much also aware of the need for embassy 
facilities both in Berlin and Beijing, among other places. I am 
somewhat concerned about the dollar figures that we have seen 
on those projects. We have had a preliminary discussion with 
your staff. We will have more. We want to work with you on 
trying to rectify those problems, among others. But there may 
come a time when it will be necessary, hopefully, for you to 
discuss a matter or two with the government of Germany about 
the project in Berlin. Nevertheless, we will be working with 
you from here on those projects and we assure you we will in 
good faith try to help to resolve the difficulties.
    Secretary Albright. Thank you, Mr. Chairman. I appreciate 
not only what you have said but the way that we have been 
working together on all this. You are the best friends we have 
and I really appreciate it and I look forward to working with 
you throughout the session.
    Mr. Rogers. Godspeed to you.
    Secretary Albright. Thank you.


[Pages 169 - 219--The official Committee record contains additional material here.]



                                         Wednesday, March 18, 1998.

           STATE DEPARTMENT ADMINISTRATION OF FOREIGN AFFAIRS

                               WITNESSES

BONNIE R. COHEN, UNDER SECRETARY OF STATE FOR MANAGEMENT
RICHARD GREENE, CHIEF FINANCIAL OFFICER
    Mr. Rogers.  The subcommittee will come to order.
    Today we have with us Bonnie R. Cohen, Under Secretary of 
State for Management of the Administration of Foreign Affairs. 
She has established a good track record of supporting both the 
resources necessary to project our diplomatic presence around 
the world and the reforms that can be made to make the 
Department a better and more efficient operation.
    We would expect that you bring an outsider's perspective to 
the Department with an ability to look at what is, and ask why, 
and to look at what could be, and ask why not?
    Secretary Cohen, this is your first appearance before this 
Subcommittee. We look forward to working with you. I would 
expect that all of us will have a good working relationship 
with you.
    Before we turn to you for your statement, I just wanted to 
take a moment to recognize the person at the table with you, 
Rich Greene, Chief Financial Officer of the Department. We are 
told that Rich might be soon moving on to another assignment 
after many years of fine service. He has been helpful to this 
Subcommittee, to our staff, and to all of us for many years 
now. We wanted to congratulate him and wish him well in his 
future endeavors.
    Mr. Greene.  Thank you, Mr. Chairman.
    Mr. Rogers.  Secretary Cohen, we will make your written 
statement a part of the record and invite you to summarize it 
if you would like.

               Under Secretary Cohen's Opening Statement

    Ms. Cohen.  Thank you very much.
    I would like to thank you and Congressman Skaggs and the 
rest of your Committee for the support that you have shown the 
State Department, especially for your support of the budget in 
FY 1998. In fiscal year 1998, for the first time in five years, 
the Department's financial picture brightened. We already see 
positive results which I want to share with you today. I seek 
your support now for the Department's FY 1999 budget request.
    Three weeks ago before this Committee, Secretary Albright 
outlined the foreign policy challenges that lay before us 
today, in Bosnia, Kosovo, Indonesia, the Great Lakes of Africa, 
and the Middle East. We face an array of foreign policy issues 
that call for American participation and leadership. The 
accounts funded by this Subcommittee provide the diplomatic 
tools to keep our citizens safe, uphold our values, advance our 
interests, and protect our borders. To achieve our goals, we 
need a trained, skilled, flexible workforce, timely and 
accurate information, and secure operational facilities.
    As you have said, I am an outsider to this agency.
    During my six months at the State Department, I have been 
struck by the scope and complexity of our operational 
requirements. We have provided you some data on this chart 
here.
    [The information follows:]


[Pages 223 - 225--The official Committee record contains additional material here.]



    To carry out our global responsibilities, the Department of 
State maintains, as you have said, over 250 diplomatic and 
consular posts. It employs a workforce of about 14,000 
Americans, and 9,000 foreign nationals in more than 140 
different personnel systems worldwide. It does business with 
world leaders in over 60 foreign languages. In 1997, the 
Department processed over 8 million visa applications, issued 6 
million passports, and sent and received 9 million pounds of 
mail.
    However, over the past few years, cost cutting has had 
serious consequences for our ability to carry out our mission 
well. For example, the Department has more than 300 vacancies 
for American positions worldwide, especially in critical areas 
like information management and consular operations. The gaps 
result in an over-worked and an insufficiently trained staff.
    The Department processes 3 million cables and 40 million 
electronic mail messages per year but as you are well aware, 
our communications systems in the majority of posts are slow at 
best, and often break down. While we have begun to turn the 
corner with your help, we still have a long way to go. 
Overseas, approximately 50-percent of our telephone systems, 
50-percent of our radio equipment, 70-percent of our classified 
computers, and 35-percent of our unclassified computers would 
have been obsolete by 2000 without your help.
    Americans would be surprised, if not appalled, at the 
disrepair of many of our buildings overseas. For example, our 
posts in China are overcrowded, technologically starved, and 
seriously in need of improvements in safety and security. At 
our embassy in Beijing, sewer gas leaks through the building. 
Yet, in the past year, American staffing from all U.S. 
Government agencies increased by 15-percent in China. It is 
likely to increase more.
    Thanks to your support in 1998, we have been able to 
undertake several initiatives to improve our operations.
    For instance, our fiscal year 1998 hiring plan allows us to 
fill vacancies by hiring to, not below, the attrition rate, for 
the first time in years. Even this modest effort will have a 
positive impact on our staffing needs.
    With the doubling of our information technology investments 
in fiscal year 1998, we have installed modernized computer 
systems at 53 posts abroad, and are on target to complete the 
installation of the remainder by the end of 1999.
    Work is also underway to replace, convert, or repair our 78 
mission-critical systems to be year 2000 compliant. We hope for 
it to be completed on schedule, though, we, like every other 
government agency and private corporation, will not know how 
successful we are until we test the revised systems.
    With your support, we have consolidated information 
technology programs under the leadership of the Chief 
Information Officer and have intensified our efforts to recruit 
qualified information management specialists.
    Computer training at the Foreign Service Institute 
increased by 30-percent in FY 1997. Internet comes to the State 
Department building this month.

                             real property

    Last year, we sold $112 million of real property overseas. 
With proceeds from property sales, we are planning to design 
and construct new facilities in Shanghai, Abuja, and Sofia, for 
example.
    The Real Property Advisory Board is fully operational. We 
have segregated the accounting for sales as GAO requested, and 
we are in the middle of a study with the Harvard Business 
School bench-marking our disposal practices against the best of 
U.S. multi-national private industry to see where we can 
improve.
    In addition, we have signed an MOU with the Inspector 
General's Office to have them independently verify surplus 
property overseas on a scheduled basis for each post.

                            border security

    Border security is obviously an important issue. Every visa 
issuing post now can perform automated name checks with the MRV 
system. We now process half of our total non-immigrant visa 
applications with modernized systems. We are on track to 
install year 2000 compatible systems in 100 posts in fiscal 
year 1998, and in additional posts in fiscal year 1999. We want 
to thank you for your foresight and support in continuing our 
ability to retain these critical fees.
    In Mexico, we are also implementing, beginning in April, in 
cooperation with the INS, the Border Crossing Card Program 
mandated by Congress. In FY 1999, the Department expects to 
receive more than 1.5 million applications for either first-
time cards or re-adjudicated cards. This project will continue 
for several years as we re-adjudicate the estimated 5.5 million 
Border Crossing Cards now held by Mexican citizens. This 
requires significant expansion of our consular facilities. All 
costs will be recovered from fees charged to the applicants.
    U.S. citizens' passports fees have been reduced from $65 to 
$60 for first-time applicants and from $55 to $40 for renewals.

                                security

    The security area is obviously of concern to us all. 
Americans have a right to assume that our first priorities in 
security are their safety, the protection of sensitive 
information, and the safety of those who travel overseas or 
choose to work for the government. We have undertaken specific 
initiatives to improve computer network safety, including 
security network monitoring, which we will be gladto share with 
you at a separate meeting.
    We also plan to establish an Anti-Terrorism Emergency Fund 
that would be used for extraordinary, unbudgeted security 
requirements. I want to thank you and your colleagues for 
supporting these security improvements.
    Ultimately though, security is an individual 
responsibility. We will be increasing training for all staff of 
the State Department in this key area.

                           overseas staffing

    We are implementing the overseas staffing model, using its 
results to guide decisions about the Department's hiring plan 
and the distribution of positions.

                                 icass

    With the strong leadership of you, Mr. Chairman, and the 
Committee, we are in the first full year of the International 
Cooperative Administrative Support Services, or ICASS, system 
at 162 posts. ICASS provides an equitable and transparent 
system for distributing the costs to all agencies involved. We 
have now started to analyze the data to improve service 
delivery. This will be a very valuable planning tool.

             consolidation of the foreign affairs agencies

    As part of the reorganization effort, the Department has 
been working closely with ACDA and USIA to plan for 
consolidation. Progress in this area continues in ACDA under 
ACDA Director, John Holum, who is also our State Department's 
Acting Under Secretary of State for Arms Control and 
Nonproliferation.
    We are not as far along with the integration of USIA, 
although we are cooperating in administrative areas. Much work 
was done last year under the guidance of the reorganization 
steering committee to prepare. Significant future progress 
depends, however, on the passage of legislation. Your support 
of this proposal is very important.

                         fy 1999 budget request

    Let me now highlight the major elements of our budget 
request. We are requesting an additional $101 million to fund 
mandatory pay raises and to cover overseas and domestic 
inflation. That represents an increase of about 4.8-percent.
    We must continue to improve our information technology 
infrastructure and work towards year 2000 compliance, and we 
must deal effectively with information security. Our budget 
request seeks an increase of $32 million in information 
technology investments from $86 million to $118 million.
    We must maintain an inventory of overseas facilities that 
are safe, secure, and operationally efficient. We are 
requesting an increase of $242 million primarily to fund the 
new embassies for China and Germany.
    As U.S. vital policy interests in China grow, we have an 
urgent need in Bejing for an appropriate secure workplace with 
modern infrastructure and communications. As I indicated, the 
present chancery is overcrowded, poorly configured, and has 
fire, life-safety, and security problems.
    In 1999, the Germans will complete the move of their 
capital from Bonn to Berlin. We need to build a new embassy for 
the new capital. The Department is requesting $50 million, in 
part, to design and then construct and furnish a new Berlin 
Chancery. We will finance the balance of the $120 million 
capital costs with proceeds from property sales in Germany.
    In closing, I would like to emphasize that effective 
leadership in foreign policy requires a close connection 
between the management of resources and the development of 
policy. If we are going to maintain a world class diplomacy, we 
need to ensure that our diplomats and our facilities are world 
class.
    Mr. Chairman, we need the Subcommittee's continued support. 
If you give us the tools we need, we will do the job well. 
Thank you. I will be glad to answer your questions.
    [The statement of Ms. Cohen follows:]


[Pages 230 - 256--The official Committee record contains additional material here.]



                      state department management

    Mr. Rogers.  Well, thank you, Madam Secretary.
    Let me talk in a general sense quickly here about the 
Department. This is your first hearing here and you have only 
been on the job for six months or so.
    Do you find the State Department to be a well-managed, 
efficiently-run department?
    Ms. Cohen.  I did not have a background in the State 
Department or its operations before. I can just tell you what I 
think. Based on these six months, I have been surprised at the 
extent to which the Department's resources are stretched very 
thin.
    We do not have the information technology resources we 
need. We have personnel vacancies. Because we have vacancies, 
we are sending people into positions for which they are not 
fully trained. As a result, we have morale problems.
    I do not see a lot of fat in the State Department, but I 
see that we are going to have to make, even with your help in 
additional funding, hard choices.
    Mr. Rogers.  I guess what I am looking for here are some 
very broad management goals that you have set for yourself and 
the Department. So that a year from now we can measure your 
progress on your scale of measure. Give us your broad goals.
    Ms. Cohen.  I have goals in four areas. The first comes 
from the Secretary and that would be the consolidation of the 
other agencies with the State Department. That obviously is 
delayed from lack of enabling legislation.

                         personnel and training

    I took the first two months after I got here as an 
opportunity to learn as much as I could. Based on that, I have 
goals in the following areas. In the personnel area, I have two 
major concerns that I think are shared by most of the people in 
the Department and the Secretary. The first is the composition 
of the workforce. That is, are we recruiting, training, 
keeping, motivating the people that we need for the challenges 
in the next century? We are going to be taking a close look at 
that. We will be glad to report back to the committee on that.
    Secondly, I am very concerned with training in the 
Department. At the support level and in the computer area, we 
have not had the resources to train people appropriately for 
the job that we then ask them to undertake. We have to work 
very carefully to be sure that we provide that kind of training 
for people.
    In addition, as I have traveled, I have heard from mid-
level managers, people who came into the Foreign Service for 
different kinds of jobs, then find themselves in management 
positions. They have asked for management training.
    Those kinds of personnel issues are the ones that I 
anticipate addressing this year. I think you will see progress 
in that area.

                         information technology

    In the information technology area, with the resources you 
gave us, it would be hard not to make progress from where the 
State Department was. It had obsolete equipment and a structure 
that, at least from my point of view, had the policy for 
information technology and the operations separate. With the 
support of the Committee, we have combined those.
    With the work done by the people in the Department over the 
past couple of years, we have set standards. We are in the 
process of getting out modernized equipment. I think that there 
will be a real difference in the tools available to people in 
the State Department.
    As I have said, we will be providing Internet to the State 
Department starting this month. I had Internet at the Interior 
Department, so I was shocked that they did not have it at the 
State Department where information is their business.

                               facilities

    In the buildings area, which would be my third operational 
priority, there are not enough resources to do everything, as 
you all know better than I do. We have to establish priorities 
and then implement them.
    We have begun to do that. We now, with the regional bureas 
and the Office of Foreign Buildings Operations, have 
established a two-year building and maintenance priority 
program. We have had joint meetings with the policy side and 
Under Secretary Pickering to gain their agreement. That, I 
think, is an important first step because it says to everybody 
in the Department, these are the resources and this is what we 
can do. This is what we will have to do later.
    So, on an operational basis, I trust that you will see real 
progress in personnel, information technology, and the 
buildings area.

                         information technology

    Mr. Rogers.  Well, those are laudable goals; particularly 
the information sharing. In an age of CNN with world wide 
instantaneous public communications, and an age of world wide 
Internet with instantaneous personal communications, I am 
almost surprised that we do not see in your budget request sand 
for ink blotting. Maybe we can get some free for you.
    The State Department has a history, and maybe it is the 
State Department culture, of doing things the old way, which is 
admirable in one sense, but in this age of instant 
communications that everybody else has, the State Department is 
still in the 19th Century, and maybe that is being liberal.
    We have thrown money at this for years now from the 
Subcommittee for computerization and communications in the 
Department. It just seems to go down a rat hole somewhere. Can 
you help me out?
    Ms. Cohen.  Yes. It will not go down a rat hole. For the 
last year, pre-dating me, people have worked very hard in this 
area. They are taking very aggressive steps. Just the idea that 
we now have standards so that people will not be using 
different systems that cannot communicate with each other is 
progress.
    I, myself, have seen the progress that the consular area 
has made. I just came back from a trip to Berlin. They can 
instantly look up a visa applicant in Berlin on a database in 
Washington and see whether that person has a problem that means 
they should be denied a visa.
    I think that as the whole Department starts to see what 
information technology can do for them, we will have more 
enthusiasm.

                            visa expirations

    Mr. Rogers.  Now, speaking of that visa record, can you 
also tell when that visa expires and whether or not the person 
who was granted a visa is still in the U.S. and have overstayed 
their visa?
    Ms. Cohen.  I know the visa exit issue is of concern to the 
Committee and the Department. We are working with INS on that.
    Mr. Rogers.  I have heard that for 13 years. Still, after 
13 years and $13 zillion, neither INS or State can tell me that 
they have some way to detect visa overstays. Consequently, how 
would you like to have the whole shebang?
    How would you like for us to be able to say to you, we are 
going to give you, State Department, not only the visa 
application process, but the visa overstay process and all that 
INS now does with visas? How would you like that?
    Ms. Cohen.  I think the Administration has heard your offer 
and is concerned with the operations of that program. We, as an 
Administration, are going to be working very hard with the INS 
to improve their ability to do their part of the function.
    Mr. Rogers.  Good luck.
    Ms. Cohen.  They have, I think, a very good study underway 
by Booz-Allen. We look forward to seeing those recommendations 
and working with them.
    Mr. Rogers.  I want you to know the Barbara Jordan 
Commission studied the matter for years and, in a bipartisan 
way, came up with a recommendation last year. They concluded 
that INS is unmanageable.
    It is no one's fault. It is just an unmanageable 
bureaucracy with conflicting visions. One of which is to track 
visas and enforce the overstays, among other things, and to 
evict illegal aliens.
    We could go on all day about this, but it is not working. 
So, there is a very serious effort to try to remedy the INS 
problem. I spent 13 years on this Subcommittee. We have tried 
everything known to human kind; money, pressure, twisting arms, 
threatening, being nice; everything we can think of. It just 
gets worse.
    I am throwing up my hands. So, I want you to think about 
this. Think about what you would do if you take over all of 
these things.
    We would not ask you to do the Border Patrol. We have a 
separate Border Agency run under the Justice Department. Labor 
would do their job on enforcing the laws against illegal 
aliens. So, any way, think about it. Mr. Skaggs.

                           energy efficiency

    Mr. Skaggs.  Thank you, Mr. Chairman.
    I understand that you all have developed a plan for 
improving your energy efficiency at the State Department. Not 
that this is going to change the course of western 
civilization, but if you have some good news about some cost 
savings there, I wondered if you would share them.
    Ms. Cohen.  Thank you for the opportunity to talk about 
this.
    We have given attention to this, particularly under the 
leadership of Tim Wirth, who had been the Under Secretary for 
Global Affairs and had been concerned about this for a number 
of years. We now are working to have our embassies overseas be 
a platform for the best in energy efficiency.
    We have started in Mexico City with a contract similar to 
the contracts that have been let by the Federal Government 
domestically, where the company that helps you achieve the 
energy efficiency shares in the savings. You pay them out of 
the savings.
    We think that is a very positive program that we can 
operate elsewhere using American contractors and American 
equipment. We anticipate that we could see energy savings in 
the 30-percent range.
    Mr. Skaggs.  Because you have not been in this position 
before, you have not been subjected to my annual plea that, 
through Tim's good offices or otherwise, appears to have taken 
what you have already described of really getting your 
colleagues, the Department of Energy and the Department of 
Commerce, to exploit this opportunity as well, to move into 
commercial application some of the things that Energy has 
supported through its renewable and solar programs.
    Through your colleagues at Commerce, perhaps you can enable 
that technology which has much more attraction in the 
developing world, really even than in our own, to have a chance 
to be demonstrated on the ground; that may help our marketing 
some.
    So, I am glad for the news. How is ICASS doing?

                                 icass

    Ms. Cohen.  It is doing very well. I think that it offers 
great promise. I know this Committee was instrumental in its 
formation.
    It went live the first of October. About two or three weeks 
ago, I saw the first data out of it. One of the things it does 
is allow us to collect data across all embassies so that we can 
make comparisons, very effective comparisons. So, it will be a 
very useful central management tool.
    In the few trips I have taken, I have met with the ICASS 
Council. Also, ambassadors come in to see me before they go 
overseas. So that when they go overseas, they can call back up 
and ask for something. I have said to each of them that where I 
have seen the ICASS Council be successful, which is three out 
of four places, it is because the ambassador has taken a 
personal interest and shown some leadership. That kind of 
leadership has brought the embassy together to make very good 
decisions.
    I think it will just become more and more useful. Obviously 
one of the tensions will be when additional resources are 
required, not just from State. I think it is off to a very good 
start. I know from other people that you all were behind it.
    Mr. Skaggs.  I am curious about the one in four where it 
has not played out according to script, given that I would 
think it would be in every ambassador's enlightened self-
interest to fully implement the philosophy behind ICASS. So, 
what is wrong?
    Ms. Cohen. This one place did not have an ambassador. This 
is my initial impression. It takes some real leadership from 
the ambassador to say we are going to work together. There are 
going to be areas where one agency thinks they are over-paying 
or State is over-charging or some historical tension rises up. 
When the ambassador is there supporting it, it really seems to 
work very well.
    I have been impressed by the people from other agencies who 
have willingly undertaken to chair the ICASS committees. I do 
not have a very good sample, having only been to four or five 
places. There seems to be a lot of enthusiasm. There are issues 
because it involves money, but people are working together.
    Mr. Skaggs.  Well, it is, as far as I know, not 
discretionary. It is a mandate and a requirement. So, it is not 
as if there was a lot of leeway for play on this; right?
    Ms. Cohen.  It is in operation. I am addressing whether it 
has gone into operation easily or with some difficulties.
    Mr. Skaggs.  Well, if it would be of any help to you, you 
can say to your folks in the field that this Subcommittee is 
more than a little interested, and is breathing down your neck, 
and is concerned about full and forthright implementation, and 
any other good rhetoric you want to throw in.
    I think we are very committed to this because it really 
represents a fair portion of costs around your tenants that 
have been free-loading to some extent. Under these budget 
circumstances its real important to rationalize all of that as 
much as we possibly can.
    Ms. Cohen.  Thank you.

                          minority recruitment

    Mr. Skaggs.  I understand that the new class of foreign 
service officers who have just started training represent real 
progress in your efforts to recruit women and minorities. In 
fact, the spouse of one of my staffers is in that class.
    I know she is a very promising young professional. I just 
wanted to recognize that. If you want to say anything about it, 
terrific, but I think it is a good step.
    Ms. Cohen. I think that we have been increasingly 
successful in terms of reaching out to a diverse population. We 
have been very active on minority college campuses. I would 
like to tell you that the minority exam takers were up by 437, 
which is a 25-percent increase. Minorities passing the exam 
were up by 168, which is 114-percent increase.
    While the number of women taking the exam has remained 
unchanged, their pass rate has shown a significant increase 
from 706 in 1992, to 937 in 1996, which is a 34-percent jump. 
The same is true on the oral exams.
    You will start to see foreign service officers who are more 
representative of the American population.
    Mr. Skaggs.  Thank you, Mr. Chairman.
    Mr. Rogers.  Thank you.
    Briefly, to follow-up on that. Representative Cynthia 
McKinney testified here last week. She said she had asked for a 
report from State that would include such things as the 
percentages of all minorities taking the entrance exam, the 
number who have passed entering the junior class, promotions 
and the like. Would that information be available to her?
    Ms. Cohen.  Yes. We would be pleased to submit it.
    Mr. Rogers.  You have her request, I think, in your files. 
She was puzzled why State did not furnish this. I was too. I 
promised her I would follow through with you on it.
    Ms. Cohen.  I do not know any reason why we cannot. I only 
saw her request yesterday. I will be sure we follow-up.
    [The information follows:]


[Pages 263 - 266--The official Committee record contains additional material here.]



    Mr. Rogers.  Fine. Before recognizing Mr. Kolbe, we are 
pleased to have with us today the former Chief of Staff of this 
Subcommittee, John Osthaus who is sitting in the back of the 
room. John, welcome back to your place. We have not changed the 
pictures yet. We have gotten a lot of proposals. Mr. Kolbe.
    Mr. Kolbe.  Maybe Mr. Chairman, we move about the speed of 
the State Department with the pictures, to follow-up with your 
last line.

                     embassies in berlin and china

    Ms. Cohen, I am going to confine my questions to one area 
and make just one other remark. I am pleased that the State 
Department is requesting funds from the Capital Program for the 
embassies in both China and in Berlin.
    I feel kind of a priority sense on both of these having 
just been to both countries in the last few months. I was in 
China a year ago and just a few months ago in Bonn. Certainly 
in China, one of the largest countries in the world, I do not 
know second or third largest, the embassy staff abroad is 
certainly a very, very major post.
    It is the center of our Asia efforts today. Frankly, the 
embassy there, as you know, is a disgrace. It badly needs to be 
replaced. I am pleased to see that we are moving ahead on that. 
My request to you would be to urge you to do it as quickly as 
possible. I think this has got to be a priority.
    I would similarly caution you in the case of Berlin with 
the move that is taking place in the German Government. We need 
to be there to be on the scene and be ready as soon as 
possible. I know our embassy will not be done by the time the 
German Government actually makes its move there, but we at 
least need to be showing that we are making the effort to get 
there.
    Ms. Cohen.  I appreciate your support. These are two 
critical priorities for us. China, obviously, is an important 
relationship to the United States, a growing relationship.
    I have not been there, but I do not know anybody who has 
been who does not feel the same way about the embassy. One of 
the difficulties we are having as a result is recruiting people 
to work in the embassy. We give people two years of language 
training to go over there and then they only stay two years. 
When you talk to them afterwards you find that it is partially 
because of the difficulties that we put them through in working 
there, especially perhaps in the consular area.
    Mr. Kolbe.  Right.
    Ms. Cohen.  The second that I would like to support is the 
program for Germany. I did go there last week for just two days 
because I knew it would be of interest to the Committee.
    This is a very important relationship to the United States; 
a very important ally in almost all of the other activities we 
undertake around the world. They are an important economic 
partner of the United States. They invest heavily here. They 
buy heavily here. We have 80,000 troops stationed there. We 
have a very symbolic and important site to the German 
Government right by the Brandenburg Gate. We think it is very 
important to get that embassy, and an appropriate embassy, 
underway. So, thank you for your support.
    Mr. Kolbe.  Thank you.

                         border crossing cards

    As I said, let me confine my questions to one area that has 
to do with Section 104 of the Illegal Immigration Reform Act, 
the Border Crossing Card area.
    Under that act which we passed in 1996, you are supposed to 
begin taking over the responsibility for adjudicating the 
Border Crossing Cards on April 1st of this year. That is just 
two weeks away.
    It is supposed to be completed by October 1st, meaning 
nobody is supposed to cross the border without one of these 
cards after that date. That means we will have to replace all 
of them by that time.
    My first question is, are you prepared? Are you ready to 
begin the process of adjudicating new Border Crossing Cards on 
April 1st?
    Ms. Cohen.  We are ready to begin that process. As we 
discussed before you came in, I have only been at the State 
Department for six months. I have been very impressed with the 
professional can-do attitude----
    Mr. Kolbe.  Now, you are talking about the replacement. How 
many new cards did you expect to issue a year? Maybe Ms. Ryan 
needs to step up here and answer a couple of these questions.
    Ms. Ryan.  There are approximately 800,000 new cards per 
year that are issued. We did a survey and found that there are 
about 5.5 million cards extant now.
    Mr. Kolbe.  Does the 800,000 includes ones that you are 
replacing on a routine basis? Those are new people that have 
not had one before?
    Ms. Ryan.  New people who did not have one before.
    Mr. Kolbe.  Do you expect to have to have 800,000 new ones 
in the next year to issue and then you have to replace another 
5 million cards?
    Ms. Ryan.  That is right.
    Mr. Kolbe.  First of all, what have you done to notify 
people along the border in border communities about this change 
over of the new responsibilities of the State Department? Are 
they going to know where to go on April 1st?
    Ms. Ryan.  Yes, they will know where to go. In fact, two of 
my staff are in Douglas, Arizona right now discussing this with 
the mayor. We have an aggressive public affairs campaign 
underway.
    Mr. Kolbe.  Excuse me. My time is limited. I know you have 
a reprogramming request that the Committee is considering. At 
least temporarily, you will not have facilities. You will not 
have consulates immediately along the border there.
    Ms. Ryan.  No, we will not immediately.
    Mr. Kolbe.  Nogales is one of the places you are going to 
have them. Where will they go initially?
    Ms. Ryan.  Nogales, at the moment, would go to Hermosillo. 
What we are hoping to do is to have processing facilities which 
would be run by a contractor with U.S. Government employees in 
numerous areas.
    One of the other things that we are looking at is mobile 
units that will be able to take the fingerprints, take the 
photographs, and then bring those applications back to a 
consulate for adjudication.
    Mr. Kolbe.  I am just thinking, because for example, 
Nogales is a five-hour, 200-mile ride by bus from Hermosillo 
and that is quite a distance. So, you are not saying everybody 
is going to have to track down to Hermosillo for that.
    Ms. Ryan.  No. We are not saying that. Initially, perhaps, 
those people would have to do that. We are trying to get these 
temporary processing facilities up by August. Then these mobile 
units would be set up after that.
    Mr. Kolbe.  Okay. Let me just very quickly because I know 
my time is up. I just want to follow-up before we lose our 
train of thought on this. You cannot realistically complete the 
5 million replacement by October 1st.
    Ms. Ryan.  No, realistically we cannot do that in 18 
months.
    Mr. Kolbe.  When are you going to ask the Congress for a 
change in the law on that?
    Ms. Ryan. I have discussed this informally with the 
Chairman of the House Immigration Subcommittee. He wants to see 
what kind of a beginning we make to decide whether to support 
any request for an extension.
    So, we will begin on the 1st of April. I hope to have 
something to show him by the middle of the summer on how well 
we are doing. Even with the best faith effort, we cannot do it 
in 18 months, so we would be hoping to bring a request forward.
    Mr. Kolbe.  INS continues to manufacture the cards. They 
tell us they have one machine that is operable at the moment, 
two in renovation, and two on order. So, they really have one 
machine starting April 1st.
    Ms. Ryan.  They have promised us that they will meet the 
demand.
    Mr. Kolbe.  For the new cards.
    Ms. Ryan.  For the new cards.
    Mr. Kolbe.  Not the replacements.
    Ms. Ryan.  Well, for anybody who shows up to have this.
    Mr. Kolbe.  So, the problem is not INS, the actual 
production of the cards. It is your adjudicating them in the 
process.
    Ms. Ryan.  It is our own ability to adjudicate and then 
their ability to produce. Now, they promised us that they will 
be able to produce----
    Mr. Kolbe.  How ever many adjudications you handle, they 
will produce the cards.
    Ms. Ryan.  Yes. That is what they said.
    Mr. Kolbe.  That is a tall order. Thank you, Mr. Chairman.
    Mr. Rogers.  Another collaboration between State and INS. 
Good luck. Let me very quickly follow-up briefly on that point. 
Now, INS, they issue border cards at 25 locations along the 
border.
    To followup, you have only 8 consulate posts, 3 along the 
border in Mexico and a new one about to open in Nogales. You 
are saying that you think you can compensate for your lack of 
locations by the mobile units?
    Ms. Ryan.  We hope so, sir.
    Mr. Rogers.  How many units will you have?
    Ms. Ryan.  I am not sure yet. We are still working on that. 
Once we get the temporary processing facilities, we will be 
able to see what we are going to do in terms of getting these 
units to move around the border.
    Mr. Kolbe.  Mr. Chairman, would you yield for just a 
comment?
    Mr. Rogers.  Yes.
    Mr. Kolbe. I try generally with my questions in this 
Subcommittee and the others that I serve on to make my 
questions of general and not parochial interest.
    I am vitally concerned about this because along the border, 
this is the lifeline of the border. If we cannot issue those 
border cards commerce collapses along the border.
    Ms. Ryan.  That is right. We are very well aware of that, 
sir.
    Mr. Kolbe.  Thank you.
    Mr. Rogers.  Mr. Dixon.

                   use of machine-readable visa fees

    Mr. Dixon.  Thank you very much, Mr. Chairman.
    Under Secretary Cohen, regarding the MRV issue, as I 
understand it, the State Department retains the fees for two 
years, last year for 1998 and 1999. What impact will it have if 
you are not allowed to retain the fees for the visas and the 
cards?
    Ms. Cohen.  It would have a draconian impact. As you can 
tell from Ms. Ryan, we have vastly increased challenges, 
including increased demand for passports, increased demand for 
visas, and the Border Crossing Card Program. In FY 1999 we have 
approximately 1,700 people who are paid and work in this area 
and an estimated $296 million in new fee collections. We would 
not be able to make that up out of the regular appropriation.
    Mr. Dixon.  So, it is vital?
    Ms. Cohen.  Vital.
    Mr. Dixon.  Vital that you exchange the other cards and 
keep these fees within the State Department.
    Ms. Cohen.  Yes.
    Mr. Dixon.  Last year, we phased out section 245(i). What 
impact will that have on the 1998-1999 fees--as far as the 
consular services are concerned?
    Ms. Cohen. That also will have an impact. I think in this 
particular area, it would be probably be best to hear from Mary 
Ryan directly.
    Mr. Dixon.  Ms. Ryan, my question really is that I notice 
that you are only asking for an additional five consular 
officers. Is that in anticipation of an increase in the number 
of people that will have to go out of the country?
    Ms. Ryan.  We think there will be approximately 200,000 
people who will have to leave the country to get their visas. 
That will have an impact on our overseas operations clearly.
    Mr. Dixon.  Then why have you only requested five new 
positions on page 22 of the budget? I may be reading from the 
wrong line on the budget. As I understand it, you are only 
requesting an increase of five positions in the 1998 budget. If 
there are going to be over 200,000 people, is that an adequate 
increase to cover what you anticipate?
    Mr. Greene.  I think our assumption is that the bulk will 
really start kicking in, in the year 2000. It could be 
revocation of 245(i). That is the year that you will put it 
forward and hopefully go in for a previously mentioned budget 
increase to support this.
    Mr. Dixon.  Ms. Ryan says it will be at least----
    Mr. Greene.  The budgeting strategies will distort the 
figures for the BCC.

                                security

    Mr. Dixon.  Okay. I know from the newspaper, Under 
Secretary Cohen, that there was some breach of security at the 
executive level. I am not interested in the particulars of it. 
Has there been an evaluation made of the security that we are 
presently operating?
    Ms. Cohen.  Yes. An extensive evaluation was made. Changes 
in procedures have been implemented. In addition, Under 
Secretary Pickering and I will be having an open forum with the 
State Department personnel tomorrow to reemphasize the 
importance of security procedures. We are putting increased 
emphasis, as I have mentioned in my testimony, on individual 
responsibility for security in the building and everywhere. We 
have taken very decisive steps.
    Mr. Dixon.  On March 9th, you indicated that it has not 
been determined what documents were removed. Have you now made 
that determination?
    Ms. Cohen.  That is still being studied.
    Mr. Dixon.  Well, that would indicate to me rather lax 
security, if some nine days later you are not sure what 
documents were taken. I am not asking you to tell me what 
documents were taken.
    Ms. Cohen.  As I understand the procedure, there are 
certain documents that are inventoried, specified, and other 
documents that are batched. We are now in the process with the 
FBI of analyzing exactly what was involved in that situation.
    Mr. Dixon.  Your answer would indicate to me that there is 
a serious lack of security. Would it indicate that to you? I do 
not want to press it, but only to the extent that, certainly I 
would think that the security procedures in place at the 
moment, as it relates to documents, allow you to know 
immediately what documents are taken.
    I understand that there may be batches of documents. If I 
ask you, do you know what individual documents were taken, 
could you say that you have identified that there were a 
substantial number or not? Do you get my point here? I mean, 
the fact that nine days later we are not sure what was taken 
would indicate that perhaps security has not been well-
structured.
    Ms. Cohen.  Security, I think, for everyone in the 
Department is of paramount concern. It is for the Secretary. It 
is for me. Any breach of security is unfortunate and really not 
to be tolerated.
    We are looking into this with the FBI. We feel that we have 
a fix on the number of documents. I do not want to say 
conclusively. That really is in the hands of the FBI. Let me 
say this though, immediately after that incident we took steps 
to correct what was the specific weakness in that case.
    We are taking additional steps to ensure that security is 
of paramount concern of everyone in the building and that 
everyone understands their roles and their responsibilities. We 
have the appropriate security procedures in place.
    Mr. Dixon.  Thank you, Madam Under Secretary. Thank you, 
Mr. Chairman.
    Mr. Rogers.  Thank you. What was the specific weakness that 
was corrected?
    Ms. Cohen.  I would be glad to discuss this with you in a 
closed session.
    Mr. Rogers.  That is fair. Mr. Taylor.

                      embassy facilities in russia

    Mr. Taylor.  Madam Under Secretary, I appreciate our 
efforts in Beijing--Berlin last year. If you saw the planning, 
we are over in the left area near the plans you are performing.
    Berlin, as you know the whole city is under construction. I 
am concerned right now about Russia. I will limit my remarks to 
that area. There is a window of opportunity I think the world 
has in increasing democracy in Russia and the market system.
    History would show that would be the best thing. The people 
are very much interested in Russia in that benefit. Your 
Department is key. I appreciate the efforts that the Under 
Secretary made and you have started.
    You mentioned in your comments that there are a variety of 
activities all the way to--I would like to, if you could, give 
me some of the specifics across Russia. I agree with you. There 
is an enormous amount of work that could be done,and maybe a 
general indication of what costs are going to be in the near term, at 
least in this Congress and perhaps the next.
    Ms. Cohen.  As you know, I did visit Moscow. We are in the 
process of rebuilding our embassy there.
    Mr. Taylor.  Sure.
    Ms. Cohen.  That is currently on budget and on schedule. 
The cost of that is $240 million now.
    Mr. Taylor.  We could sell that many in bugs. What about 
outside of Moscow in the countryside? You know we have 11 time 
zones in the country. The trade groups, the business visas, the 
students, individual Russians, it is an enormous task and yet 
it is so well-deserved right now.
    Ms. Cohen.  I have talked with Ambassador Pickering about 
the demand for the deployment of personnel. It is of concern to 
us. We also have limited resources. We are looking at 
innovative ways that we can try to meet some of the demands.
    We have an example that came up. It was the example of 
adoptions, where there has been a great increase in U.S. 
citizens adopting in Russia. To make people come into Moscow is 
very difficult with new babies. We do not have proposals 
currently on alternatives, but we would be glad to discuss that 
further with you.
    Mr. Taylor.  What about Vladivostok? There have been costs 
there. Now, I am particularly interested in that, but also with 
other locations, assuming there are those on this Committee who 
would make it a priority for funds to be available, given the 
things you just outlined.
    Ms. Cohen. Our priority in Russia is to get the Moscow 
embassy opened and fully operating. Currently, that is where 
our attention is going in terms of resources and personnel. We 
are aware, however of the demand in other places.
    Mr. Taylor.  You are not doing anything in the East? I had 
language in our bill two terms ago. I understood we were going 
to make some efforts. I know Moscow has 10 million people.
    The real concern I have is given the infrastructure. Anyone 
else who is trying to get involved with American business, 
travel, and that sort of thing have an enormous task to come 
all the way to Moscow. As bad as our facilities might be, they 
are not terrible, but will be welcome. We do have a presence 
there.
    Ms. Cohen.  We do. I have been briefed on that presence, 
security issues, and other issues around it. We have limited 
resources. We are giving the priority currently to Moscow.
    Hearing of your interest, I would be glad along with people 
from the policy side, to sit down with you and explore 
opportunities.
    Mr. Taylor.  Thank you, Mr. Chairman.
    Mr. Rogers.  Mr. Latham.

                  defense department in foreign policy

    Mr. Latham.  Thank you, Mr. Chairman. Welcome, Madam 
Secretary. I have maybe been a little frustrated. We are about 
to pursue the supplemental bill and report on our spending for 
Defense to carry out the policy which is an act through the 
State Department. I really very frustrated. We have about 300 
soldiers in El Salvador building clinics and schools, drilling 
wells, building roads; and 500 soldiers in Honduras doing much 
of the same thing.
    We still have 70 or 80 that, may still be picking up 
garbage off the beaches and directing traffic. I just wonder 
how does the State Department's policy that the Department of 
Defense is trying to enact, how do I go back home and justify 
to the people in my district that additional resources are 
needed for Defense in this supplemental, when we are doing all 
of these things that should be in the Peace Corps operation? I 
mean these are not roles for the military.
    Ms. Cohen.  First, let me say----
    Mr. Latham.  You probably do have an interest. There is 
frustration by the State Department in the Administration. We 
have people in the military on active duty in 130 different 
countries. And some are in two or three embassies, active.
    We are asking for supplementals all of the time. In fact, 
this is the fourth year that I have been in Congress in which a 
supplemental is needed for Defense and yet the Administration 
is willing to cut Defense every year. Go ahead, please.
    Ms. Cohen.  I was going to say first, I do the management 
of the State Department.

                          year 2000 compliance

    Mr. Latham.  We will re-dress that. How are you doing on 
the year 2000 compliance problem?
    Ms. Cohen.  I understood the question. We are addressing 
it. We have 78 mission-critical systems. We, like others, I 
think really everybody in the Federal Government and in private 
industry, have a process that first you assess the problem and 
then you decide how to address the problem. Then you begin to 
address the problem.
    You actually do not know where you are until you test. We 
are not at the testing. We have a pretty good handle on where 
we are now. We have revised schedules so that these 78 systems 
are accepted to be in compliance a year from now, and that we 
will not be finding out at the last minute whether or not we 
have been successful.
    I think we have a very good management system in place. 
People are giving it the kind of priority it deserves. But this 
is a big problem.
    Mr. Latham.  As you are aware, Congressman Horn, the 
Chairman of the Information Technology Subcommittee, rated all 
of the departments, including the State Department. They do not 
expect it to be in compliance until the year 2014. Do you 
dispute that?
    Ms. Cohen.  I would say that was done before I got to 
State. We are really working very hard on this. I do not think 
that we will show up like that again.
    I have talked to a lot of people in private industry. I 
just caution everybody that people who were scored from A to E 
really do not know where they are until they test these 
systems. You are correcting so many lines of code, that if I 
sit here and tell you we are in the midst of all of these 
corrections, that you can count on us to be there, no one can 
tell you that with confidence. We have given it high priority.
    Mr. Latham.  For how long?
    Ms. Cohen.  For how long have we given it a high priority? 
I think the Department has been working on it right along. I 
have given it my highest priority since I got there. There are 
very few things that have a deadline like that, where you will 
know whether you have made it or not.
    Mr. Latham.  I am curious, you issue a lot of time 
sensitive documents; passports, visas. What happens with them? 
If you have a ten-year passport issued in 1998, does the 
computer think it is 1908?
    Ms. Cohen.  The consular area is the farthest of all the 
State Department in becoming year 2000 compliant.
    Mr. Latham.  So, do you think it is going to be around 
2006?
    Ms. Cohen.  No. I do not believe that. I think that they 
will be ready.
    Mr. Latham.  What would happen?
    Ms. Ryan.  They are issuing passports now for ten years. We 
are issuing visas now for five to ten years.
    Mr. Latham.  I am just saying, in the system, from the time 
of their expiration, will the computer find that then if you 
are not in compliance? If someone tried to use an expired 
passport, say, you are in the year 2005. Your passport expired 
in the year 2004 and you tried to use it. Would the system say 
that it was expired?
    Ms. Cohen.  Yes.
    Mr. Latham. I just was curious.
    In your testimony, and probably something of greater 
interest or concern is that you say that your global classified 
area network will not be in compliance before 2000. What 
happens then as far as the security?
    Ms. Cohen.  The classified network will be in compliance in 
the year 2000. What we may not have by that time is classified 
networks to people's desktops, but we will have a classified 
network that is compliant.
    Mr. Latham.  What was the purpose of the system if you 
cannot load to a desktop?
    Ms. Cohen.  The first step is to make sure that every 
location has the ability to receive and send classified 
information. Geting it to the desktop increases the convenience 
to people. We will have a compliant classified system in the 
year 2000.
    Mr. Latham.  But in your testimony on page 9, you say it is 
not feasible before the year 2005 runs out. ``However a 
complicated transition of such a system may not be feasible 
before the year 2005 runs out''.
    Ms. Cohen.  Yes. We will have a classified network 
compliant.
    Mr. Latham.  Your network?
    Ms. Cohen.  Yes. We will have a computer network that is 
compliant.
    Mr. Latham.  Obviously the Oversight Committee gives the 
probability of the worst variable now of----
    Mr. Greene.  Mr. Congressman, I think we are joined by many 
other agencies. I just want to assure you, to back-up a little 
bit, of the amount of attention, effort, budgeting, staffing 
that goes into it. There is not a day that goes by without high 
level interest, high level attention, meetings, progress 
reports, details, time lines. We are all going through our 78 
mission-critical projects.
    Mr. Latham.  I appreciate that. I am just saying that I do 
not have any reason to not believe what the Oversight Committee 
says. They have said the State Department will not be ready 
until around 2014 and Department of Defense in the year 2009. I 
mean, that is their evaluation.
    Mr. Greene.  That is their evaluation.
    Mr. Latham.  That raises a real concern.
    Mr. Greene.  Their evaluation I think is aimed at focusing 
attention to the issue.
    Mr. Latham.  Good. I have grave concerns that the security 
system is going to break down. There are a lot of time-
sensitive issues.
    Ms. Cohen.  It is a top priority. It is getting constant 
attention. We have brought in additional expertise, brought in 
leaders in this area to work with us. The State Department is 
not alone, not that that is comfort to anyone.
    Mr. Latham.  Thank you, Mr. Chairman.
    Mr. Rogers.  Madam Secretary, to follow-up on that, you say 
you have delayed upgrading your classified network in hopes of 
finding a transition from current systems to an upgraded 
version. GAO says that the manufacturer of the current system 
admitted he is not planning on providing an upgrade.
    Ms. Cohen.  This is also a system that is used by one of 
the military units. We have coordinated with them. We have 
coordinated with the company that provides it. We now have been 
assured that they will have their system upgraded and ready to 
run year 2000 compliant in the next two months.
    Mr. Rogers.  Is that written on a piece of paper?
    Ms. Cohen.  Yes.
    Mr. Rogers.  Perhaps you could furnish us with that 
correspondence, either for the record, or if you would prefer 
privately, which would be fine.
    Ms. Cohen. We would be glad to.
    Mr. Rogers.  If it is sensitive, feel free to submit it to 
us outside of the record.
    [The information referred to follows:]


[Page 277--The official Committee record contains additional material here.]



              use of funds from sales of surplus property

    Mr. Rogers.  Now, quickly to the embassies. The biggest 
increase that you have asked for, of course, is security and 
maintenance abroad--a net increase of $273 million or 59 
percent.
    That includes $250 million for the two embassies that you 
mentioned: $50 million for Berlin at a total cost of $120 
million; and $200 million for Beijing. Yet, due to this 
Committee's directive of no new money for capital projects, the 
Department has started an aggressive surplus property sales 
effort, which expects to bring in $440 million over the 1997 to 
1999 time frame. If Berlin and Beijing are your top priorities, 
I have no quarrel with that.
    If they are, why are you not financing those embassies 
completely out of the money that you expect from the proceeds 
of property sales? You could finance them plus more; could you 
not?
    Ms. Cohen.  We have needs that far outstrip our ability to 
realize timely sales in the foreseeable future. In addition, 
the funds that we predict from sales are obviously sensitive to 
what is happening to the world economy. A number of our sales, 
even as we submitted this, were anticipated to be in Asia. They 
are now problematic as a result of the Asian financial crisis.
    These two embassies are of such a scale that if we tried to 
fund them out of the existing budget, we would be unable to 
fund the other critical priorities of the Department. That 
would include Nigeria where the capital is moved from Lagos to 
Abuja. We need to have an embassy there. Sofia, where we now 
operate in seven unsatisfactory locations. We have a long list 
of things that we will be funding out of the proceeds that we 
do receive.
    Mr. Dixon.  I am wondering if the Chairman would yield on 
that point?
    Mr. Rogers.  Yes, briefly.

                funding for berlin and beijing embassies

    Mr. Dixon.  As I understand it, you are requesting full 
funding for the Beijing Embassy of $200 million and only $50 
million of $120 million for Berlin. Why are you requesting full 
funding for one and only $50 million for the other?
    Ms. Cohen.  We actually are not requesting full funding for 
China. Our needs in China will be in the neighborhood of $400 
million.
    Mr. Dixon.  For construction of the embassy?
    Ms. Cohen.  For construction of all of the facilities that 
we need in China.
    Mr. Rogers.  Let me get back to the main point here. We 
directed you and you are doing it. You are selling off your 
surplus properties. You expect that you are going to get $440 
million of those funds in the next two years. Now, what are 
your top priorities to spend for buildings overseas? I thought 
I heard that Berlin and China are your two top priorities; are 
they not?
    Ms. Cohen.  They are our highest priorities, but we have 
significant other priorities that we have to fund.
    Mr. Rogers.  I understand that. What I am trying to get you 
to do is write your priorities and then spend your money that 
you have from sales of buildings on your top priorities.
    My understanding is that you are going to spend the 
property sales money, if I am reading your justifications 
correctly, for an ambassador's residence in Slovenia, among 
other things; staff housing in Korea; staff housing in 
Vladivostok and so forth.
    What I am saying to you is if your top priorities, and I 
understand that they would be your top priorities, Berlin and 
China, I have no quarrel at all with that. I do question your 
logic of taking your sales monies and spending them on non-
priority items, hoping to get us to give you some money, which 
we do not have.
    I will be frank with you, $200 million for an embassy in 
Beijing, at this time, we just do not have the assets. I do not 
say you are squandering, because you are not. These things are 
needed. I doubt the priorities.
    Ms. Cohen. As you know, we are funding $70 million of the 
$120 million for the Germany embassy, out of sales proceeds. 
Quite frankly, if we incorporated the $200 million of China in 
the budget, there are a whole series of other critical needs 
that would go unmet. We would be glad to share with you our 
priority lists and exactly what we will be funding.
    Mr. Rogers.  I would like to see that.
    [The information referred to follows:]


[Pages 280 - 283--The official Committee record contains additional material here.]



    Mr. Rogers.  Neither the Berlin embassy nor Beijing have 
been designed yet, correct?
    Ms. Cohen.  The Berlin embassy has had an architectural 
award.
    Mr. Rogers.  Conceptual.
    Ms. Cohen.  Yes.
    Mr. Rogers.  You could not begin construction in Berlin 
until June 2000 and Beijing until June 2001. Would it not make 
more sense to fund the design of these buildings, find out the 
real cost, the actual cost, and then fund the construction 
monies closer to the time that construction would start, rather 
than try to get the money upfront than later, two or three 
years?
    Ms. Cohen. Following through on the example of Berlin, we 
anticipate that the architectural and engineering drawings are 
in the neighborhood of $10 million. It is not the policy of OMB 
to undertake doing that kind of work unless we are confident 
that we will have the appropriations to then go to contract and 
to build.
    Mr. Rogers.  Well, this Subcommittee funds the Bureau of 
Prisons, for example. I do not mean to say that prisons are 
like embassies. I will leave that judgment to others. What we 
do is one year we fund the design and the engineering awards. 
Then the next year we fund the one-year construction monies.
    Then the next year we do the next year's construction 
monies and everybody is happy. We do not have money laying 
unused out there. Yet, they know from habit and custom that we 
will follow through year-to-year if they do it the proper way. 
Is that not a reasonable way to go about these buildings?
    Ms. Cohen.  That has not been the policy. It is very 
distinct relative to construction.
    Mr. Rogers.  I know that. How well we know that. Can we 
talk to you about change? I know that word does not exist at 
the State Department, but can we spell it for you? C-H-A-N-G-E.
    Ms. Cohen.  We, of course, will be glad to talk to you.

                             berlin embassy

    Mr. Rogers.  I think that would be a good idea.
    Now, on the Berlin embassy, the plan for many years, ever 
since I have been around here, has been that we would pay for 
the embassy there out of the proceeds out of the sale of 
property in Germany in which we are wealthy.
    The major reason there is now a request for $50 million 
because you say the Department is not being allowed to sell one 
site, the Radio in the Allied Sector Site, an antennae site in 
Berlin at its maximum economic value which can be as much as 
$70 million, we are told. Instead, that Berlin zoning 
limitations may limit the sale price to $10 million or so. It 
seems to me that Berlin needs to let us sell that property at 
its proper value and we would have no problem. You would have 
your money and you could do all of this. What do you think?
    Ms. Cohen.  You and I had a chance to meet on this before 
my trip to Berlin.
    Mr. Rogers.  Did it do any good?
    Ms. Cohen.  I communicated to the mayor and the 
chancellor's representative on Berlin our concerns and your 
concerns. We have not heard back yet. I certainly expressed 
your feelings, as I understood them.
    Mr. Rogers.  I am glad that you did. My feelings expressed 
to you to convey to them was if they want the nice, beautiful 
American embassy building there, then they need to welcome us 
with open arms rather than try to rob us of our money.
    When they insist upon zoning that property so as to reduce 
its price from $70 million to $10 million, it does not sound 
like a very welcome, open-armed invitation. We are not about to 
go ahead with this thing until they are more reasonable in 
their practices. I am not asking for a response.

                       machine-readable visa fees

    Now, machine readable visas. When the 1998 budget was 
presented, you anticipated $140 million in fees. Of course, the 
original proposal was to require that those fees be 
appropriated. Because the fees have since been increased to 
reflect the true cost of delivering the service, the fees are 
now anticipated to bring in $235 million. Why should not that 
additional $95 million be considered a windfall in 1998?
    Ms. Cohen.  I think the workload demand on the consular 
area is such that the growth in machine readable visa fees is 
being well-used by us. I would ask Mary to come forward.
    Ms. Ryan.  We have a very elaborate border security program 
which is funded totally from MRV fees. Every post in the world 
has automatic look-out capability, name check capability.
    Over half of the visa workload at posts utilize the 
modernized visa system. Every visa issuing post has the MRV 
system installed. We have developed more sophisticated----
    Mr. Rogers.  My question is you anticipated at first the 
fees would bring in $140 million. Now, they are going to bring 
in $235 million. You got a bonus of $95 million. Is that not a 
bonus and what are you going to do with it?
    Ms. Ryan.  In a way, you can say it is a bonus. Then we 
were given this requirement in Mexico to issue the Border 
Crossing Cards, so we figure that is going to be another about 
$20 million.
    Mr. Rogers.  That leaves you $75 million.
    Ms. Ryan.  The entire added cost of MRV-2 of $20 million is 
funded this way. We hope to award a contract in April for 
digitized passport photographs. That is $17 million. We need 
another $8 million for higher passport workload.
    The workload is constantly going up. We are spending about 
an additional $5 million on the class system to improve our 
ability to identify people on the look-out system.
    Mr. Rogers.  The question was not are you able to spend $95 
million. The question is, is it prudent to spend that money 
this year or wait and see what 1999 brings to be sure that you 
are not crunched next year.
    Ms. Ryan.  Some of these costs we are going to have to 
cover this year. We did not get anything additional for Mexico 
for the Border Crossing Cards, so we are going to have to spend 
that money. That $20 million is an estimate. We will begin on 
the 1st of April and then we will see.
    Mr. Rogers.  I understand. That is the one new set of costs 
that could not have been anticipated, but the others?
    Ms. Ryan.  We want to keep up with what we think we need to 
do in terms of funding. We do not think it is wise to hold onto 
the money and hope that we will take in enough so that we do 
not need to spend this now; that maybe we will need it in 1999. 
I think when we know what we need or what we recognize as 
additional costs, that we should spend this on that now.
    Mr. Greene.  Mr. Chairman, it shows our commitment to 
having a superior security program; trying to stay up with 
technologies, trying to stay up with people, making investments 
as necessary. I guess you could look at all of the other 
components, employee security----
    Mr. Rogers.  Well, you are assuming when you do this that 
you are going to get all that you ask for, for 1999. I cannot 
assure you of that. We are still under the same spending caps 
that we were under last year's budget arrangement.
    We are going to have to cover some offsets from other 
expenditures, Bosnia, disasters, and all of that. This means 
that we are not going to have as much as we had last year to 
spend on our agencies.
    I am just saying to you there is a balanced budget only in 
name. The balanced budget requested by the Administration 
assumes a lot of things: that we are going to settle the 
tobacco question and get $100 million; that we are going to 
raise fees on the Coast Guard; that we are going to raise fees 
on this, that, and so forth for hundreds of millions of 
dollars. I am here to tell you that those things are not going 
to happen, which means that we have got to find money from 
somewhere to even keep you level with last year.
    Anybody who is spending now in anticipation that you are 
going to get rich next year, be careful. Even before you get 
the $95 million windfall, your border security program has been 
increasing robustly. The fiscal year1996 actual dollars were 
$84.5 million. It went in 1997 to an estimated $150 million. Your 1998 
request was for $198.8 million. It is now $274 million.
    Ms. Cohen.  Mr. Chairman, being at State for such a short 
time, I am not familiar with the intricacies in the programs. I 
have had numerous discussions with Mary and her people on what 
they are spending their money on. It is an investment program. 
They are getting ready for, and trying to service, what is an 
ever-increasing demand, both in terms of American citizens for 
passports and foreigners for visas, as well as a dramatically 
increasing demand from Congress for greater border security and 
more checks on people who get visas.
    One of the agencies that people would have rated on a 
report card four or five years ago very low would have been the 
consular area. Now, people are proposing to give them some of 
the functions from INS. I think that is because they have made 
these kinds of investments, but they are really critical. If 
they cannot make those investments, you will be facing a system 
that could break down and cause enormous delays in people 
applying for visas, or people applying for passport renewals, 
Border Crossing Cards, all of those.
    Mr. Rogers.  Well, while on that subject, machine readable 
visa fees have been increasingly used to cover operating costs 
for consular affairs. From funds in fiscal year 1995 to $99 
million in fiscal year 1998 to a proposed $137 million in 
fiscal year 1999.
    Yet, my understanding is that these funds have simply 
substituted for appropriated funds. They have not been used to 
provide any increases for consular staffing, despite crushing 
workloads in many of the posts overseas.
    Why have not any of the increasing machine readable visa 
fee revenues been used to increase staffing for consular 
operations to relieve what appear to be an overwhelming 
workload?
    Ms. Ryan.  We have spent the money on infrastructure and 
technology because we were so far behind on that. Before 
Congress gave us this authorization on the MRV fees, we were 
automating an average of six to eight posts per year. We are 
able to do 100 in a year now.
    Mr. Rogers.  Well, let me ask the Secretary this. Isn't one 
of the main problems that the Assistant Secretary for Consular 
Affairs, who reports to you, has no control over consular 
staffing at post? Those staffing levels are set by the regional 
bureaus, and they generally put consular matters at the very 
bottom of their priorities. That is the real story here, isn't 
it?
    Ms. Cohen.  There is a tension there. There are compromises 
reached. There are enormous demands on staffing in the State 
Department for the other functions of the State Department as 
well.
    Ms. Ryan.  Mr. Chairman, we have not been able to hire 
junior foreign service officers in sufficient numbers for the 
past four years. So, we are facing that type of shortfall. This 
year, we are going to hire at attrition level. That will be a 
real benefit to consular sections because most of the entry 
level positions are in consular work.
    The other thing that we are doing is working on overseas 
staffing, where the consular is a discrete figure. We are 
working post-by-post to determine what the optimum staffing 
level is at each post. Then we will be going to the Under 
Secretary and asking her for appropriate staffing.

                         computer modernization

    Mr. Rogers.  Well, to get back to the computers; last year 
the Department provided a strategic plan for computer 
modernization that said that you needed $2.7 billion for the 
four-year period from 1997 to 2001.
    If anything, the overall cost is going up. We have 
increased funding tremendously--$21 million above the budget 
request in 1998. But with modernization funding amounting to 
about $300 million a year, that still would leave a gap, a big 
gap, in funding. How can you get there? What are the funding 
gaps between what we have provided and what you feel you need?
    Ms. Cohen.  We feel that if we can get the FY 1999 request 
level that level of request on an annual basis it will allow us 
to modernize the Department. We will not have the gap.
    Mr. Rogers.  The point I am making is you say that the 
total cost was going to be $2.7 billion over a five-year 
period. We are only funding $300 million a year. Five times 
$300 million is $1.5 billion. Does that not leave you a billion 
or two short?
    Ms. Cohen. We're using different numbers. We, in total, 
show that our computer expenses, including people, are in the 
neighborhood of $500 million.
    Mr. Greene.  Mr. Chairman, when you include our ongoing 
operations of our worldwide information technology programs, 
plus the additional amount we have asked for in this capital 
investment fund, you get up to the level of about $575 million 
in FY 1999. Take that and multiply it times 5 and that gets you 
out to the $2.7 billion level that we were talking about over 
the five-year period.
    Mr. Rogers.  Yes. Does your strategic plan that you gave us 
last year, does it provide a request together with baseline 
funding that would get to the $2.7 billion over a five-year 
period?
    Mr. Greene.  Provided we get appropriated our request.

                    diplomatic security and the fbi

    Mr. Rogers.  How is the Bureau of Diplomatic Security 
working with the FBI on the law enforcement front? Are you 
getting along okay?
    Ms. Cohen.  Yes. They seem to be working quite closely 
together.
    Mr. Rogers.  Is the Bureau participating in the discussions 
about the FBI expansions overseas?
    Mr. Greene.  Mr. Chairman, there is very close cooperation 
on the staff. In fact, we had conversations on that this 
morning.
    Mr. Rogers.  Any significant jurisdictional issues between 
the role of State and the FBI at any post?
    Mr. Greene.  Not that was brought to our attention. We 
think it is working.

                    reinventing the state department

    Mr. Rogers.  Now, as part of the planning for consolidation 
of the Foreign Affairs Agencies, one of their eight major tasks 
is the re-invention of the State Department. How are you 
planning to reinvent yourselves on the part of that effort, 
briefly?
    I say that because the Department has a Secretary, a Deputy 
Secretary, five Under Secretaries, 29 Bureaus, 32 Assistant 
Secretaries, and 81 Deputy Assistant Secretaries. Is that an 
efficient management structure?
    Ms. Cohen.  The Secretary has been very involved with the 
Under Secretaries in an effort to reinvent the State 
Department. We obviously have a number of different management 
reform initiatives, including the ones that youhave asked us 
about today, which are ICASS, the computers, the overseas staffing 
model. We are doing things in FDO. Obviously we are doing a number of 
things in the consular area. We also are involved in planning for the 
appropriate allocation of functions and high level people in connection 
with the consolidation. There is a group working on that. They will be 
moving forward.

                            closing remarks

    Mr. Rogers.  Well, Madam Secretary, we thank you for your 
attention. This is your first voyage with this Subcommittee and 
I assume the Senate the same way.
    When I first started practicing law, I went to a small town 
to practice law. I learned that the circuit judge, the trial 
judge, who was an elderly gentleman at that time, and a wise 
old man, had a practice and a custom.
    The lawyer who was trying his first case always won in his 
court. I did not know that when I won my first case. I walked 
out of the room very proud of myself. But then I learned that 
later it was not my talents that got me through. That it was 
the judge's custom. We do not have such a rule here.
    We are going to try to help you every year that you are 
here to do your job because we have common constituents. We 
work with the same people. So, we want to be helpful rather 
than critical or harmful.
    We want to be constructively critical in a positive way. 
So, we want you to understand our frame of mind that when we 
ask you questions, we are trying to be helpful. I know the 
State Department has been underfunded now for 12 years or 
better.
    We tried to make up some of the lost ground last year. We 
still have a ways to go. We understand that we are limited on 
what monies we are able to get to spend. We do have some 
agencies within our coverage like Justice, the War on Drugs, 
and so forth that also have funding needs.
    So, we trust that you will understand our predicament. We 
want to work with you day-to-day and month-to-month. As you run 
across difficulties that you think we can be helpful on, we 
trust you will pick up the telephone and let us know. We will 
try to be helpful as best we can.
    Ms. Cohen.  I want to thank you. I know from the people I 
work with and from the Secretary that you are a very good 
friend of the State Department, as is your staff. I look 
forward to working with you more closely.
    There are important issues. We have been underfunded. I, in 
particular, look forward to hearing from people who know a lot 
about the State Department who have been working on its issues 
for a number of years. Thank you.
    Mr. Rogers.  Thank you. Good luck to you.
    Ms. Cohen.  Thanks.
    Mr. Rogers.  The hearing is adjourned.


[Pages 290 - 306--The official Committee record contains additional material here.]



                                          Thursday, April 23, 1998.

    DEPARTMENT OF STATE INTERNATIONAL ORGANIZATIONS AND PEACEKEEPING

                               WITNESSES

AMBASSADOR BILL RICHARDSON, U.S. PERMANENT REPRESENTATIVE TO THE UNITED 
    NATIONS
AMBASSADOR PRINCETON LYMAN, ASSISTANT SECRETARY FOR INTERNATIONAL 
    ORGANIZATIONS
    Mr. Rogers. The committee will come to order. We are 
pleased to welcome Ambassador Bill Richardson and Ambassador 
Princeton Lyman to the subcommittee. Mr. Ambassador, it is good 
to welcome you back to the friendly confines of your old 
stomping ground on the Hill. We are pleased to hear your 
testimony briefly.
    This hearing is about the funding by this Subcommittee on 
the assessments for international organizations and 
peacekeeping activities, including the United Nations. We have 
tried to be helpful in a number of ways, including your efforts 
to address the United Nations arrearage issue in return for 
real and substantial reforms in an organization in need of 
fundamental reform.
    The United Nations is an important institution. We need to 
maintain our standing in it, provided there is a willingness to 
make the necessary changes to remedy its weaknesses. We can't 
solve all of the problems, but we have tried to be helpful 
within the context of what is achievable as we operate under 
tremendous financial constraints here.
    However, with respect to peacekeeping, there are growing 
concerns that the process of consultation is not being taken 
sufficiently seriously. We do our best to assure that taxpayer 
funds are being spent wisely. That is the role the Constitution 
has assigned to us. We hope to discuss with you issues relating 
to arrearages and peacekeeping and I am sure the Members of the 
Subcommittee will have a number of other issues to raise with 
you.
    We will make your written statement a part of the record. 
We would be happy to have you summarize it for us. Ambassador 
Richardson, the floor is yours. Ambassador Lyman, we are 
pleased to have you as well.

               Opening Statement of Ambassador Richardson

    Mr. Richardson. Thank you very much, Mr. Chairman, Mr. 
Skaggs. Let me first say what a pleasure it is to be back on 
Capitol Hill among my former colleagues. As you said, Mr. 
Chairman, I will be submitting a longer, more detailed 
statement for the record. I would like to take a few moments 
now to outline the key elements of the President's funding 
request for international organizations and peacekeeping for 
the upcoming fiscal year.
    As both President Clinton and the Secretary of State have 
made clear, America's active engagement in the United Nations 
and other international organizations is a fundamental element 
of our foreign policy objectives at a time when transnational 
multilateral issues from environmental degradation, weapons of 
mass destruction, to the spread of infectious disease and the 
global drug trade are increasingly taking center stage in the 
international arena, the role of the U.N. system and its 
affiliated agencies performing on a daily basis, and they are 
furthering America's national interest.
    I just returned from a trip to the Middle East, to the 
Indian subcontinent and Southeast Asia. In nearly every country 
I visited, there are tangible examples of the important work 
that the United Nations and its affiliated agencies are 
performing on a daily basis. In the Middle East, U.N. weapons 
inspectors are preventing Saddam Hussein from maintaining or 
rebuilding his weapons of mass destruction. And in Afghanistan 
where I just returned, UNICEF and other U.N. agencies are 
caring for refugees, saving lives and defending women who are 
being denied their basic human rights by that nation's Taliban 
rulers.
    I would also add, Mr. Chairman, that it is the U.N. peace 
effort led by Ambassador Brahimi of Algeria that is right now 
in the process of conducting peace talks that may bring peace 
to that troubled land. Of course these examples only scratch 
the surface of what the U.N. does on a regular basis to 
maintain international peace and security and further America's 
national interests. If I may cite just a few examples.
    U.N. war crimes tribunals in Bosnia and Rwanda are bringing 
those charged with crimes against humanity to justice. In North 
Korea, the International Atomic Energy Agency is protecting 
Americans from the dangers of nuclear proliferation. The World 
Health Organization is containing and preventing disease. In 
fact, it is estimated that the WHO's efforts to eradicate 
smallpox can save the American people more than $17 billion. 
The Food and Agriculture Organization is enhancing 
international trade and agricultural products, which benefits 
our highly competitive and export driven agricultural 
producers.
    But, Mr. Chairman, first, nothing in recent months has so 
graphically illustrated how the United Nations serves to 
advance America's interests as the work of the U.N. Special 
Commission in Iraq. UNSCOM, or the U.N. inspectors, is clearly 
key to eliminating the threat posed by Iraqi weapons of mass 
destruction and the production facilities for such weapons, 
indisputably a major national interest of the United States. It 
has carried out its work forthrightly and courageously, despite 
repeated intimidation on the part of Saddam Hussein, and it has 
met with considerable success. Executive Chairman Butler 
frequently reminds us that more Iraqi weapons of mass 
destruction have been eliminated, thanks to UNSCOM's efforts, 
than during the Gulf War.
    I recognize that the arrangement Secretary General Annan 
negotiated in Baghdad for access to sensitive sites have been 
subjected to criticism in some quarters. We do not agree with 
this criticism because, as Richard Butler has stated, the 
agreement fully preserves UNSCOM's authority. This criticism of 
the Secretary General's diplomacy also tends to obscure the 
main point here, that without the UNSCOM mechanism established 
by the Security Council and operating under its authority, we 
would have had no means in the first place, even with massive 
military action, for eliminating Iraq's threats to its 
neighbors and to ourselves. Here truly we are enlisting the 
help of others in pursuit of goals that we support.
    Mr. Chairman, we are requesting for this year $931 million 
for contributions to International Organizations in fiscal year 
1999. In my view, this represents a minimal investment towards 
furthering and promoting American interests around the globe, 
and it is of paramount importance that the Congress fund this 
request in full. Any appropriation less than this amount would 
cause the United States to incur new arrears in addition to 
those we have already accumulated.
    Mr. Chairman, the administration is also requesting $231 
million for international peacekeeping activities. This request 
represents the absolute minimum we will need to pay our share 
of the cost of ongoing U.N. peacekeeping missions. It will 
allow us no room to respond to evolving world crises. For 
example, the situation in Kosovo continues to threaten peace 
and stability in the Balkans and could increase the importance 
of the UNPREDEP mission. In addition, as I said, I have just 
returned from Afghanistan where we made a significant 
breakthrough in achieving peace, or potential peace, for that 
war torn nation. I cannot rule out the possibility that the 
United Nations may be called in the future to solidify this 
opportunity for peace.
    The essentially unpredictable nature of international 
peacekeeping underscores the critical importance of fully 
funding this account. Unexpected crises or conflicts could 
easily arise and the United Nations must be able to respond. 
Moreover, the United States must also be able to bear its fair 
share of the cost, particularly at a time when U.N. 
peacekeeping is serving vital U.S. interests and may do so 
again in the near future.
    Over the past several years, U.N. peacekeeping has 
undergone significant reform, in large part due to Members of 
Congress. The cost of U.N. peacekeeping has declined from $3.5 
billion in the mid-1990s to less than $1 billion today. In 
addition, the number of troops in the field has dwindled from 
78,000 to under 15,000. Moreover, peacekeeping proposals today 
are more systematically reviewed for size, mission, exit 
strategy and appropriateness. For example, for the U.N. 
operation in Central African Republic, we negotiated a tight, 
limited mandate. We secured extra, nonreimbursed funding from 
France. Finally, we enabled peacekeepers to continue containing 
the situation that if allowed to fester could plunge the 
volatile central African region into greater violence and 
bloodshed.
    Peacekeeping operations such as the one in the Central 
African Republic are in America's financial and political best 
interests. They help prevent wider conflict, and they defend 
American interests. For example, when Rwanda self-destructed in 
a wave of genocidal killings 4 years ago, hundreds of 
thousands, if not millions, were killed. In the wake of the 
violence, the United States spent $700 million in humanitarian 
relief, an amount equal to a year's worth of development aid 
for all of sub-Saharan Africa. The aid we spent in Rwanda 
represents a pound of cure for problems that potentially could 
have been solved with an ounce of prevention.
    With limited international investments, peacekeeping 
operations from El Salvador to Namibia and Guatemala and 
Mozambique have brought peace to war torn lands while 
protecting America's national interests. With similar 
investment we can help bring a lasting peace to people of the 
Central African Republic. I urge the Congress to release 
funding for this peacekeeping operation.
    Mr. Chairman, while I have this opportunity to discuss U.N. 
peacekeeping, I would like to correct a lingering misperception 
that I continue to hear emanating from the Congress, the notion 
that the U.N. somehow owes the U.S. money for international 
peacekeeping operations, such asBosnia and even the Persian 
Gulf, that we undertook on our own in order to protect America's 
national interests. The fact is that if the United Nations ceased to 
exist, American soldiers would still be working to bring peace to 
Bosnia and would today continue to be patrolling the no-fly zone over 
Iraq. Of course, because the U.N. does exist, U.N. inspectors, UNSCOM, 
are preventing Saddam Hussein from maintaining his weapons of mass 
destruction. And because the United Nations exists, a new civilian 
police is being trained to patrol the streets of Sarajevo.
    While many U.S.-led operations have been given an 
international stamp of approval in the form of a U.N. Security 
Council resolution, they were not U.N. peacekeeping operations 
which were organized and budgeted by the Security Council. 
Simply because the U.N. endorses an operation does not mean it 
has to pay for it as well. If such a precedent were broadly 
accepted, nations, including America, would be forced to cover 
costs that they never agreed to bear.
    In fact, U.S. taxpayers could be asked to reimburse other 
nations for their non-U.N. peacekeeping operations, such as the 
recent Italian-led effort in Albania or operations in Liberia. 
I cannot imagine that any member of this committee would 
endorse such a costly financial arrangement for American 
taxpayers.
    Mr. Chairman, while I recognize that this hearing is not 
designed to address the question of U.N. arrears, I would be 
remiss if I didn't take advantage of this captive and 
influential audience here today to stress the importance of 
this issue. As you all well know, the United States has been in 
arrears to the United Nations for years. The continued failure 
to pay these outstanding debts has led to a significant 
weakening of our position and our international credibility in 
New York. When I go to my fellow ambassadors and ask for their 
support or votes on resolutions or agenda items, my position is 
weakened by America's debtor status. In addition, for several 
years the United States has sought to lower the percentage of 
our annual dues to the United Nations. Our efforts were 
fundamentally undermined when this legislation was defeated 
last year. Now, the United Nations has recently given us a 
second chance by agreeing to reopen the issue. If we have no 
appropriation by May, the window of opportunity to lower our 
assessment will close until the year 2000, potentially costing 
the American taxpayer more than $100 million per year.
    Mr. Chairman, I know that you have proposed paying a 
portion of our arrears, $505 million, in the emergency 
supplemental. That is an honest effort on your part. However, 
our friends and partners in the U.N. will not agree to lower 
our assessment or meet our benchmarks if we don't pledge to pay 
our full arrears throughout the U.N. system. A payment of $505 
million fails to pay arrears for those U.N. agencies that most 
directly impact the lives of the American people, such as the 
World Health Organization, the Food and Agriculture 
Organization, and International Labor Organization. It would be 
unwise to address our interests in peacekeeping in a U.N. 
headquarters while at the same time turning our back to the 
interest of American farmers and workers.
    Mr. Chairman, it is essential that the President's arrears 
request be fully funded and it must not be tied to any 
unrelated domestic issues. Of course on a larger level, I don't 
think any American believes that the United States should 
abdicate its international credibility and leadership position 
at the U.N. by failing to pay our dues. Other nations that 
America depends on for military, economic or political support 
have good reason to doubt our sincerity and commitment to the 
ideals we articulate when, as the world's richest and most 
powerful nation, we are unable to muster the resources to 
maintain a strong and vibrant United Nations.
    America remains the world's indispensable nation, but as 
the calls for our active engagement grow, we know that we 
possess neither the resources nor the wherewithal to be the 
world's policeman. We cannot guarantee a world that is stable 
and at peace by flying solo. By working through international 
organizations such as the U.N., America will be able to more 
effectively meet the vast international challenges of the 21st 
century.
    In my view the U.N. enjoys the support of the American 
people, it deserves the support of the Congress, it has been 
reforming itself, and it demands the full force of American 
leadership and engagement.
    Mr. Chairman, as I mentioned, I have a statement for the 
record. I would ask Assistant Secretary Lyman to be available 
to answer some of the questions that perhaps need to be 
supplemented by the committee.
    [The statement of Mr. Richardson follows:]


[Pages 312 - 321--The official Committee record contains additional material here.]



    Mr. Rogers. Mr. Lyman, do you care to make an opening 
statement?
    Mr. Lyman. No, that is fine.

                        arrears owed to the u.n.

    Mr. Rogers. Thank you very much. Thank you, Mr. Ambassador, 
for your statement.
    This is the second year that we are grappling with the 
issue of paying arrearages at U.N. and other international 
organizations in return for substantial reforms. For the past 
year, we have been given charts and graphs and testimony 
indicating that the amount that the administration believes we 
owe the U.N. for arrearages, the amount you are seeking, is 
$712 million, $54 million for the U.N. regular budget and $658 
million for U.N. peacekeeping. Let me get it straight. Is $712 
million the amount that State has indicated we owe the U.N.? Is 
that the correct figure?
    Mr. Lyman. Mr. Chairman, the U.N. system includes more than 
headquarters and peacekeeping. That is where I think the 
distinction comes. All the nations who are at the U.N. 
headquarters are also members of the Food and Agricultural 
Organization and WHO. So our arrears to the U.N. system are 
more than $712 million. But you are correct about the figures 
for peacekeeping and U.N. headquarters. But if you are speaking 
about the U.N. system, one has to also add the arrears related 
to the U.N. specialized agencies.
    Mr. Rogers. But as I understand it, the Secretary General 
indicates that the arrearage he expects us to pay is for the 
U.N. operation headquartered in New York, is that not correct?
    Mr. Lyman. The Secretary General does not have direct 
operational control over the specialized agencies even though 
they are part of the U.N. system.
    Mr. Rogers. I want to get at the United Nations arrearages. 
We will deal with other international organizations in another 
session here. Another question, if you will. I want to try to 
nail down what figure it is we are trying to come up with. Is 
it $712 million arrearages to the U.N. itself?
    Mr. Lyman. I don't want to get hung up on a semantics 
question.
    Mr. Rogers. Understand, we deal with dollar figures here. 
We do not deal with semantics or policy. We deal with dollar 
figures. Give me a figure.
    Mr. Lyman. I want to give you a very accurate figure, 
because there are agencies that are part of the U.N. system, 
and so I want to be careful. When you talk about the U.N. 
regular budget, you are absolutely correct, $54 million is the 
arrears. If you talk about U.N. peacekeeping, that is correct, 
$658 million. There are other U.N. agencies which have 
additional arrears. That is the best way I can describe it.
    Mr. Richardson. Mr. Chairman, let me see if I can 
answeryour question, because I think you did attempt in your 
supplemental to address this issue. You recommended $505 million to be 
appropriated in FY 1999 for U.N. arrears. We feel we need $921 million. 
This is why. Because when you add the $100 million that was 
appropriated but not available for arrears last year, this totals $1.02 
billion. The United States claims we intend to pay international 
organizations, including the U.N. system, $1.021 billion. Now, this is 
taking into account U.S. legislative restrictions and policy 
withholdings. In other words, this is what we say we plan to pay 
because of a lot of policy initiatives by the Congress, many of which 
we agree with, including the lowering of the rate of assessment. The 
United Nations claims we owe $1.3 billion in arrears as of December 31, 
1997. The discrepancy, and as we agreed in the congressional 
legislation in the authorizing bill, the so-called Helms-Biden bill, 
there is $418 million for U.N. headquarters which would be placed in a 
contested arrears account, which would not count against the possible 
loss of vote. What is happening, Mr. Chairman, is that unless we deal 
with these arrears, we are in danger of losing our vote at the U.N.
    Let me just conclude with the $505 million appropriated for 
U.N. arrears. The House Appropriations Committee recommendation 
includes funds, as you said, only for U.N. headquarters, and 
not the U.N. agencies and other international organizations to 
which the United States owes money. We participate in them. 
They help us. They work for our interests. The $505 million 
does not also take into account the $107 million which, 
according to OMB and CBO, must be appropriated in order to 
allow the U.N. to credit U.S. arrears to peacekeeping. So there 
is a need for at least $612 million to be appropriated for the 
U.N. What we are asking for in the supplemental, Mr. Chairman, 
is $921 million. The $505 million only takes care of our debt 
to U.N. headquarters and not to these other agencies where we 
participate.
    Mr. Rogers. The point I wanted to make was--I have not 
spoken to the Secretary General. He has not spoken to me. But I 
read in the newspapers that he demands of us the arrearage for 
the U.N. dues. I am having some difficulty keeping up with the 
shifting shell game here. But we provided, unlike the Senate, 
who gave nothing in the supplemental, we made up the $712 
million. We gave you $505 million as an advance appropriation, 
which is unheard of around here. You will have to admit that. 
This place just does not appropriate moneys for 2 years in 
advance. But we did that, in an honest effort to try to get the 
matter resolved, $505 million. That is toward the arrearages. 
Of the $505 million, $475 million is for fiscal 1999, $30 
million of that is for the year 2000. So a portion of the $505 
million was advance appropriations. Why? Because we want to 
show good faith to the U.N. so that in May, when they do their 
budget, they will feel good about reducing our contribution 
rate.
    That is an advance appropriation. I don't think the United 
Nations understands that this body just does not do advance 
appropriations. But we did it in this case in an effort to 
demonstrate some good faith. So we provided $505 million. When 
you combine that with $100 million that we gave you in '98 and 
$107 million that the U.N. owes us that would be made available 
by the authorization bill, that totals $712 million. That is 
what we, say that we owe. Where are we wrong?
    Mr. Richardson. Mr. Chairman, let me just say that the $505 
million, if I try in May to get the U.N. to lower our 
assessment from 25 to 22 percent, I will get zero votes. What 
the U.N. members, it is 184 members, they see the debt to the 
U.N. as including the specialized agencies. Kofi Annan may not 
have ultimate jurisdiction over the World Health Organization 
and others. But these are all part of the U.N. system. What I 
am trying to stress to you is that you made a good effort. You 
have been helpful to the U.N. This committee has. The Senate 
gave us nothing, as you mentioned. But if I am going to go to 
the United Nations and say we want to pay off our debt to 
international organizations of $1.021 billion, which they claim 
is too low, they claim we owe $1.3, these are all member 
states, the British, the French, these are our allies too, and 
I come and say that I am now going to pay $505 million, when if 
you add the numbers, at least that we have and that we need, as 
$921 million, I am not going to get a vote to lower our 
assessment, and we are going to continue to be in arrears.
    So what our hope is, Mr. Chairman, is that you consider 
increasing the amount of $505 million, especially since the 
Senate, as you put it, did not deal with this, although we 
think there is hope in their process that they do deal with a 
strong amount. We also are a little concerned about the 
provision in the $505 million that links the issue to the 
population issue. That is of concern, too. That is being 
settled in another bill. We want these issues separated. But we 
know the will of the Congress is such that it is moving in the 
direction of linking the issue.
    But, Mr. Chairman, I am not here to say that this committee 
has not been responsive. It has. You have been good. But what 
you are giving me is not enough to get out of the arrears, to 
retain our leverage and to adequately represent our interests 
in a U.N. that is becoming more important to us.

                       Supplemental Appropriation

    Mr. Rogers. The money that we are talking about, the $712 
million that we provided in the supplemental appropriations 
bill, understand, was a supplemental emergency appropriations 
bill. It was not the regular annual bill. We put it in the 
emergency bill in order to get the money hopefully before the 
May U.N. budget setting time. That is the only reason for it to 
be in an emergency supplemental bill. Otherwise, it would have 
been in the regular 1999 bill. We can deal with the other 45 
organizations that have been brought up here by Ambassador 
Lyman in the regular process. There is no emergency there. 
There is no May deadline for us to meet there. So we can deal 
with them in a more regular basis. What we were trying to do in 
the supplemental emergency appropriations bill was to try to 
get those moneys out there to take advantage of the May U.N. 
deadline.
    Mr. Richardson. Mr. Chairman, if I might. In order to 
reopen the scale of assessment in May, it is like the Congress. 
I have got to get votes from 184 countries. These countries say 
that we owe a certain amount, and they include the specialized 
agencies.

                         U.N. Assessment Scale

    Mr. Rogers. That did not prevent them, though, from voting 
themselves a reduction in contributions rate last fall. For 
example, while they were criticizing us for paying a mere 25 
percent of the United Nations budget, 25 countries had their 
assessment rates reduced to 3 decimal points instead of just 2. 
That means that 25 countries now pay .001 percent, one 
thousandth of 1 percent, $13,000, instead of .01, which would 
be $130,000.Twenty-five countries took advantage of that little 
loophole, all the while criticizing us for not paying more than 25 
percent. Britain dropped, India dropped, Russia went from 4.27 to 2.87 
percent. China will now pay a whopping .9 percent instead of a .77 
percent, not even a percentage point, by the world's most populous 
nation. While other countries were vilifying the United States, they 
took care of themselves. Thank you very much. Is that not true?
    Mr. Richardson. Mr. Chairman, if you had given me my money 
last year, if the Congress in a bipartisan fashion, which it 
did and you participated and the authorizers participated in 
giving me that Helms-Biden bill that would have paid off 94 
percent of the U.N. arrears, I could have won us a better deal 
at the U.N., where we would have gone down to 22 percent and I 
bet you to 20 percent by the year 2000, which had been our 
common goals. We would have changed the scale to make it more 
equitable. We had our own scale proposal. But what happened, 
Mr. Chairman, was the bill died in the waning days of the 
Congress because of the population issue, and I went to the 
scale debate with nothing in my pocket. So a lot of countries 
took advantage of the scale situation.
    Mr. Rogers. You are not kidding there. They really fed at 
the trough. You talk about the highway pork bill in the United 
States Congress. For God sakes, this was the biggest pork bill 
in United Nations history.
    Mr. Richardson. Mr. Chairman, there are some reforms that 
we have pushed in the scales. We have a scales proposal that, 
for instance, says China has to go to 2 or 3 percent. It is 
becoming a world superpower. The European Community under our 
plan and Japan would be at a comparable level. There are some 
reforms needed there. We think that if we come back in May, if 
you give me enough weapons and resources and I can say the 
United States is going to pay our arrears and, by the way, we 
want a new scale of assessments that is fairer to us and to 
everybody else, I have got some leverage. But with $505 
million, it is not enough, Mr. Chairman. I have to be candid 
with you, even though you have made some very good faith 
efforts.
    Mr. Rogers. Well, the figure is $712 million. We will talk 
about the 45 internationals separately.
    Mr. Lyman. Mr. Chairman, there is a connection for these 
other countries. It falls to the 14 countries that pay 80, 85 
percent, who will pay more if we go down. That is the European 
Union and Japan, basically. They know that the rules of the 
U.N. normally are that if you lower the assessment at 
headquarters, a year later you are supposed to follow through 
with the same in all these other specialized agencies. What 
they are going to say to Bill in May is, wait a minute, how do 
we know if we set in train this reduction to 22 percent that 
you are going to cover the arrears in the specialized agencies 
when we go to lowering the assessment rate there. We already 
have the commitment of one of the specialized agencies to 
follow automatically from New York and we are trying to get 
that with the others. So there is a political and financial 
connection for the countries who vote in May to these other 
agencies.

                  U.N. Assessments to Other Countries

    Mr. Rogers. How did they justify Britain dropping the 
contribution assessment rate? How did they justify India 
dropping their contribution rate? How do you justify Russia 
voting to drop their contribution rate and how in the dickens 
can they justify--how did China get their rate so minimally 
changed? And poor old uncle sucker here who pays 25 percent of 
the place's operations and these arrearages are for many years 
past, not current, how in the dickens do they get that and we 
get slapped in the face?
    Mr. Richardson. Mr. Chairman, China did go up. They were 
paying even less than that ridiculous amount. They did go up.
    Mr. Rogers. From .77 to .9. That is still less than 1 
percent.
    Mr. Richardson. But, Mr. Chairman, this is a great 
legislative body. I can tell you the U.N. thinks the same way 
we do, we used to do, or I used to do.
    Mr. Rogers. That is scary.
    Mr. Richardson. That is, that they say bring the money, pay 
your debt and a billion dollars is a lot for the U.N. system, 
and we will respect you, we will give you leverage, we will 
listen to your reduction from 25 to 22 percent. But if I went 
to the debate on the scales with nothing in my pocket, zero.
    Mr. Rogers. Russia went there owing money, did they not? 
Don't they owe arrearages?
    Mr. Richardson. They owe, but not as much as we do.
    Mr. Rogers. But they are not as big as we are.
    Mr. Lyman. But they have made a proposal for paying off 
their arrears and are doing so.
    Mr. Rogers. But they have not paid it yet and they got 
reduced.
    Mr. Lyman. They paid about two-thirds.
    Mr. Rogers. But they still owe a substantial sum of money.
    Mr. Lyman. As Ambassador Richardson said, there is a lot 
wrong with this scale and we were not obviously in a position 
to get what we wanted, but it is roughly based on GNP and the 
Russian GNP has in fact declined.

                       Assessment Rate Reduction

    Mr. Rogers. I only mention Russia in passing. There are 45 
countries that owe the United Nations arrearages, is that right 
or wrong? 45 countries, a good number of which got their 
contribution rate assessment reduced. Is there anybody else who 
owes the U.N. money who did not get their assessment rate 
reduced other than uncle sucker?
    Mr. Lyman. I have to look at the figures. I don't know.
    Mr. Rogers. I can tell you. I can save you time.
    Mr. Lyman. Okay.
    Mr. Rogers. There was not a single one, other than the 
United States.
    Mr. Richardson. Mr. Chairman, let me just say that the 
administration has been trying to reflect the congressional 
view that we go down from 25 percent to 20 with an intermittent 
stop at 22. We think that that makes sense. We don't want there 
to be one country predominantly paying. We believe there should 
be more equity in the dues argument. But for us to advance our 
proposal, Mr. Chairman, for us to push for this reform, which 
we think is a good reform, we need to pay our arrears. And when 
member states saw that the U.S. didn't pay their arrears and 
still owed a billion dollars, yet we want to lower our 
assessment from 25 to 22 to 20 percent, that doesn't give us 
much leverage.
    Mr. Rogers. It didn't hurt Russia. It didn't hurt 45 other 
nations from getting theirs reduced because they owed.
    Mr. Richardson. We are viewed differently, Mr. Chairman, 
you know that. We are the most powerful nation in the world. 
There is a little resentment towards us. We use the U.N. a lot. 
When nation states saw us using the U.N. with the 
U.N.inspection team, with Iraq, with Korea, on peacekeeping, the U.N. 
does a lot of things for us. And then we ask them to reform and we ask 
them to cut staff, we ask them to run more efficiently. That is good. 
We backed a Secretary General that is a reformer, and then we don't 
come up with our share of paying our arrears, our credibility is not 
very strong.
    What I am simply asking, Mr. Chairman, I know you are very 
serious and thorough about this, is give me enough money to go 
back to the U.N. and try to reform the scale of assessments. 
This is going to happen in May of this year. If I go back----
    Mr. Rogers. That is the reason we provided money in the 
supplemental appropriations bill.
    Mr. Richardson. I can tell you, Mr. Chairman, I won't get 
it with $505 million.
    Mr. Rogers. You get $712 million. In that bill you got $712 
million, which is what you asked for by our calculations. But I 
don't think it matters, to be frank with you, because 45 
countries owe the U.N. so much money from unpaid dues, 
peacekeeping assessments, that they should have lost their 
voting rights in the General Assembly like they threatened us, 
but they haven't. Arrears of the 75 delinquent nations as of 
December 31, 75 nations are delinquent, those arrears were more 
than double their yearly assessments. That is the threshold 
established by the U.N. charter for being bounced as a voting 
member of the General Assembly. But in January, only 30 nations 
had been stripped of their vote for the current session, 
according to U.N. officials.
    We are trying to be helpful. But I have got to tell you 
that the way that these other nations went in there and got 
their contribution rate assessment reduced, owing money all the 
while just as we had, and then turn around and lambaste us for 
not paying 25 percent while they are paying less than 1 really 
chafes, I have to tell you.
    I am exceeding my time. I yield to the gentleman from West 
Virginia.

                       effects of paying arrears

    Mr. Mollohan. Thank you, Mr. Chairman. I would like to join 
the chairman in welcoming the distinguished guests here this 
morning.
    Mr. Ambassador, we have a chicken and egg problem here. 
Your testimony is that failure to pay the arrearages has 
prevented you from negotiating reforms or a reduction in our 
assessment rate. What would you like to see happen? You have 
got negotiations in June with the United Nations. What would 
have to happen in the Congress to put you in a strong position 
in regard to those negotiations?
    Mr. Richardson. If you give me an appropriation of $921 
million in this supplemental and you do that before June, I 
would be able to go into a new scale of assessment debate, 
which we could reopen, whereby we could credibly say to the 
U.N., all right, here is our money that we owe, we think the 
scales should be reformed, we think we should go down to 22 
percent as the Congress wants us to, and as we, the Clinton 
administration, thinks is fair. We want to see some of your 
scales, as the chairman mentioned, readjusted also so that 
there are countries paying more of a share.
    We do think, Mr. Mollohan, that there have been some 
reforms. Now, the Secretary General of the U.N. has come to the 
Congress in informal meetings and basically said, look, I came 
in a year ago, I said to you, give me my arrears that the U.S. 
owes me, and I will reform the U.N. I can credibly tell you 
that in the last year there have been some serious reforms at 
the U.N. which the Secretary General has brought, which we have 
pushed for, and which many in the Congress have demanded. A lot 
of good ones. We now are in a position with the U.N. where the 
U.N. has said to the U.S., look, we have reformed, we have cut 
staff, we are living under budget, we have consolidated, we 
have taken a lot of steps that involve a better managed U.N., 
not perfect, yet you still have not paid us our dues. You want 
us to lower our scale of assessment to the Americans, pay your 
dues and we will lower it. I won't say I would win that vote, 
but I would be in a good position.
    Mr. Rogers. Will the gentleman yield?
    Mr. Mollohan. Yes.

                    arrears owed by other countries

    Mr. Rogers. What argument did Britain, China, and Russia 
use when they were faced with the same problem we are, they owe 
arrearages and yet they got their reduction in due course of 
time? How did they do that? What did they say that you didn't?
    Mr. Richardson. Mr. Chairman, they didn't owe a billion 
dollars. Britain, I don't know what they owed. Russia, as Mr. 
Lyman says, they have paid two-thirds of it. I don't know if 
Britain owes any money. But Britain claims that we owe them 
money through peacekeeping, Britain and France. When we don't 
pay our peacekeeping, it is money that they have funded.
    Mr. Rogers. But what did Russia say? They owe $140 million?
    Mr. Lyman. Mr. Chairman, if I could clarify, the way the 
scale is set up, it roughly reflects your share of world 
income. Our share of world income is already more than 25 
percent. So what they do in the scale is in effect by capping 
it, give us, quote, a discount. Everybody else below that pays 
roughly, and there is a lot of variations in this, roughly 
according to their share of GNP. That goes up and down. 
Britain's slipped, Russia's went way down. Other countries 
adjusted. Japan, as you know, will exceed 20 percent in the new 
scale. They will go up as high as 20.5 percent by 2000. Some 
countries went down, some countries went up. We are asking that 
our discount, if you want to call it that, we call it a cap, be 
reduced to 22 percent. In other words, whatever our share of 
world income is, we go below it. That means for the European 
Union as a whole, that they will be paying well above their 
share of world income because somebody has got to make up that 
difference. Japan and the European Union will be called upon to 
make up most of that difference. That is the politics of it.

                       authorization for arrears

    Mr. Mollohan. I think that puts it in a very nice 
perspective, actually. Your testimony is that you need to be 
able to come to the table with some strength, at least having 
the arrearages contingently in your pocket. You have told us 
what you want in terms of the dollars from this committee. We 
don't have an authorization associated with that funding, 
however you are going to get it, supplemental or otherwise. How 
do you propose to address that problem? And what are you 
seeking from the Congress with regard to an authorization, or 
from us with regard to an authorization?
    Mr. Richardson. Mr. Mollohan, what would be helpful is that 
in the supplemental that you give us that you not tie it, as 
you did, to the abortion issue. That would be helpful.
    Mr. Mollohan. We didn't do that.
    Mr. Richardson. Well, I understand that there is language.
    Mr. Rogers. Not in our bill.
    Mr. Mollohan. I am asking what you want us to do?
    Mr. Richardson. What we want this subcommittee to do----
    Mr. Mollohan. You have got a problem, you are here to 
testify before this subcommittee that you have money but you 
don't have an authorization. So what would you be requesting 
this committee to do? You have got a very short time frame here 
and you have got an authorization bill that isn't satisfactory 
to you and will probably be vetoed by the President. So you are 
before this committee. What do you want from this committee? 
What would be the best result coming out of this committee to 
solve your problem?
    Mr. Richardson. What it would be, Mr. Mollohan, would be if 
you put in $921 million in the supplemental appropriation, 
which is what the administration requested. This takes us to 
$1.021 billion when you add to the $100 million appropriated 
but not available for arrears that you gave us last year.
    Mr. Mollohan. And with regard to the issue of 
authorization?
    Mr. Richardson. Well, with the authorization, we are 
attempting to negotiate with the authorizing committees. It is 
a difficult process. It involves the Mexico City issue. We are 
trying to resolve that. There is apparently a vote in the 
Senate today on the authorization. We are trying to deal with 
that. But you are asking me specifically, what you can give me 
is $921 million. I think that would enable me to go in May to 
credibly lower the rate of assessments. It would enable me to 
retain our objectives on the Iraq issue and peacekeeping. It 
would enable us to deal with more reforms at the U.N., which I 
know are very important to you, make the U.N. run more 
efficiently. It would permit me to have an American on the 
Budget Committee.
    Mr. Mollohan. The bottom line is if you don't have an 
authorization by this time period and our appropriation is 
subject to an authorization, it is not going to do you very 
much good. You need an appropriation that is not subject to an 
authorization, correct?
    Mr. Richardson. That is correct. That is correct.

                       assessment rate reduction

    Mr. Mollohan. Do you really believe if you had these 
arrearages in some way contingent or otherwise, that you could 
be successful in negotiating a reduction in our contribution?
    Mr. Richardson. Yes, I believe I would, Mr. Mollohan.
    Mr. Mollohan. Do you have any indication of that?
    Mr. Richardson. We had a very strong campaign that our 
mission was launching in cooperation with the administration 
and the State Department. I traveled around the world. I was 
lining up votes.
    Mr. Mollohan. So you feel good about that?
    Mr. Richardson. I would have felt good about it. But we got 
to the vote and the bill died. So I lost all my gunpowder.

                      impact of not paying arrears

    Mr. Mollohan. So this delay is costing us tens of millions 
or hundreds of millions of dollars?
    Mr. Richardson. It is costing us a $100 million a year, the 
taxpayer.
    Mr. Mollohan. How much?
    Mr. Richardson. $100 million a year.
    Mr. Mollohan. That is a lot of money. Just to give us some 
sense of beyond the dollars and cents consequence, what impact 
did the lack of U.S. arrears payment have on our ability to 
obtain consensus among our allies during the recent 
confrontation with Iraq when we were trying to put together an 
international coalition?
    Mr. Richardson. Mr. Mollohan, let me just answer that very 
carefully, because this involves American national security. 
Our objectives with Iraq are very clear. Iraq is a threat to 
American national security. I believe that America's 
credibility in the Security Council, because we didn't pay our 
arrears, was affected. Was it manifested tangibly in certain 
votes? Maybe not directly. But I can tell you, in the 
atmosphere of the debates, that several times during our 
debates several permanent representatives, ambassadors from our 
strongest allies, mentioned the arrears in the context, okay, 
you want this U.N. inspection team to be strong, you want it to 
be well-funded, how about you guys paying your arrears? That 
did come out in some of the internal debates of the Security 
Council. Did it manifest itself in a vote? We got pretty much 
unanimous support for a lot of resolutions. But did it diminish 
our influence? I think it did, Mr. Mollohan. I think our 
credibility at the U.N., because we have not paid our arrears 
on a wide variety of fronts, on national security issues, on 
issues relating to peacekeeping, to refugees, to reform, is 
being hurt.
    Mr. Mollohan. Is this undermining your ability to perform 
at the United Nations and your influence around the world?
    Mr. Richardson. It is undermining my ability to represent 
this country at the U.N., where we have a lot of interests.
    Mr. Mollohan. It has gone on too long?
    Mr. Richardson. Much too long.
    Mr. Mollohan. The committee, Mr. Ambassador, reported a 
bill that provides $505 million for payment of U.N. dues only, 
subject to an authorization. The fiscal year 1998 bill contains 
$100 million for U.N. dues, subject to an authorization. No 
funds have been appropriated to pay the arrears owed to 
affiliated organizations of the United Nations. Explain the 
reforms being sought in those organizations and the impact of 
not paying arrears to them? What impact will that have on 
effecting those reforms?
    Mr. Richardson. This is more under the International 
Organizations Bureau, so I would ask Ambassador Lyman.
    Mr. Lyman. Thank you. Two aspects of that. On the reforms, 
we have succeeded in this last budget cycle in getting no 
growth budgets in virtually all of those specialized agencies. 
We are getting internal oversight systems being built into all 
those specialized agencies, as we have done in New York. We are 
getting better management in FAO, and now we have just elected 
a new Director General for WHO. I think it is an open door to 
really reforming that organization. In ILO, we are working very 
hard this summer to get core labor standards, which both our 
business community and our labor unions are jointly supporting. 
So we are moving on those agencies.
    Now, where it hurts us in the arrears is in two places. A 
lot of these agencies make decisions that impact on us 
economically. Our allies are our competitors when it comes to 
agricultural standards, et cetera. Our hormones that we put in 
beef, are they unsafe? The Europeans say yes, but the FAO says 
no, and that has been our basis on our winning caseson this. 
Over time, we could lose positions of influence in areas that impact 
directly on our economic interests in those specialized agencies. It 
will also impact on their ability to undertake new health initiatives, 
like these infectious diseases that show up in Hong Kong and places 
that could spread. Those are the danger points that we see. But on the 
reform front, we are pushing hard.
    Mr. Mollohan. Thank you. Thank you, Mr. Chairman.
    Mr. Rogers. Thank you.
    Mr. Kolbe.

                         loss of voting rights

    Mr. Kolbe. Thank you, Mr. Chairman. Ambassador Richardson, 
Ambassador Lyman, thank you very much for being here. Obviously 
as indicated by the questions, this is an issue which gets a 
lot of not only attention but a lot of emotions and feelings 
going. I want to try to just ask some questions that hopefully 
defuse just a little bit of that. Some have already been 
answered in part. These may be redundant to some extent, but 
hopefully I am just clarifying some very specific information 
here.
    There are, as I understand it, a total of 45 countries that 
are in arrearages, including ourselves? Is that right?
    Mr. Lyman. About that. It jumps up and down depending on 
when they pay, but you are right.
    Mr. Kolbe. Obviously payments are coming in at all times 
but it is roughly 45 countries. You have to be in arrearages 
double the amount of your annual dues in order to risk losing 
your vote, is that correct?
    Mr. Lyman. Double the amount of the previous 2 years.
    Mr. Kolbe. Double the amount of the previous 2 years?
    Mr. Lyman. Let me get that straight. 200 percent of your 
annual dues. So it is 2 years in arrears.
    Mr. Kolbe. Your arrearage is a total of the previous 2 
years. How many of those countries are in that category?
    Mr. Lyman. Thirty-one have actually lost their vote. What 
happens is----
    Mr. Kolbe. When you say actually lost their vote, does that 
mean they really do not cast their vote in the General 
Assembly?
    Mr. Lyman. That is correct.
    Mr. Kolbe. Does that have to be done by resolution or is it 
just an automatic thing?
    Mr. Lyman. What happens is that the United Nations notifies 
countries usually around October or November that by January 1 
if they don't pay under that 200 percent, they will lose their 
vote. What happens is as the General Assembly resumes in 
January, a number of them will pay just to get under that 
amount and retain their vote. That is why there is a difference 
between the number of countries notified and those who actually 
lose their votes. But if they don't get under that, then they 
automatically lose their vote.
    Mr. Kolbe. But there are countries that are not voting 
today, is that correct?
    Mr. Richardson. Yes.
    Mr. Rogers. Will the gentleman yield?
    Mr. Kolbe. Yes, Mr. Chairman.
    Mr. Rogers. Of the 185 members of the United Nations, how 
many of those nations owe more than 200 percent of their annual 
assessment?
    Mr. Lyman. Mr. Chairman, I understood that the notice that 
went out this last year covered 70 countries, but I don't know 
how many then turned around and paid to get under that amount 
and I am trying to get that information.
    Mr. Rogers. The latest information I have is 75 as of 
December 31, 75 of the 185 members of the United Nations owe 
more than 200 percent of their annual assessments.
    Mr. Lyman. As I say, some of them once they get that 
notification will then pay to get under that amount. I will 
have to get the figures.
    Mr. Rogers. In order for them to vote us out of a voting 
voice, they have to have a lot of votes of people who owe more 
than we do, is that right or wrong?
    Mr. Lyman. It isn't done by vote. It is done at the time 
that you go to voting. You haven't come under that amount, you 
lose it. So it doesn't take a special resolution.
    Mr. Rogers. We are one of 75 nations out of 185 that owe 
arrearages that would disqualify us?
    Mr. Lyman. We haven't reached that point yet, Mr. Chairman.
    Mr. Rogers. Of the 75 who were there.
    Mr. Lyman. Who were there as of December 31. But again what 
I want to know is how many then turned around and paid to get 
under it. That happens often.
    Mr. Kolbe. Our arrearages amount to what proportion of our 
dues, as you calculate the arrearages at least, as the 
administration calculates the arrearages?
    Mr. Lyman. What we believe will happen by the end of this 
year, and it depends exactly on the amount of peacekeeping 
billing that comes in, we will be somewhere within $11 to $44 
million of that 200 percent.
    Mr. Kolbe. So very close?
    Mr. Lyman. Yes.
    Mr. Kolbe. It doesn't depend on your determination, it 
depends on what the United Nations' determination is as to 
whether we lose our vote, is that correct?
    Mr. Lyman. The exact amount depends on how much 
peacekeeping bills come in during the year. That is how they 
calculate the 200 percent. We figure that by the end of this 
year, by our estimates of the bills and if we don't have 
legislation authorizing us to pay arrears and appropriating it, 
we could be as short anywhere from $11 to $44 million by the 
end of December.
    Mr. Richardson. We would lose our vote as of January 1, 
1999.
    Mr. Kolbe. You believe you would lose your vote at that 
point?
    Mr. Richardson. Oh, yes.
    Mr. Rogers. Would the other 75 lose their votes as well?
    Mr. Lyman. If they don't then turn around and pay back 
under that, yes, sir.
    Mr. Rogers. You really believe that?
    Mr. Lyman. Only that I know that a lot of countries do lose 
their votes.
    Mr. Richardson. Mr. Chairman, I believe if we don't pay up, 
we will lose our vote. And we won't have the votes at the U.N. 
to stop that. And I don't think that is in our interest.

                    effect of paying partial arrears

    Mr. Kolbe. Reclaiming my time, you are asking for $921 
million in this supplemental. But you have said that in 
addition to that, you are counting on the $100 million that has 
been appropriated that is subject to authorization. But that is 
not very realistic; you are not going to get that 
authorization. I mean, I think it is highly unlikely given the 
impasse that we are at. So where does that leave you, ifyou are 
$100 million short, you are still $100 million short and it is as good 
as having zero, isn't it, in terms of having any leverage?
    Mr. Richardson. We don't have any leverage for the $505 
million. We have zero leverage unless----
    Mr. Kolbe. Do you have any leverage with $900?
    Mr. Richardson. Yes, with $900 million we could credibly go 
to U.N. system and lower our dues and take other steps to----
    Mr. Kolbe. I thought you said you needed the $100 million 
that was subject to authorization.
    Mr. Richardson. We need that too, obviously.
    Mr. Kolbe. Let me assume for a moment that that is not 
going to happen, which seems like a very strong possibility. 
How much jeopardy does that put you in when you get to these 
negotiations, the fact that you don't have that last 100 
million?
    Mr. Richardson. Considerable jeopardy.

              withdrawal from international organizations

    Mr. Kolbe. On the component parts of the United Nations, is 
it possible for the U.S. to withdraw from those organizations 
and not pay dues at all if it chose? We have not done so, I 
believe. Let me get to the point of my question. At one time 
didn't we simply announce we were not going to pay any money 
for UNESCO?
    Mr. Richardson. Yes, that is correct. We have withdrawn 
from international organizations within the U.N. system that we 
think are not working. We withdrew, as I recall, from three in 
the last 5 years.
    Mr. Lyman. Yes.
    Mr. Richardson. We tried to withdraw from another one, but 
there was a lot of congressional reaction, the Cotton Council. 
But we believe, Mr. Kolbe----
    Mr. Kolbe. We owe money to the Cotton Council? Never mind.
    Mr. Richardson. There are some that claim we owed them 
money when we got out, UNIDO, when we got out.
    Mr. Kolbe. When we withdraw, do they continue to say, no, 
you don't have the right to withdraw and we are going to 
continue to add that money to the arrearages? Unpaid dues to 
those component parts that we are not a member of is not 
included in the arrearages?
    Mr. Lyman. Well, each organization has a set of rules. 
Generally speaking, you have to give a year's notice to 
withdraw and you are supposed to pay for that year.
    Mr. Kolbe. For that year.
    Mr. Lyman. That is the dispute over UNIDO, but after you 
are out, you don't get billed anymore.
    Mr. Kolbe. Do they add interest to our arrearages, 
Ambassador Lyman?
    Mr. Lyman. No, they don't in most organizations.

                    other countries' assessment rate

    Mr. Kolbe. So the buildup in the arrearages is the amount 
each year that we are going, that is not getting added to it.
    A couple of final questions. You said that Japan was 
scheduled to go up to 20.5 percent. Ambassador Richardson, if 
you were successful in negotiating a reduction in our payment 
to 20 percent, we would actually be below what Japan is paying. 
Is that likely to happen?
    Mr. Richardson. Mr. Chairman, we are asking now for 22 
percent.
    Mr. Kolbe. 22 percent, you said but a step in the goal was 
to get down to 20.
    Mr. Richardson. That would be probably quite difficult to 
eventually get down to 20 percent. We would try to do that. But 
Japan would obviously--it would cause them problems.
    Mr. Kolbe. Ours would be 22 percent, Japan's as much as 
20.5 percent. Their GDP as a portion of the world income is 
about half of what ours is, is that correct?
    Mr. Richardson. Yes. If we abided by GDP, we would be, I 
think, at 26, 28 percent.
    Mr. Kolbe. Has Japan fallen in arrears with its current 
problems?
    Mr. Lyman. Sometimes they pay a little late, but they 
usually by the end of the year, they do pay up.
    Mr. Kolbe. I think that is all the questions I have right 
now. Thank you very much.
    Mr. Rogers. The gentleman from Wisconsin.

                      impact of not paying arrears

    Mr. Obey. Thank you, Mr. Chairman. Mr. Ambassador, I would 
like to try to put this in context. We have a Federal budget of 
about $1.7 trillion. This dispute involves an amount which is 
about .3 percent of that entire Federal budget. The big 
picture, as I see it, is that the United Nations was created--
by the United States primarily--at the end of World War II 
because we wanted an international instrument that would help 
us exert our leadership on key policy issues around the world 
in the most effective way possible. What you are trying to do 
is to position ourselves in that body so that we are in the 
strongest possible position both to shape the internal 
operations of the United Nations and to shape the external 
actions of the United Nations in matters which are consistent 
with the national interests of the United States. Yet we are 
stuck in an accounting debate over whether in its great wisdom 
Congress will provide the amount that is in the congressional 
bill or the amount that you say is necessary to give you some 
real leverage in improving our position.
    We also have a side debate going on apparently about 
whether or not we ought to be considering in this context what 
we owe to the associated agencies of the United Nations. The 
last time I looked, I thought they were important to us. The 
World Health Organization, for instance, that is one of the 
lead agencies in trying to deal with the worldwide epidemic of 
AIDS. To the extent we don't succeed internationally, the 
health of our own people can be threatened, not just with AIDS 
but a lot of other diseases. That has been a basket case of an 
organization, given the confused leadership that that 
organization has sometimes demonstrated. We have been 
successful in getting Gro Brundtland, one of the best 
politicians in the world, one of the best reformers on the 
planet, to be the next head of that agency.
    We also suffered a setback, as I understand it, when we 
wound up in negotiations having to give up the number 2 slot at 
the UNHCR because of the dispute over arrearages. I can tell 
you from personal experience the impact on my district when 
refugee flows get out of hand. I have got one-third of the 
people in my district use schools right now which are mobbed 
because of refugee flows. This is a result of policy decisions 
that allowed those folks in the United States. So those 
agencies are important to us.
    I would like to ask you seven questions and I would 
appreciate very abbreviated answers so I can get them all in, 
because I want to walk through again almost ad nauseam what the 
situation appears to be. Last year the administration sought a 
major down payment on our arrearages in order to give you as 
our negotiator at the U.N. leverage to push reforms and to cut 
U.S. contributions, isn't that correct?
    Mr. Richardson. That is right.
    Mr. Obey. By the fall you had opened discussions that led 
us to believe that we would have support for a reduction in the 
U.S. contribution from 25 percent to 22 percent of the U.N. 
budget, and from 30.5 percent to 25 percent of the U.N. 
peacekeeping budget when the 2-year budget was finalized. That 
would have saved the taxpayers in the U.S. about $100 million a 
year, counting reductions in the U.N., the related 
organizations and U.S. peacekeeping, isn't that roughly 
correct?
    Mr. Richardson. That is correct.
    Mr. Obey. But that didn't happen. The Congress failed to 
produce a down payment on the arrears, so we lost bargaining 
room. Other members refused to lower our contributions. So we 
have already lost $100 million and we stand to lose another 
$200 million before the U.N. takes another look at 
contributions as a result of that mistake, isn't that 
essentially correct?
    Mr. Richardson. That is correct.
    Mr. Obey. But we apparently do have an opening. You and 
your staff have indicated that you have obtained an agreement 
to reopen negotiations in May on the U.S. contribution level 
despite the fact that we are now already partway through the 
year assessment period, isn't that correct?
    Mr. Richardson. That is correct.
    Mr. Obey. What will be the prospects for reopening those 
discussions successfully at a later date if we fail to provide 
the arrearage money now?
    Mr. Richardson. Zero.
    Mr. Obey. You say in your statement that the continued 
failure to pay these outstanding debts has led to a significant 
weakening of our position and our international credibility in 
New York, and you said when I go to my fellow ambassadors and 
ask for their support on resolutions or agenda items, my 
position is weakened by America's debtor status. Could this 
apply to an issue such as blocking access to materials needed 
by a rogue state for production of weapons of mass destruction? 
Could it apply to winning U.S. approval for taking military 
actions against rogue states that were threatening the U.S. 
with acts of terror?
    Mr. Richardson. It could.
    Mr. Obey. Is it not likely that our failure to win U.N. 
approval could reduce the cooperation of other nations in 
providing our forces with the ports, the airfields and the use 
of airspace in order to conduct operations?
    Mr. Richardson. Yes.
    Mr. Obey. Isn't it possible that this would not only reduce 
the effectiveness of those operations but in the process 
possibly even place American servicemen at additional risk?
    Mr. Richardson. Yes, they could.
    Mr. Obey. One last question. I think this particular 
subcommittee does deserve a lot of credit for pressing efforts 
over a number of years to reform a bloated and ineffectual and 
patronage-ridden U.N. bureaucracy. What is the effect of our 
deadbeat status on the reform agenda that was largely initiated 
by this subcommittee in the first place?
    Mr. Richardson. Thank you, Mr. Obey. It has hurt us. It has 
hurt us pushing our reform agenda. I can't even get an American 
elected to the Budget Committee of the U.N. We are fielding a 
candidate, an American, to be on a Budget Committee where our 
candidate 2 years ago, because we had not paid our arrears, was 
decimated, lost. For the first time the biggest payer to the 
U.N. is not a member of the Budget Committee that deals--that 
is called the ACABQ committee. On many other reform issues, 
such as keeping the budget capped, that the U.N. not go over 
budget, we almost lost it last fall because of our failure to 
pay the arrearage. We did win it. I think, as Mr. Lyman has 
mentioned and you mentioned, we lost an American slot at UNHCR. 
We could lose further slots in other of these specialized 
agencies where we have Americans in prominent positions. The 
International Civil Aviation Organization is good for us 
because it promotes airline safety and 40 percent of all the 
world's travelers are American. Farmers benefit from all of 
these agencies as you mentioned, and they are reforming. We 
need those funds for those specialized agencies that we owe to 
retain our leverage in those institutions.
    Mr. Obey. Let me just simply say, often the United Nations 
has driven me stark raving nuts, because I have just sometimes 
been thoroughly and totally frustrated by the baffle-gab that 
goes on in that operation. I have been frustrated by their 
knee-jerk reaction on the part of a lot of delegates for a lot 
of years on a lot of issues. But it seems to me that especially 
since the collapse of the Iron Curtain, that a lot of people 
are aware of the fact that we are the only major player left in 
the world, the only superpower certainly.
    You know the old song, ``You've got to know when to hold 
'em and know when to fold 'em.'' It seems to me that this is a 
time when we need to do just the opposite. We don't need to 
hold 'em anymore, we don't need to fold 'em, we need to lay 
down the cards because we have got a winning hand in 
reorganizing the United Nations and in reshaping that body so 
that it will be far more constructive in the future under 
strong American leadership than it has in the past. And I don't 
think the Congress of the United States ought to be 
institutionally responsible for shortchanging our ability to do 
so. That is really the issue that we face on this arrearages 
issue.
    Mr. Richardson. Thank you, Mr. Obey.
    Mr. Obey. Thanks for your leadership.
    Thank you, Mr. Chairman.

                    arrears owed by other countries

    Mr. Rogers. Thank you. Forty percent of the delegates at 
the United Nations who are complaining to you about us not 
paying our bills themselves owe a larger percentage than we do, 
is that correct?
    Mr. Richardson. You mean they owe more than a billion----
    Mr. Rogers. They owe enough to disqualify them from voting. 
Two out of five of the people you are schmoozing with there 
trying to get them to agree to help us could have their vote 
taken away tomorrow because they owe more than 200 percent of 
their annual assessment.
    Mr. Richardson. We need to get you precise data. I think as 
Princeton mentioned, Mr. Chairman, the moment a notice comes 
out, a lot of countries pay up. In some cases they are very 
small amounts, $20,000 a year for some of the smaller states. 
So we need to get you precise data.
    Mr. Rogers. The only point I wanted to make is of these 
people that are complaining at you up there for us not paying 
our bill, two out of five of them, according to my latest 
figures, are in the same boat or worse.
    Mr. Richardson. Mr. Chairman, I don't mind them complaining 
about us. I want their vote. That is what I care about.
    Mr. Rogers. I understand. I am just saying that there is a 
little bit of hypocrisy going on here, it seems to me. That 
would shock you, I am sure, to know that in the United Nations 
but I think there is maybe a little bit.
    The gentleman from Iowa, Mr. Latham.

                        resolving arrears issue

    Mr. Latham. Thank you, Mr. Chairman. Welcome. Welcome back.
    First of all, I guess just going to something you had 
mentioned earlier, and I share Mr. Obey's concerns. I think 
there are a lot of things that we need to do in a positive 
manner with the U.N. A lot of good things can happen. But in 
your testimony earlier, you mentioned that basically the 
problem is that what some people believe is an extraneous 
issue, as far as using U.S. taxpayer dollars to pay for 
abortions overseas, and that that really is what the big hang-
up is here. It would seem to me that if the administration 
wasn't as set in concrete, I guess, on their position as far as 
using U.S. taxpayer dollars to fund abortions that we could 
actually resolve this very quickly. And you said that there 
were negotiations going on. I just wonder, are there any? 
Because of the importance of what is happening at the U.N., I 
would think the administration could resolve the concerns from 
the Congress overnight.
    Mr. Richardson. Congressman, first, no funds for the United 
States, as you know, go to pay for abortions. I just want to 
state that for the record. We do have a difference of opinion 
on the international family planning issue. Our position is 
that let the chips fall where they may, let's deal with these 
issues separately. But as you know, what has happened is there 
has been a linkage with U.N. arrears and the international 
family provisions that to us seem to be separate issues to be 
debated on their own merits. This dispute caused the bill that 
paid off our U.N. arrears, the Helms bill, to die last year. 
What we want to do is see if we can resolve this issue 
separately, separate them, let them come up on their own. The 
prospects right now don't look good, to be honest with you. Our 
hope is that the issues can be separated and voted on in their 
own capacities.
    Mr. Latham. That may be your hope, but I think you also 
have to be realistic. Again may I ask you, is there any 
proposal for compromise from the administration to resolve 
this? It sounds good that we should separate it from your point 
of view, but the fact of the matter is it is not going to be 
separated.
    Mr. Obey. Would the gentleman yield on that point?
    Mr. Latham. Sure.
    Mr. Obey. The fact is there are a number of discussions 
going on about compromises but they are going on in the right 
place, in the Foreign Operations Committee, which has 
jurisdiction over that issue. The proper place and the proper 
timing for that issue to be addressed is on the foreign aid 
appropriations bill, which will be before us in about 2 months, 
not on the supplemental, when the national interests of the 
United States are being held hostage by an internal fight on 
the House floor.
    I thank the gentleman for yielding.
    Mr. Latham. I respect that. I am just saying the reality is 
we are in this situation. I think it is a fundamental question 
whether the administration wants to maintain their adamant 
position or if they want to do all of the good things that Mr. 
Obey referred to earlier that the U.N. can accomplish, that 
maybe there should be some flexibility in the position.
    Mr. Richardson. Congressman, America's interests, your 
interest and mine, are being hurt at the U.N. because we are 
holding this legislation hostage to a domestic issue. I say 
there should be compromise on your side perhaps. By compromise, 
I mean just separate them. Why hold one hostage with the other? 
They are not related issues. International family planning, as 
Mr. Obey said, is part of the foreign aid bill. It is a deeply 
felt issue. I respect that. But why are you holding our 
interests at the U.N., some national security interests, not 
you per se, hostage to this? Why can't we settle this in 
another arena? Why have this linkage that is hurting our 
interest?
    Mr. Latham. We could have this debate go on forever. I am 
just saying the reality of the situation is where we are at. It 
is a fundamental question of whether the administration 
actually wants to cooperate or get some help. It is not just 
Members who are morally opposed to abortion, it is Members who 
honestly believe that U.S. taxpayer dollars should not be used 
to pay for abortion. You can say they are not being used but 
everyone knows that the funds are fungible. That is the reality 
of the situation.
    I would hope that there would be some flexibility, that we 
could get it resolved, because I think it is very important 
what you are trying to accomplish as far as reform. I don't 
want to be a deadbeat any more than anyone else does. I really 
don't. But it is the reality of the situation.

                                 bosnia

    I want to go just very briefly to a different subject. 
Regarding Bosnia, apparently there is no timetable now as far 
as having our troops withdrawn?
    Mr. Richardson. The President will make that determination. 
It is not going to be an eternal presence. We are shifting into 
civilian police. We believe that we have made progress there on 
various fronts, the single unitary state issue, on the refugee 
issue, on the war crimes issue. We believe our troops there are 
playing a very constructive role. We have reduced our presence 
there. We want the Dayton Accords to be implemented and 
enforced. That is happening. But the President did, as you 
know, agree to keep the troops a little longer.
    Mr. Latham. Isn't it basically an open-ended commitment at 
this point?
    Mr. Richardson. It is not an eternal presence.
    Mr. Latham. There is no date certain right now, where there 
has been several times before, that they would be taken out and 
then extended. Could you tell us, would you encourage the 
administration or do you know if there are plans by the 
administration to actually request for funds for Bosnia rather 
than have to come back every year for a supplemental 
appropriation, knowing full well that the troops are going to 
be there but then they don't include it in the budget to begin 
with and then we in Congress are stuck with having to come up 
with a supplemental appropriation every year?
    Mr. Richardson. I think Mr. Raines would probably want to 
answer that question.
    Mr. Latham. Would you encourage the administration to just 
put it in the budget rather than every year come back and ask 
for more money?
    Mr. Richardson. I think a lot of these issues, Congressman, 
and I sympathize with what you are saying. Foreign policy 
involves a lot of very sudden contingencies.We know there is an 
appropriations clock. Sometimes you have to have the flexibility to 
perform your policy functions. Like with Iraq, we have asked for a 
supplemental. The Congress has been responsive there. We did anticipate 
that we would have to keep our forces there so we asked for a little 
flexibility. But I know what you are saying.
    Mr. Latham. As you know after the June 30, it costs about 
$100 million a month to keep our troops in Bosnia. It just 
seems strange that we never realize they are there and then 
expect to come back to the Appropriations Committee and ask for 
more money, when there is an open-ended commitment.
    Just in closing, I see a gentleman in the rear back there, 
the former chairman of this subcommittee, the gentleman from 
Iowa, Mr. Smith, I want to welcome him here.
    Thank you, Mr. Chairman.
    Mr. Rogers. Thank you. I too had noticed that Chairman 
Smith had entered the room and was waiting for an appropriate 
moment to ask him to come and join us here at the dais. I want 
him seated at my right this time. That would be a change. 
Chairman Neal Smith, of course, the long time chairman of this 
subcommittee and long time Member of Congress from the great 
State of Iowa, rendered great service to our country not only 
in the Congress, but as a bomber pilot during World War II and 
is a personal friend of everyone in this room. We are glad to 
welcome him to these ramparts again. It is a nice feeling to 
have Chairman Smith seated here with us.
    Mr. Smith. It is a great pleasure to me to see that you are 
doing this instead of me. Especially with this witness, because 
you know you could never get the best of him. I know that.
    Mr. Rogers. We are finding that out anew here.
    Mr. Mollohan. Mr. Chairman, if I might, let me just extend 
my greetings to the chairman. It is good to see him and nice to 
see him back here.

                                  iraq

    Mr. Rogers. We are going to try to wrap up here briefly 
because it is approaching the noon hour. You have obligations, 
as do our Members. Let me ask you some quickies here. If we 
could get a quick response, it would be nice.
    Richard Butler, the U.N. inspection team leader in Iraq, is 
apparently presenting a report to the U.N. stating that there 
had been virtually no progress in the past 6 months in 
verifying that Iraq had destroyed any remaining weapons of mass 
destruction. He is quoted as saying, ``We gave them the 
opportunity and they blew it.''
    What does that mean with respect to the course of action 
the U.N. will pursue in Iraq or the U.S.?
    Mr. Richardson. First of all, Mr. Chairman, we agree with 
Ambassador Butler's analysis of the situation, that there has 
been, on the disarmament front, virtually no progress. There 
has been slight progress in the access to presidential and 
sensitive sites.
    What is this going to mean in terms of U.S. policy? Our 
policy is not going to change. Next week in the U.N. Security 
Council, there will be an effort by the Iraqis and some of 
their supporters to lift sanctions. We will oppose it on the 
grounds that they are not fully complying with Security Council 
resolutions. And, secondly, there will be efforts to weaken the 
disarmament provisions of the Security Council resolution, and 
we will also oppose those, too.

                        peacekeeping cooperation

    Mr. Rogers. On peacekeeping, I am again becoming concerned 
that the administration is abandoning both working with the 
Congress on peacekeeping in a cooperative fashion and the 
lessons that we learned so painfully in the first years of this 
administration on Haiti. Ambassador Lyman, you and I made an 
agreement last year that the peacekeeping mission in Haiti 
would transition to a voluntary basis by last November. 
Instead, the administration decided to keep the mission going 
for at least another year. How do we work together on 
peacekeeping when the administration doesn't honor the 
agreements we reach in the course of trying to work these 
things out with you?
    Mr. Lyman. Mr. Chairman, I confess to being embarrassed 
about not being able to keep to that agreement. The situation 
in Haiti just was such that the feeling was that we needed to 
continue the kind of peacekeeping operation that the civilian 
police under the U.N. was operating. As you know, the Secretary 
wants to get together with you based on her recent visit to 
Haiti and discuss that situation further.
    We are very conscious of the fact, Mr. Chairman, and we are 
very bothered by it, as you are, that we have had a number of 
differences on peacekeeping. You have objected to the 
reprogramming on some. It bothers us frankly as much I think as 
it bothers you. We face votes in the Security Council that had 
we voted no and constituted a veto, we felt would have created 
unstable situations. It would have stopped the operation in 
Haiti, it would have not allowed Mr. Baker's efforts in the 
Western Sahara to proceed as he was recommending and most 
recently, and I know this is one that there was a lot of 
disagreement over, in the Central African Republic, as 
Ambassador Richardson mentioned in his opening statement. We 
felt that we had an opportunity there to prevent a kind of 
situation in which the American taxpayer would be paying relief 
again like in Sierra Leone, et cetera. It was a very careful 
and restricted mandate. I think, and Ambassador Richardson I am 
sure agrees, that we are not happy that we have had these 
differences. I know the Secretary would welcome a chance to sit 
down with you and discuss them at length and, Bill, perhaps 
you, too.
    Mr. Richardson. Mr. Chairman, I know you care deeply about 
these two issues. Mr. Chairman, let me conclude. Give me a 
little help on these two, on the Central African Republic. We 
have made the mission better. It is 3 months. The French are 
doing most of the work. It is important to them. It also 
enables us to avoid a humanitarian crisis in the Central 
African Republic that would affect our trade, our investment, 
our interest there. I know it is not on your radar screen, but 
we have made that mission better. I would hope you might 
consider taking the hold off on our payment. I need the support 
of the French on a lot of issues. This is their baby. We also 
think it is a good and better mission now, largely through the 
efforts of many like yourself.
    But with Haiti also, it is a very tenuous political 
situation. We are pushing the sides to resolve their political 
crisis. The training of the Haitian police is almost complete. 
We just want a little more time to make sure it happens. I knew 
that you were in Latin America, I didn't know if you were in 
Haiti, also, but we are near resolving, I believe, that problem 
where we can come back to you and say this is it. We are not 
ready yet as Princeton is basically saying, but close.
    Mr. Rogers. I think the problem that most of us have here 
is that it started out in the early years of this 
administration where the Administration overextended into too 
many peacekeeping operations and sent us the bill, and we were 
not able to keeptrack of everything. We insisted that there be 
some advance consultation with Congress so that we could anticipate the 
need to pay for them and hopefully put some discipline on entering too 
many peacekeeping operations. That has worked fairly well. But I am a 
little bit concerned here lately that we are drifting back into the old 
ways, and that is going to hurt everybody. On Western Sahara, for 
example, we offered to give that ill-fated, horribly expensive $300 
million U.N. mission a second chance and to release funding for the 
start-up of the registration process, to see if it could be fixed. We 
only asked for one simple thing. We wanted a State Department official 
on the scene in the Western Sahara to watch the operation and make sure 
the taxpayer's money was not being wasted the way it had before, by 
everyone's admission. But you have been unwilling to take even that 
small step, a very small step, to help ensure that moneys would be 
spent properly and restore confidence on the Hill. I am puzzled by 
that.
    Mr. Richardson. Mr. Chairman, on that we have Dunbar, an 
American, as the Secretary General's Special Representative. We 
know your concern about the permanent presence. Secretary of 
State James Baker, as you know, did this negotiation. He did a 
good job. It is working. But again we will try to address your 
concern. I assure you that on the consultation, if you are 
sending a signal that it needs to be better, we will upgrade 
that. Maybe we did fall a little short on some of these issues 
you mentioned.

                        central african republic

    Mr. Rogers. The Central African Republic is the best 
example I can think of lately. March 17, myself, Ben Gilman, 
and Mr. Royce objected to the notification that the U.S. would 
vote for the new mission in the CAR as not meeting the agreed 
upon basic requirements of the peacekeeping mission, but rather 
merely bailing out the French, who didn't want to support the 
coalition of African troops that they had put together to quell 
a mutiny anymore. Senator Helms objected, Senator Gregg 
objected, I objected, Ben Gilman objected. On March 27, 10 days 
later, you voted for it anyway. It makes a mockery of the 15-
day advance notification and consultation provisions in the 
law.
    Mr. Richardson. Mr. Chairman, I would only ask that we have 
better consultation, because you did make a lot of good 
suggestions. We trimmed it down. We made the peacekeeping 
operation a lot more efficient. Its mandate is limited. We will 
continue to address those concerns. But for us to veto it in 
the Security Council when every other country in the council 
felt it was needed, when the Secretary General of the U.N. felt 
it was needed, when we for our own objectives felt it would 
stop a humanitarian crisis, that you give us a little bit of 
the benefit of the doubt, but at the same time we are putting 
in a lot of the good suggestions you have had. I would simply 
ask that we talk a lot more frequently on some of these 
missions, perhaps at the principals' level. Maybe we don't do 
that enough, but I assure you we will do better.

                                 bosnia

    Mr. Rogers. You were doing pretty good for a while, but are 
backsliding these days. On Bosnia, other countries are 
apparently supporting adding judicial reform to the political 
training mission of the peacekeeping force in Bosnia. That 
would be an unprecedented use of peacekeeping forces for nation 
building. What is the U.S. position on that matter?
    Mr. Lyman. We are working very hard to find alternative 
sources of financing for it. It was at the multi-country 
oversight of the Dayton agreement; they assigned this function 
of judicial monitoring to the U.N. The U.N. had proposed, 
because they didn't have other funding sources, putting it in 
peacekeeping. We are urging the U.N. to look for other sources. 
We will have to get back to you on this. Our position has also 
been this isn't appropriate for peacekeeping. We were part of 
that meeting in Bonn, Germany, of countries that oversee 
Dayton, which said that this needed to be done and we turned to 
the U.N. and said do it; we didn't say how you were going to 
fund it, and we of course supported a budget cap in the U.N. So 
they are struggling to find other resources. We are urging them 
to do so. We will get back to you on that.
    Mr. Rogers. Mr. Mollohan.

                   approval of peacekeeping missions

    Mr. Mollohan. Mr. Ambassador, besides the operations that 
the chairman has discussed, are there any operations that you 
are willing to undertake in which you need additional 
communications with the Congress to get approval?
    Mr. Richardson. Thank you very much, Mr. Mollohan. On 
Sierra Leone, I think that we have had good communication on 
that. I am just simply asking that when we have some of these 
peacekeeping operations--we haven't had that many--the Central 
African Republic, Haiti, the renewal, that we find a way to 
work these issues better, that if we disagree, that I not be 
placed in a straitjacket of not having the funding to carry out 
the mission. Because when you are in the Security Council, 
apart from the policy merits of the Central African Republic, 
we think it makes sense to go ahead with this mission in a 
legitimated fashion.
    I also have to answer to my colleagues on the Security 
Council. We have other concerns with them. Sometimes an issue 
like the Central African Republic is very important to an ally 
of ours that has a veto. I just want to have a little 
flexibility when I deal with them. Let's disagree, let's find 
ways to make the mission better, but don't take the money away 
from me where that causes ripple effects in other areas. That 
is all I am asking.

                        peacekeeping cooperation

    Mr. Mollohan. The chairman sounded like he was inviting a 
higher degree of dialogue with you on some of these issues. Do 
you have some suggestions? Do you agree with that or do you 
have some suggestions of how that might be occasioned?
    Mr. Richardson. I would make myself available to members of 
the subcommittee perhaps on a frequent, regular basis. I don't 
want to overstay my welcome to talk about pending issues at the 
U.N. Maybe that would help. I would be willing to undertake 
that. I think it may be necessary, because we have had this 
communications problem on a couple of key peacekeeping issues 
that I would like to avoid, because our relationship with this 
subcommittee has been very good. It is hopefully going to get 
even better after you give me my money.

                       authorization bill impact

    Mr. Mollohan. It is all there. The pending authorization 
bill contains a number of provisions other than some of those 
to which the administration objects. One of them is the 
requirement for negative growth in FAO and WHO and ILO budgets 
versus no growth budgets. Even one of them, ILO, has had a 
reduced budget.
    Could you comment on that requirement in the authorization 
bill and its impact?
    Mr. Lyman. Thank you, Congressman. The requirement thatis 
now in the authorization says in the next budget cycle, after this one, 
the ones you described where we got no growth in two and a reduction in 
one, that we get a reduction in the next budget cycle. We frankly think 
that politically we will not be able to do that, that we were very 
successful, but against tremendous opposition, to holding the line. I 
think getting an actual reduction, a nominal reduction the next time 
around is a bridge too far.
    Mr. Mollohan. I thank the witnesses, Mr. Chairman.
    Mr. Rogers. Mr. Latham.
    Mr. Latham. No questions, Mr. Chairman.
    Mr. Rogers. Mr. Ambassador, both of you, thank you for your 
testimony. We are sorry to keep you a little bit long here. We 
are proud of our former colleague, still friend, who has gone 
on to greater and higher glory in the job that he is doing as 
our ambassador to the world organization. In spite of some of 
the critical, what may sound critical questions or 
conversations, we are on the same team and we want to see the 
same result. We are a little bit cynical perhaps at some of our 
allies and friends in the United Nations that like to complain 
at us, all the while perhaps having bigger warts than us. But 
this subcommittee is trying its best to arm you with enough 
ammunition to allow you to do your job properly and to pay our 
dues. We obviously under the House rules, as you well know, and 
under the congressional rules have to defer to the authorizers 
for substantive matters. So we are trying to provide the moneys 
and pressure the authorizers to do their job, and that is to 
pass an authorization bill to free the money up, doing all that 
we can in that direction. It is true this subcommittee has been 
over the years the engine of the Congress in pushing for reform 
in the U.N. and will remain so. We recognize we have got to pay 
our way as we go, however, all the while trying to negotiate in 
good faith reductions in the assessment rates as best we can.
    We are with you. We will do all we can to help you do your 
job well. You are one of us. We feel a special obligation in 
that respect. Ambassador Lyman, it is always good to have you 
here with us as well. Thank you very much for your testimony.


[Pages 346 - 361--The official Committee record contains additional material here.]



                                       Thursday, February 26, 1998.

  UNITED STATES INFORMATION AGENCY AND BROADCASTING BOARD OF GOVERNORS

                               WITNESSES

JOSEPH DUFFEY, DIRECTOR
DAVID BURKE, CHAIRMAN, BROADCASTING BOARD OF GOVERNORS
TOM KOROLOGOS, GOVERNOR, BROADCASTING BOARD OF GOVERNORS
    Mr. Rogers. The committee will come to order.
    Today we will hear about the international public diplomacy 
programs and activities of the United States Government in the 
United States Information Agency. With us today are Dr. Joseph 
Duffey, Director of USIA; David Burke, the Chairman of the 
Broadcasting Board of Governors; and others.
    Would you care to introduce the others that are with you, 
Mr. Burke?
    Mr. Burke. I will be happy to introduce them. As you know, 
the Board is a bipartisan group, and Tom Korologos is the lead 
and ``senior''--and he sometimes doesn't like that--Republican 
on the Board.
    Mr. Rogers. And, we also have Stan Silverman at the table. 
Now, the fiscal year 1999 budget request totals $1.119 billion, 
a decrease of almost $6 million from the 1998 enacted level. 
Fiscal year 1999 promises to require yet more fiscal restraint 
and discipline. Even though we are told there might be a 
surplus, we are still bound by the balanced budget agreement 
and its spending caps. We will want to hear today about how 
USIA is maintaining quality programs in a climate of 
diminishing resources. We would like to know what program and 
administrative efficiencies are being achieved and what you see 
as the major opportunities and challenges facing USIA in the 
coming year.
    We are pleased to have all of you with us today. We 
willbegin with Dr. Duffey and his opening statement, and Mr. Burke and 
others as you see fit.
    And, Dr. Duffey, would you would like to proceed with your 
opening statement? We will make your written statement a part 
of the record and you can summarize it for us. We also have a 
written statement from the National Endowment for Democracy, 
which will be a part of the record.
    [The information follows:]


[Pages 365 - 375--The official Committee record contains additional material here.]



    Mr. Rogers. So Dr. Duffey, you may proceed.
    Mr. Duffey. Thank you, Mr. Chairman. I appreciate the 
opportunity to come before you in support of the 
administration's request for the continuing work of the U.S. 
Information Agency.
    Just as we ended the hearing a year ago, Mr. Chairman, you 
said the following: ``We are in a brand-new world that none of 
us have ever experienced. It is a new era.'' And then you asked 
me what USIA's mission and message were in that era and what we 
needed for that mission or message. That has been on my mind 
not only because it was a very apt question, but it is the 
question with which I began my responsibilities 5 years ago at 
USIA. I asked my colleagues about each thing we do and about 
the nature of our mission in the current climate and the new 
set of conditions.
    Most of us who have visited major cities of the world have 
observed the following: Increasingly, there is an American 
presence larger than it has ever been before, much of it in 
business, a good deal of it in education. In the government 
presence there are men and women working on a whole range of 
issues. They may be working on issues of law enforcement, the 
international economy; they may be from the Department of 
Treasury or Commerce, or State Department representatives who 
are working on traditional diplomatic questions that have to do 
with our relationships to other governments.
    In most of those posts around the world, both capital 
cities and other cities, there is a small group of American men 
and women and foreign nationals, working in the embassy or in a 
center on a very unique mission that is important to everything 
else we are trying to do with the American presence, both 
public and private. That is, they are trying over an extended 
period of time the differences in culture and perception in the 
local public arena--and to inform not simply public opinion, 
but public perception and understanding of the United States.
    That is what public diplomacy is about, and I am persuaded 
that it is as vital now to our national security and national 
interest as it ever was.
    The most fundamental task of USIA these days is to try to 
make possible a greater understanding of this country, of what 
its policies are, what those policies are based upon, what our 
values are, what we think, why we think it. This is the job of 
public diplomacy. There is no American foreign policy goal, no 
national interest that is not served or advanced by the 
application of intelligent, focused and coordinated public 
diplomacy efforts. This small group of people I am describing, 
does not have a government-to-government mission. Instead, the 
mission of USIA personnel is to know the society in each 
country to identify over a period of time the emerging leaders, 
to understand how opinion is made, and to get a sense of the 
perceptions of the U.S. within each country.
    Whether our objective is the reduction of land mines or 
weapons of chemical and biological warfare, the enlargement of 
the NATO alliance, a more secure future for the people of the 
former Yugoslavia, the question of intellectual property 
rights, or the encouragement of free trade, in any of those 
areas public diplomacy is not simply an issue of distributing 
another speech by a public policy maker. That is important, 
having those policies available in a timely fashion, or 
announcing a policy statement. It takes the strategy of 
creative, experienced people who work with the language and the 
culture over time to determine how to convey a clear 
understanding of our interests and policies.
    This is done by identifying the right individuals and the 
right audiences, by understanding the country's or region's 
language, its values, and culture, and by making sure that the 
American message is clearly conveyed. We try to understand what 
the obstructions are to that message, to establish 
relationships not simply with journalists--which are 
important--but over a period of years, with the men and women 
who teach and will teach and shape the minds and perceptions of 
the future leaders of the country, as well as with those who 
are emerging in leadership, not simply in government, but in 
the unions and education and civic organizations. We do this so 
that not simply with respect to the day-to-day exchange of 
information and portrayal of this country's values or its 
objectives, but, when the difficult time comes, we will be able 
to deliver with greater understanding the messages that are 
less popular with respect to our country's intentions or 
purposes or the ways in which we are attempting to assert 
leadership.
    I would say that USIA today is using in a more strategic 
way a wider range of resources to try to address this task. If 
it calls for a more sophisticated use of emerging technologies, 
we have tried to stay abreast, I think perhaps more than any 
other agency in the American foreign affairs community, with 
electronic and digital communication. Whether it involves 
identifying and sending speakers from this country to talk 
about developments in the United States, or identifying 
individuals or groups in other countries, and bringing them 
here to meet with American experts, it really has to do with 
making those decisions about the most appropriate instruments 
for pursuing this mission.
    I see USIA as a tactical operational unit that is prepared 
to work with any agency in our government that is seeking to 
get a message across, move public opinion in another part of 
the world, explain this country, which as I said a year ago, is 
sometimes very difficult to do with our friends.
    That is essentially the mission we address, and what you 
have before you in this year's submission is a record of 
changes we have made. After 5 years, the budget of USIA, in 
total, is about 30 percent less in real terms.
    I begin by saying that I am proud that USIA early began to 
contribute to what makes it possible for us to be far more 
confident about our national budget this year. I felt 5 years 
ago that the deficit was a problem, that government needed to 
be smaller, and that the Cold War was over. I think we have 
shown that we understood all of those things in the way we have 
tried to downsize our operations and make economies over the 
last 5 years. This has not been an easy task. We actually are 
coming before you this year with a budget that is more stable 
and more related to current expenditures, even though it will 
require some additional reductions.Quite frankly, it is a 
contribution that I think we all have made in trying to get control of 
the deficit that, as I have said several times from this platform, has 
really been a part of American leadership and responsible leadership in 
the world economy as well.
    I would be very pleased to respond to questions that you or 
the committee may have with respect to specific aspects of the 
proposed request you have before you.
    [The information follows:]


[Pages 379 - 452--The official Committee record contains additional material here.]



    Mr. Rogers. Mr. Burke.
    Mr. Burke. Mr. Chairman, I will be brief.
    I would remind this committee that funding for 
international broadcasting has been reduced drastically since 
the International Broadcasting Act of 1994. Our fiscal year 
1999 request represents a 20 percent reduction in appropriated 
funding and a 29 percent reduction in positions since 1994. We 
have been able to consolidate broadcasting services, add new 
services for China and strengthen our engineering and 
transmission capabilities, all with fewer resources, and we 
come before you again this year with an operating budget for 
fiscal year 1999 with a request level just somewhat under 1 
percent above fiscal year 1998 funding levels.
    We on the Broadcasting Board of Governors are indebted to 
you, Mr. Chairman, and this committee for heeding and listening 
to our call last year that the cutting at some point has to 
stabilize, and you stabilized us; and so we have found--in 
light of that stabilization, we have still been able to go 
forth with $4.3 million of further program reductions in FY 
1999.
    Budget aside, the most important thing that has happened to 
us and shows the wisdom of the act of 1994, besides 
consolidation in the budget term, the international 
broadcasting organization that now exists is like nothing that 
you will remember from years past in the days when the Voice of 
America would not talk to Radio Free Europe and Radio Liberty. 
They were all broadcasting at the same time and overlapping 
over each other. They each had their own engineering 
departments. Those days are gone.
    We now have, thank goodness, a far more flexible, far more 
intelligent use of resources to respond to the kinds of 
difficulties that we have to respond to in a world that is no 
longer bipolar, and as a result of the consolidation that was 
forced upon international broadcasting, we now have a tighter 
and, I think, a ``leaner and meaner'' organization.
    Since this is new for most of our team, I thought I would 
just take one moment to introduce folks that we have.
    In December 1996, President Clinton named Evelyn S. 
Lieberman to be the Director of the Voice of America. Evelyn, 
who assumed her present duties in March of last year, had 
previously served as Assistant to the President and Deputy 
Chief of Staff for White House Operations, and I want you to 
know that Evelyn Lieberman is more than a breath of fresh air 
in our organization. She brings a vitality and an energy level, 
and we are really quite fortunate.
    Mr. Rogers. Would she raise her hand?
    Mr. Burke. Evelyn.
    In January 1997, we named Kevin Klose, then the President 
of Radio Free Europe/Radio Liberty, to serve as the new 
Director of the International Broadcasting Bureau, which 
includes the Voice of America Worldnet Television, Radio and TV 
Marti, and the Office of Engineering and Technical Operations. 
Kevin is well-known and should be well-known for his 
performance as the President of Radio Free Europe/Radio 
Liberty, saving enormous sums of money and doing it in a very 
professional fashion.
    Mr. Rogers. Where is Kevin?
    Mr. Burke. In March of 1997, President Clinton named 
Herminio San Roman to be the new Director of the Office of Cuba 
Broadcasting. Herminio is a well-known lawyer in the Miami 
community, and he brings to the Office of Cuba Broadcasting 
professionalism; he brings a maturity. He is a man well-known 
for political activities in that City of Miami, but I tell you, 
he is objective and fair and a different form of management in 
the Office of Cuba Broadcasting. Herminio is part of our team.
    And so, as I explained to you when I first began, I would 
not be able to be introducing a team like this without this 
committee, to tell you the truth.
    Finally, in May of last year, we were very fortunate indeed 
to recruit Tom Dine to replace Kevin Klose as the head of Radio 
Free Europe/Radio Liberty. As you know, Tom had previously 
served as Assistant Administrator for Europe and the Newly 
Independent States. Tom is well-known on Capitol Hill; he is 
the former head of AIPAC, and I recall at one time when I was 
running CBS News and I did something that got AIPAC upset, and 
it rained on me for a lot of days, I didn't know Tom Dine, but 
I said to myself, if I can ever hire him, I will, and I did.
    Finally, the veteran of the group is Richard Richter 
introduced to you before. He was someone who worked with me at 
ABC News, and during his time as Executive Producer of 
Washington Week in Review. Dick Richter runs Radio Free Asia. 
He has, in a year and 6 months, put together Radio Free Asia, 
almost unheard of in this town for the creation of an 
institution, and with the level of credibility that RFA now has 
and with the acclaim that it receives. In fact, it is such a 
stable base that he built, Mr. Chairman, that Congress saw fit, 
the Speaker made a point of that, to add more money for 
enhancing our broadcasts to China, and we put it into Radio 
Free Asia, as well as the Voice of America; but it is only 
because of what he has done in that institution.
    So that is the team that we have.
    Now, I am old enough to know that you would understand that 
there are great tensions in a team like this, but it is not 
like before. They are not institutional tensions. People 
disagree, but they work together. For example, Congress said we 
should be enhancing our broadcasting to China and the Far East, 
and Dick Richter and Evelyn Lieberman and Kevin Klose sat down 
and they determined how to allocatethose funds in a grown-up, 
professional way.
    So that is the team, and we are very proud of them.
    As I told you, I go nowhere without Tom Korologos. Let me 
quote something that Tom said that I think is important: ``With 
a reaffirmed mission built on this foundation of editorial 
integrity, U.S.-funded international broadcasting will remain a 
low-cost, high-yield foreign policy asset well into the 21st 
century.''
    Thank you, sir, for allowing me to make this opening 
statement.
    [The information follows:]


[Pages 455 - 463--The official Committee record contains additional material here.]



    Mr. Rogers. Mr. Korologos.
    Mr. Korologos. I just echo what the Chairman said and thank 
you for all you do for us. Thank you.
    Mr. Rogers. Well, we will abide by the 5-minute rule on 
this first round.

              rationale for reductions in public diplomacy

    Your 1999 request is modest, particularly in light of past 
reductions and in comparison with some of the increases 
requested elsewhere in the foreign affairs account. What is 
your rationale, in 25 words or less, for further cuts in public 
diplomacy programs, while increases are requested for many 
other aspects of foreign affairs?
    Mr. Duffey. Well, Mr. Chairman, I suppose we all long a bit 
for the time when, both because we operated around the world 
out of fear and with a sense of a great crusade against 
communism, there seemed to be almost no limit to the resources 
we could have. We could all find ways to spend more resources, 
but there are a number of the economies that I think have been 
possible in public diplomacy.
    We no longer publish magazines, for example, as we once 
did. That was a very large expenditure. It took about 9 months 
to produce copy. They were wonderful magazines during the 
period of the Cold War; we continued them for a few years 
afterwards. It is much more important now, rather than 
preparing a slick magazine for 9 months, when frankly you can 
buy almost anything you can buy in DuPont Circle in Red Square, 
it is much more important to be able to turn around and in 24 
hours translate an article that responds to an issue of concern 
to a citizen or a leader or a journalist in another part of the 
world.
    We are operating in a world, quite frankly, in which there 
is much more information, and even in the parts of the world 
that we sometimes describe as ``shut off,'' they are not 
information starved. So with greater selectivity, we think that 
we can operate in the current budget effectively. Are there 
more things we could do? Sure, there always are.
    Mr. Rogers. Now, let me ask any of you, is it time for a 
Radio Free Iraq? I ask that sort of half seriously.

                            radio free iraq

    Mr. Burke. I think it is time for there to be enhanced 
broadcasting to Iraq, utilizing the Voice of America and Radio 
Free Europe and Radio Liberty. I would not want to use that 
title that you just used, Mr. Chairman.
    If you read in The New York Times this morning, there was a 
story saying that the Central Intelligence Agency has prepared 
a plan to put before the President to deal with Saddam Hussein, 
and part of that plan included a thing called Radio Free Iraq.
    Mr. Rogers. I wasn't aware of that.
    Mr. Burke. The reason I raise that, and I would like to 
have this discussion with the committee on this, is the fact 
that that story appears damaging to the credibility of 
international broadcasting. We are only good when we are 
believed; we are only good when we are credible, and we can't 
be credible if people around the world assume that we are 
returning to the days that used to exist when the CIA or 
somebody else promoted a ``radio this'' and a ``radio that.''
    If the CIA is going to undertake something like that, if 
the President approves that plan, that is none of our business. 
That is not the business we are in. We are in the business of 
broadcasting.
    Do I believe we should enhance our broadcasting? Yes, I do, 
to Iraq, and I believe we should do it now.
    Mr. Rogers. Are we doing any now?
    Mr. Burke. We broadcast now--in our Arabic service now, I 
believe it is 6 hours a day, and we can move that up another 2 
or 3 hours, and we can use both the Voice and Radio Free Europe 
and Radio Liberty to be far more specific in the broadcasting 
to Iraq, as opposed to broadly broadcasting to the Arabic-
speaking world.
    Mr. Rogers. Now, I understand, Dr. Duffey, that the 1999 
budget request does not assume that the consolidation with 
State will go forward. I am sure that does not mean that you 
aren't actively preparing for such a consolidation. But have 
USIA and the State Department come to an agreement on a 
consolidation plan?

                             consolidation

    Mr. Duffey. A great deal of time has been spent by the men 
and women of all the organizations involved in the proposed 
consolidation of the foreign affairs community looking at what 
a new entity would look like. They worked on it last summer and 
prepared a very large report.
    Not all of the issues have been resolved by consensus. 
There are some questions that remain open, and if we move ahead 
with consolidation, they will have to be addressed. They have 
to do with the cohesiveness of public diplomacy and the ways in 
which we would do what Secretary Albright. I think 
appropriately, has declared--that is to preserve and strengthen 
public diplomacy as an area of greater recognition across the 
Department.
    So we have not resolved all of the questions. We have 
worked on a number of logistical matters.
    Mr. Rogers. The Washington Times last November sounded an 
alarm about USIA's public diplomacy resources getting lost in, 
as they called it, ``the great diplomatic Cuisinart.'' Are you 
satisfied that your programs will be improved as a result of 
consolidation, or at least not harmed?
    Mr. Duffey. Well, we would all have to work on that as we 
move into consolidation. My concern has been that the personnel 
and budget resources which the Congress appropriates for 
overseas public diplomacy work remain with those programs in a 
cohesive way and not be simply anothersign on the wall or part 
of a mission of an organization that has a number of objectives.
    So that would have to be worked out, Mr. Chairman, if and 
when we move ahead with some consolidation. It hasn't been 
resolved at the moment.
    Mr. Rogers. Is it a real concern that we should be aware of 
that USIA's resources would be redeployed in order to sell our 
foreign policy to domestic constituents?
    Mr. Duffey. Well, it has always been a concern of the 
Congress. Congress has expressed its concern in amendments over 
the years. I think the American citizens would be concerned 
about it. I think I would rather approach it in a more positive 
way.
    If the experience of the last few months has taught us 
anything, it is that, increasingly, our ability to operate as a 
Nation in certain parts of the world depends upon our capacity 
to understand and affect foreign public opinion. Let me here 
just comment on your question with respect to broadcasting, if 
I may. Broadcasting, I think, is enormously effective, but 
there is also a very subtle temptation, as in any area, to 
think simply sharing a message, is the task.
    We are all concerned--I know that our broadcasters are, as 
well as people engaged in other aspects of public diplomacy--
because overseas public diplomacy requires greater contextual 
sophistication than U.S.-based public affairs. As an example I 
would say, with respect to the future of Iraq, with respect to 
our policies in Iraq and whatever we may have to do in the 
future, it may be more important to step up our broadcasting to 
other parts of the Middle East even in friendly states where we 
clearly have major public opinion problems and the leaders of 
those states have problems understanding United States' 
objectives. It seems to me that we need far more subtlety and 
calculation when we communicate overseas which is different 
from that required to communicate in this country.
    So I would rather approach the question you ask by saying 
that public affairs and public diplomacy are two quite distinct 
operations and they ought to be kept distinct. They are not the 
same, and obviously the Congress is going to appropriate more 
resources for the task of public diplomacy overseas than they 
are, I think, for public affairs in this country, as important 
as that may be.
    Mr. Rogers. Mr. Mollohan.
    Mr. Mollohan. Thank you, Mr. Chairman.
    USIA is the only one of the foreign policy agencies that is 
requesting a reduction. Does that have something to do with any 
reorganization and why are you doing it?
    Mr. Duffey. Well, first of all, I would like to believe 
that we have understood the problem of containing government 
expenditures and trying to balance the budget, and this 
understanding is reflected in our request.
    Mr. Mollohan. One would think, because you have done that 
in past years, that it would put you in a good position.
    Mr. Duffey. Well, I would hope it gives us some 
credibility. It has not been the most popular thing to do.
    Mr. Mollohan. Well, why are you?
    Mr. Duffey. Well, from the point of view of the 
Administration, you have a whole range of needs in a time of 
tight resources.
    Mr. Mollohan. What about in your view?
    Mr. Duffey. In my view?
    Mr. Mollohan. What was your request to OMB?

                              omb request

    Mr. Duffey. Stan will give me the figure. Actually, the 
final budget is significantly larger than our initial pass-
back.
    Mr. Mollohan. Did you request an increase?
    Mr. Duffey. Yes, we requested an increase of----
    Mr. Silverman. A total of $1.237 billion.
    Mr. Duffey. Well, that is how much of an increase?
    Mr. Silverman. It was about $120 million over the 1998 
enacted level.
    Mr. Duffey. A very modest increase of $120 million.
    Mr. Mollohan. Where did you request increases?
    Mr. Duffey. We can give you that--exchanges, I think was 
probably the largest.
    Mr. Mollohan. Which is where you got----
    Mr. Duffey. Well, what we got is a shifting. In other 
words, one of the concerns I have, frankly, is that we all 
wanted to increase the Fulbright budget because of its 
importance as a flagship exchange program. But it was increased 
at the cost of some other very valuable programs, international 
visitors and others. So that is an area which we--I feel some 
concern about for next year.
    Mr. Mollohan. Well, talk about that a little bit. Help the 
committee understand.
    You requested increases, OMB ends up giving you a decrease, 
and you are the only one of the four foreign policy agencies 
that got that. You got increases in the Fulbright and exchange 
section, correct?
    Mr. Duffey. We decreased other exchange programs in order 
to provide an increase in the Fulbright program.
    Mr. Mollohan. So from your request you got decreases. How 
does that impact your agency? What concerns do you have for 
that?
    Mr. Duffey. I mentioned earlier the important task of 
trying to identify leaders in other countries at an early stage 
and not always bringing them here at our expense. Sometimes we 
tack our program on to a trip they are taking at their own 
expense or from other resources. Our program is a concentrated 
effort to introduce them to American values. This program will 
be reduced in the next year. Other programs in the exchange 
area--everything other than Fulbright--will take some 
reductions. We can give you the details.
    Mr. Mollohan. And that concerns you?
    Mr. Duffey. Yes, it does, because I think they were at a 
level that was already----
    Mr. Mollohan. Pretty rock bottom, and you have said that 
before, right?
    Mr. Duffey. Yes.
    Mr. Mollohan. In what other areas are you experiencing 
reductions or not enough increases that concern you?
    Mr. Duffey. In personnel, we have a reduction of about 138 
positions. I think that we ought to try to absorb some of that 
because of the demand for reducing personnel costs.
    Mr. Mollohan. You have done a pretty good job of that in 
the past, as I recall.
    Mr. Duffey. Yes, we have.
    Mr. Mollohan. At some point, that has to start affecting 
your programs.

                               technology

    Mr. Duffey. I would say the other area that most concerns 
me is technology. Just about an hour ago I looked at my 
computer; I had two e-mail messages. The first one was from a 
young woman in Armenia who sent an e-mail directly to me about 
coming to the United States to go to school. I think that is 
remarkable. I don't know if you are getting those kinds of e-
mails from your constituents, but the other came from 
Argentina, where we are engaged now in experimenting with a new 
two-way high spped method of communication. It has been a 
little controversial, I think, with our colleagues at the State 
Department.
    We need as sophisticated technology as possible for 
exchange of information with posts. We don't think--because we 
work in a very open system, that we always have to go out and 
buy that technology; we think it is a lot better to lease over 
a period of time because the technology is changing all the 
time. So we have an experiment, Mr. Bruns talked about it here 
last year, I think it was originally with five posts.
    Mr. Silverman. Four.
    Mr. Duffey. It is a limited experiment, but the e-mail I 
got today from Buenos Aires described the absolute impact that 
128 kbps bandwidth can have. It has enabled the post to 
exchange technical information, to have videoconferences, to 
increase transmission speed, and to provide access to a number 
of Washington-based data bases.
    Mr. Mollohan. So what would you like to happen? How is that 
reflected in your budget?
    Mr. Duffey. Our current request is for $1.7 million for 
twelve more posts, a very modest request. I feel with the 
reaction I am already getting from people who have had a chance 
to look at it, that I would like to do it a little faster.
    We had asked OMB for $14 million more in technology. But I 
was at the office the other day and Mr. Gibbons, the White 
House science advisor, had come over to the agency and just 
like that, he could have with one of our posts, the kind of 
exchange of information that they had requested.
    Mr. Mollohan. You would like to enhance that?
    Mr. Duffey. So I think it is proving its point.
    Mr. Mollohan. Thank you, Mr. Chairman.
    Mr. Rogers. Mr. Kolbe.
    Mr. Kolbe. Thank you very much.
    Thank you for the chance--for coming today and the chance 
to listen to you.
    I want to follow up on something that Mr. Mollohan started 
here. I am looking over your budget numbers, and I am a little 
puzzled by some of the items in there, and I think the 
subcommittee is going to grapple with trying to understand some 
of these things. I specifically want to talk about the exchange 
programs.

                           fulbright increase

    He mentioned the increase in the Fulbright. There is about 
a $1.29 million increase overall in your exchange programs, but 
there is a large increase in the Fulbright program and a 
decrease in all of the others. Why?
    Mr. Duffey. You know, when Senator Fulbright died a couple 
of years ago, I sent to President Clinton and I think maybe 
some Members of Congress a collection of the editorial comments 
from around the world that appeared the following week; and I 
said to the President, I have not seen as much appreciative, 
enthusiastic comment about a U.S. program.
    Now, what is the reason for that? It has a binational 
quality to it. It is not something we pay for alone. 
Increasingly, foreign governments pay a larger share of the 
costs of the Fulbright program. For example, an agreement was 
signed last year to create a new Fulbright Commission in South 
Africa. We expect the South Africans to pay a portion of the 
program.
    When Mr. Frei came here from Chile and spoke to the Joint 
Session last year, he announced an increase in funding on 
behalf of the Chilean Government for this program.
    So I think because of the 50th anniversary, and that the 
program has had such acceptance in other nations, we were 
reaching a point of embarrassment because there are other 
nations whose contributions are exceeding ours. Therefore, we 
decided to try to increase our contribution.
    Now, the unfortunate thing, if our budget stays where it 
is, is that that results in the----
    Mr. Kolbe. Well, that is the thrust of my question.
    Have you evaluated and decided that Fulbright is a more 
valuable program than the other exchange programs; and the 
others are not doing what we intended, or not doing as well, at 
least, as Fulbright? Is that your conclusion? Or we are doing 
this because it is the 50th anniversary?
    Mr. Duffey. I think it has more to do with the latter.
    Mr. Kolbe. Is that a fair thing to do with the other 
exchange programs, just because it is the 50th anniversary?
    Mr. Duffey. As I expressed earlier, I have concern about 
those other programs. I think, first of all, the Fulbright 
program is protected from the discretion of the Director of 
USIA. It has its own appointed board. However, at my request, 
the Ford Foundation funded a basic study of the program, and 
one result of that was a recommendation to increase funding. 
There is nothing wrong with that.
    The point you make is a great concern.
    Mr. Kolbe. Fulbright is a great program. I have many 
friends that have been on Fulbrights, and I think it is a 
terrific program. But what you are really saying is, you are 
going to do it at the expense of some of the others.
    Mr. Duffey. Well, perhaps what I am saying is if Congress 
felt this is a good thing to do, but not at the expense of 
other programs, I would be delighted. That would be my first 
choice.

               ned and asia foundation programs in china

    Mr. Kolbe. Let me, if I might, just ask one other question 
on a similar kind of thing, actually about the Asia Foundation. 
We know the President made a point of talking about, as a 
result of his visit there, an increase for civil society 
service projects in China, and that is reflected in a $7 
million increase requested for the Asia Foundation. That is a 
very substantial increase. But Asia Foundation isn't the only 
one that does civil programs.
    We had an opportunity on our visit to China to see some 
extraordinary things being done by NED--in this case, it was 
both the IRI [International Republication Institute] and the 
National Democratic Institute on Election Observing--and it 
just seems to me that--I mean, I am wondering why you think the 
Asia Foundation is betterattuned to deliver on these social 
programs and civil programs, in China than NED would be.
    Mr. Duffey. Well, I don't mean to imply that. There is an 
increase in NED of $1 million.
    Mr. Kolbe. About a 3 percent increase as opposed to a 50 
percent increase.
    Mr. Duffey. NED has worked around the world, very good 
work. The Asia Foundation request is not part of the USIA 
budget, is it?
    Mr. Silverman. No, it is in the Department's budget.
    Mr. Duffey. But there is an effort to try to strengthen the 
Asia Foundation.
    Mr. Kolbe. I realize it is not USIA, but I was just 
wondering whether or not----
    Mr. Duffey. Well, I think their function and their programs 
pursue different objectives, and I have great admiration for 
what NED does. I hope its programs in China are increased and 
in no way diminished.
    Mr. Rogers. Mr. Skaggs.
    Mr. Skaggs. Thank you, Mr. Chairman.

                               personnel

    Good afternoon. Dr. Duffey, I just wanted to give you the 
opportunity to be expansive, if you choose to be, about the 
state of morale and personnel contentedness, or not, at USIA. 
At least in some of the travel I have done over the last year, 
I try to stop by and see some of your people around the world, 
and sense a certain unease. To choose my words carefully, they 
are particularly looking forward to--or maybe not looking 
forward to--the integration of their careers with the State 
Department. If that comes about, what should we be mindful of 
as we deal with your budget in this regard?
    Mr. Duffey. Well, I thank you for the question. First of 
all, I think it is fair to say that in the whole foreign 
affairs community, there are questions of uncertainty that 
particularly affect people in the foreign service, whether they 
are connected with USIA or the State Department foreign 
service, simply because of our budget reductions and new 
questions being asked about efficiencies. One of the remarkable 
things, great tributes, I think, to the people of USIA is that 
my notion a few years ago that people can be retrained in 
government, just as they can be retrained in business and 
industry at the age of 45, maybe even 50, is something USIA 
people have been prepared to take on. In fact, we have a lot of 
examples of people being retrained.
    Mr. Skaggs. I am hoping for retraining at 55, myself.
    Mr. Duffey. I am hoping for it at 65. So there is some 
anxiety all the way around, but obviously the uncertainty, the 
question of what happens to public diplomacy as a function is a 
concern.
    I have to say, David, you have the same experience I do. 
Every time I sit down with an ambassador who has worked in a 
post, the first reaction I get is that the public diplomacy 
resources--the foreign nationals and officers at posts--that 
are the most valuable to them. So there is a deep appreciation.
    But within the State Department milieu, where you have the 
immediacy of policy about which controversial questions are now 
being asked, public diplomacy is one of a number of tasks.
    This is what I would propose. I do think we need a hard 
look at the whole foreign service. It ought to be one foreign 
service. We now have five or six. It ought to be one service; 
there ought to be greater training of people in all the range 
of what it means to represent this country these days, so that 
people don't get the feeling at some early stage that they are 
political officers and therefore they don't do public affairs. 
Good political officers know how to do public affairs.
    Finally, I have to tell you that I think the answer to this 
is someplace within the profession itself, so that I would hope 
that we could look carefully at the reform of the foreign 
service, the revision or reinvention of an integrated foreign 
service, and then, in the service itself, professional 
understanding, so that people will change.
    Frankly, I am having a problem now. We have a number of 
jobs around the world that I need to fill, and I talked to a 
senior foreign service officer and he said, well, that is a job 
a little lower in grade than where I think I am in my career.
    And I keep saying, but we need to fill that job. Well, he 
said that if I take it, my colleagues will punish me in the 
review process.
    We need to change that atmosphere and some leadership could 
help a great deal.

                          broadcasting to iraq

    Mr. Skaggs. Chairman Burke, you spoke favorably of boosting 
our broadcasting to Iraq. My sense is that we have a window of 
opportunity presently that we ought to take advantage of in 
that regard and not wait for fiscal year 1999 budgets to be 
completed or appropriations to be completed. Are there any pots 
of money within your domain that you might point us to for 
consideration of shifting resources to Iraq broadcasting that 
would evolve as a net overall gain for our international 
broadcasting activities? We have a supplemental appropriation 
coming up soon, and maybe there is a chance to make something 
happen.
    Mr. Burke. If I can address that, Mr. Congressman.
    On the broader range, in response to a question that the 
Chairman asked: When you asked, Mr. Rogers, about Radio Free 
Iraq, there was one thing that we are very concerned about in 
international broadcasting, and that is whenever a ``radio 
free'' is proposed or accepted, we get no fresh money to do it. 
What we are doing is decimating the Voice of America, if we 
continue doing that.
    So the cause of the day is--I don't consider Iraq to be 
just the cause of the day. It is a very serious piece of 
business. So clearly, if we could find within our budget, as 
you say, a pot of money, we would like to find it; but the 
difficulty that we have is, some pots of money are tied up and 
can only be used for one thing and nothing else.
    Mr. Skaggs. Let me put it this way. Are there restrictions 
that we ought to lift?
    Mr. Burke. Yes. Well, an example of that is Television 
Marti. Now, I know you have addressed this issue before and I 
feel very strongly about it. The story of that, I think, is not 
a good one. We have been broadcasting a VHF signal to Havana 
that no one can see, no one can; and that has been going on for 
years at $10 million, $11 million, $12 million, $14 million a 
year.
    Just when reasonable people are at their wit's end, how can 
they possibly justify and rationalize it for one more year, 
someone comes up with a good idea: Why don't we try a UHF 
signal? Now, if you are in the television business, and I was 
for many years, and if you are in a network, the lastaffiliate 
you want is the UHF affiliate because no one can see a UHF signal.
    So why anyone in their right mind would think that if a VHF 
signal can be easily jammed, a UHF signal could get through--it 
can't, it won't; however, we are going to be called upon to 
spend $10 million a year for nothing again, and another $1 
million to buy a balloon to send a picture to nowhere.
    If I had that $11 million, and if we were allowed to have 
the freedom, as the International Broadcasting Act says we 
should have, to reallocate resources and keep them within the 
foreign policy interests of the United States, I would 
certainly like those resources to go to our broadcasts to Iraq. 
That is a wonderful example of, if we could be freed up and not 
have money earmarked--for example, Congress suggests to us that 
there should be a ``Radio Free Iran.'' Give us no money to do 
that, but ask us to take $4 million of our existing budget and 
earmark it for that, meaning we can't do anything else with 
that money.
    So we are--when I opened my statement today, I was trying 
to describe a new international broadcasting institution that 
is flexible and moves with the events of the day. This world is 
as dangerous as any bipolar world ever was. But if we are 
hamstrung--and that $11 million is a good example of how we are 
hamstrung--we just have to spend it for broadcasts that no one 
sees.
    Mr. Rogers. Mr. Regula.
    Mr. Regula. Thank you, Mr. Chairman.
    Thank you, Dr. Duffey and your team. A couple of 
observations. One, I personally feel strongly that you remain 
independent and not be part of the State Department. I think 
you have a different function, and this agency should remain 
independent. I know that is not exactly our purview here.
    Secondly, I think TV Marti is a waste of money.

                     reductions in other exchanges

    In terms of two items on the Fulbright issue, which has 
been pretty well covered, I have some problems with that, 
reducing your education or professional and culture exchange 
programs by $3.2 million. It seems to me Fulbright students 
tend to be graduate, even postgraduate, and they have their 
resources to help themselves and more outside sources, more 
substantial than those at the secondary level, or the kinds of 
exchanges that would be covered by the professional and 
cultural exchange programs.
    You may not want to comment any further on that, and I 
recognize the President likes the Fulbright. But that is just 
one opinion.
    Mr. Duffey. Well, I take the point you make. I will just 
repeat again, one of the attractions I think in increasing the 
Fulbright is that it appears to attract money from other 
countries.
    Mr. Regula. That is right.
    Mr. Duffey. I was just on the phone with the ambassador 
from a country that is very important to the United States, a 
couple of days ago; that government is thinking about cutting 
back its Fulbright contribution. At the same time, we are 
trying to get added private contributions.
    One of the reasons they are cutting back is that our 
program has been diminished. But I don't think it is one of 
those areas where I can compare Fulbright to other exchange 
programs. They are all very important, and to cut is a tragedy; 
I am hoping that maybe by the end of the year we can find a way 
not to have to make those cuts.
    Mr. Regula. I think the exchange programs are very 
valuable. I was in Baltic States on NATO business, and many of 
our new young leaders were products of exchange programs; and 
it has a big, big payoff. They think Western, they are familiar 
with that culture. It is remarkable how the three Baltic States 
have just totally refocused in such a short time, in both 
entrepreneurship as well as in government; and that is one of 
the----
    Mr. Duffey. Well, you know, it is important for our allies 
as well. When Prime Minister Blair was here, I pointed out to 
him that he had been here as a visitor. And he said to me--it 
was a couple of days we added to another trip he was taking if 
it hadn't been for that, it would have just been a vacation. 
Margaret Thatcher also came as a young leader.
    So the ability of our people in the field to find these 
potential leaders so that we can give them an experience with 
some engagement on issues that is not just a tourist experience 
in the United States is very important. I think that is as 
important today, by the way, in the business sector as it is in 
government, maybe even more important.

                      broadcasting to the mideast

    Mr. Regula. Well, that was obvious in our conversation.
    The other, I guess a comment more than anything, would be 
that Radio Free Iraq, maybe it ought to be broad so that we get 
the story of the U.S. and all of the Middle East. It is a 
volatile area, and I wouldn't want to focus just on one 
country.
    Mr. Burke. When I was talking earlier about Arabic states, 
that is, what you would enhance to get all of the nations in 
the area, as we said, in Arabic, and you would enhance that by 
increasing the hours; but also we would try to program in a far 
more direct manner that focuses on the situation in Iraq. 
Everyone feels very strongly that we should have done this or 
that. Because one thing I think we all agree on; the people of 
Iraq are prisoners, and they deserve the fresh air of the truth 
and honesty and objectivity coming their way; and we should be 
allocating resources to that right away.
    Now, the Voice of America is very active and does that very 
well right now, but we need more resources to do it even 
better. Thus, the Congressman's question of what we could free 
up to do that, and I think it is the time to do it. I think it 
is time to allow the Board of Governors and the people of 
international broadcasting--in consultation, of course, with 
Congress and the Administration, which has the constitutional 
responsibility for conducting the foreign policy of this 
country--to allow us to be flexible and to get away from some 
of the old structures that we are boxed into. I think that is 
very important, and it becomes increasingly important every day 
and week that goes by.
    We would like to be able to respond, and I tried to make 
the point that I think we have put together a team of people 
who work together and are willing to respond; and this is as 
close as you are going to get to a private broadcasting 
operation in the public sector in terms of the enthusiasm and 
the level of energy and the intelligence of these people I have 
introduced.
    Mr. Regula. Are you reaching China?

                         broadcasting to china

    Mr. Burke. We are reaching China. The Voice of America has 
for some time been reaching China. Radio Free Asia is very 
effective, I believe, in reaching China. There is jamming, of 
course. An interesting thing has occurred that suddenly the 
Chinese feel that Radio Free Asia is rather acerbic, so the 
Voice of America is their favorite now. But that is the way the 
world is.
    Mr. Rogers. Mr. Latham.
    Mr. Latham. I am going to be amazingly brief. I know it is 
unusual, but I have the same concerns I think expressed by Mr. 
Regula and I would like to associate myself with his remarks 
and the same concerns. And with that, thank you. Trying to get 
you home early.
    Mr. Rogers. Let me follow up, Mr. Burke, with the China 
question. You received 35 million dollars in 1998 for the China 
operation. We have just this week received your statement. We 
have not had time to analyze it. I am pleased that we have a 
plan. My concern is that we did provide a very significant 
amount of money for the increase of hours in China. I want to 
make sure that we are doing everything possible to achieve the 
high level that, highest level we can and in a timely fashion. 
Tell us about the jamming. What is happening?

                       broadcast jamming in china

    Mr. Burke. Maybe the folks who live with it on a daily 
basis, Dick Richter, he can tell you how Radio Free Asia is 
being jammed.
    Mr. Rogers. Identify yourself.
    Mr. Richter. Richard Richter, President of Radio Free Asia.
    We have been jammed in China since August 15, since this 
past August 15. Before that we were not jammed. For all of 
that, our signal is getting through. We come in five or six 
different directions on different transmissions. It is one of 
the classic ways to try to get around jamming. We have gotten 
hundreds of letters from listeners indicating that they have 
heard our broadcasts despite the fact that they occasionally 
have been unable to because the signal has been blocked.
    However, since the jamming began, we have gotten letters, 
for instance, from every sector of China. And they have 
increased, more frequent and more relevant to the precise 
nature of what we are broadcasting than before. We also just 
this week started a program which is not on the air yet but it 
will be on the air next week. It is a call-in program where 
people call an 800 number, and the calls have been piling up, 
and we have a great deal of difficulty even just dealing with 
it all by ourselves. Of course, in order to do that, they have 
to know where to call and they get that from our signal.
    Mr. Burke. Mr. Chairman, if I can just add one thing. 
Again, we wish to thank the committee for its support. We have 
money and negotiations are under way to buy new facilities in 
Saipan, and Dick Richter is involved in those negotiations and 
also construction, we expect by the end of January to be 
outlined, January of 1999. That will help significantly on the 
jamming problems. The more power you have on a signal, the 
better you are.
    Mr. Rogers. Are they jamming VOA as well?
    Ms. Lieberman. Mr. Chairman, they jam us less frequently 
than they do RFA but they also began, have begun to jam our 
Internet site. As a result of that, we broadcast on the air our 
e-mail address and the response to that has been overwhelming. 
The first 2 days we broadcast the address, I think we received 
400 e-mails.
    Mr. Rogers. Why are they jamming RFA and not necessarily 
VOA?
    Mr. Burke. I believe RFA, before there was an RFA, there 
was talk about an RFA. And everyone came to believe what RFA 
was going to, it was going to be far more aggressive than VOA. 
That is not totally true but its broadcasting was going to be 
different. They feel it is more threatening because besides 
telling you the news of the world in general, it behaves as a 
surrogate should, as though it were a local broadcasting entity 
in the nation that allowed it. So they just find it more 
acerbic, I believe.

                           farsi broadcasting

    Mr. Rogers. Now, in the '98 conference report we included 
$4 million for the development of the Farsi service to Iran. We 
still don't have your plan. I understand there are some 
concerns within the administration that have delayed the 
submission of that plan. Can you help us out here?
    Mr. Burke. Yes, I think I can. We on the board know full 
well what our responsibilities are under the U.S. International 
Broadcasting Act of 1994. We have an obligation to carry out 
the law that was passed by Congress. We also, however, under 
that Act have a responsibility to effectuate to the extent that 
we can the foreign policy interests of the United States. So 
we, in a situation like this, we feel we have to go to the 
National Security Council for some guidance as to how to 
proceed, what the plan should be. We have done that. Mr. 
Chairman, yesterday I had a conversation with Undersecretary of 
State Tom Pickering and he has allowed me to make reference to 
that conversation, to say that the administration would like to 
rethink, given the current state of affairs in Iran, as well 
the current state of affairs in Iraq and so on and so forth, 
they would like to rethink that. Ambassador Pickering wants me 
to assure you that the Administration will do nothing as far as 
whatever instructions we on the Board of Governors receive, 
without full consultations with the Congress and both parties.
    Mr. Rogers. Dr. Duffey, any comments?
    Mr. Duffey. None.
    Mr. Rogers. Well, we will have a chance to talk about that.
    Mr. Burke. Yes. And as you can understand, the Board of 
Governors of international broadcasting, we stand in the 
middle. We can and will provide a very effective service to 
Iran if directed to do so, we can and do provide a very 
effective service to Iraq.

            reductions in international information programs

    Mr. Rogers. Dr. Duffey, your International Information 
Program account includes program reductions of 8.4 million 
dollars and 61 positions. I understand your proposal is to take 
these across the board proportionately. Why didn't you propose 
those to be taken in more of a prioritized fashion rather than 
across the board?
    Mr. Duffey. Mr. Chairman, for four years now, we have taken 
reductions in a prioritized way. We have been very selective. 
We have eliminated programs and I think maybe we are the only 
foreign affairs agency that has actually stopped some things we 
used to do. This is something that I think we all ought to ask, 
the what-do-we-in-fact-stop-doing kind of question that is 
being asked by industry and other institutions. We have asked 
that question, and it has resulted in some fairly dramatic 
cuts.
    Late in December, when we had to accommodate, against our 
request, the budget that we were authorized, I asked to have 
the reductions laid out across the board in terms of the 
planning request so that I could look at the impact. That is 
not the way we are going to implement it, Mr. Chairman, at the 
end of the year, after we have seenthe will of Congress and 
other studies that we are carrying out. My anticipation is we would not 
be making those cuts across the board. But it was an exercise we needed 
to engage in initially, very quickly at the end of December, in order 
to prepare a budget and meet the deadlines.
    Mr. Rogers. Maybe as we go along, we can help you refine 
that process.
    Mr. Duffey. I would hope you would. I would like for some 
guidance.
    Mr. Rogers. Well, it just seems to me that if you have some 
cutdowns, you shouldn't weaken all your programs, you should 
weaken those that need to be weakened.
    Mr. Duffey. Well, I would ask for at least some credibility 
on the basis that that is the way we have operated for four 
years.
    Mr. Rogers. You just didn't have time to do it is what you 
are saying?
    Mr. Duffey. We didn't have time. I was also quite curious 
to see what in each division would be sacrificed against the 
requests that were being made. We don't have reorganization 
legislation. We could have that before the end of the year. 
There are a number of uncertainties.
    Mr. Rogers. We want to help you target your low priority 
programs and keep the good ones healthy.

                         exchanges coordination

    Now, based on the statistics you have given to us, 
international exchanges is a big business for the government 
with 39 agencies involved, total cost of $2.4 billion a year. 
USIA of course chairs that agency working group to coordinate 
those efforts. Have you had any success in improving 
coordination and identifying overlap and duplication?
    Mr. Duffey. Let me let Mr. Loiello comment on that. He 
chairs that effort. This effort has just begun. I think one of 
the things Mr. Loiello has discovered is that getting the 
accurate information in a format that will be useful to you and 
to us in making a comparison is the first task we have to do. 
We have to find out what is actually there. We know more than 
we did a couple years ago but we still are not quite there.
    Jack, you have assembled the staff.
    Mr. Loiello. Thank you. Mr. Chairman, the process moves 
ahead fairly well. We have, first of all, 6 agencies 
specifically mentioned in the executive order that are 
participating but we have been very pleasantly surprised, 
indeed, by the involvement of more than 20 agencies on a 
regular basis. The working group has met three times. There are 
a number of working groups underneath it which are now 
collecting an inventory of all exchanges and training, a much 
broader one than had been developed under the previous 
executive order. We, under that executive order, have to report 
by July 15th of this year to the President on a strategy, a 
coordinated strategy for exchanges and training for the year. 
But what differentiates this particular review and study 
compared to the previous executive order is the fact that there 
is a staff that reports not to the United States Information 
Agency per se but to this Interagency Working Group. Secondly, 
a year from now, in July of 1999, we are required by the 
executive order to lay out performance measures and parameters 
for looking at exchanges across government. And so I think the 
process has been an arduous one but it is going quite well at 
this point. I think we are on target because of the cooperation 
of the other agencies of government in addition to USIA.
    Mr. Rogers. How often does the working group meet?
    Mr. Loiello. The working group meets four times a year. We 
have just met for the third time the week before last.
    Mr. Rogers. Do you think it is an appropriate mechanism to 
address the duplication problem?
    Mr. Loiello. Yes, I am glad you mentioned that. One of the 
other specific requirements of the executive order is to 
address the issue of duplication and of leveraging private 
sector support.

            competition in fulbright senior scholar program

    Mr. Rogers. Dr. Duffey, finally, on the Fulbrights, you 
said that you intend to compete the administration of the 
senior scholar program at the end of this fiscal year; right?
    Mr. Duffey. Yes.
    Mr. Rogers. A significant portion of your exchange 
appropriations is awarded in the form of sole source grants for 
both Fulbright and international visitor programs. Could you 
bring us up to date on how you plan to introduce competition to 
these programs?
    Mr. Duffey. There is a proposal which has been prepared--
again, Mr. Loiello's office has done this and he may want to 
comment on it--to begin in a staged way to offer competition 
for some of these. Mr. Chairman, as you are aware, I have some 
concern about making this transition. USIA, unlike some other 
organizations, does not generally deal with organizations that 
are contract organizations. Our largest partner with respect to 
the Fulbright, for example, is the Institute of International 
Education, an organization that raises funds on its own, that 
really operates to supplement the program. It is not out 
looking for contracts. I am not saying there is anything wrong 
with that, but I want to keep us from becoming an institution 
that is simply concerned with the contractual process. I think 
there needs to be some real competition to see who can do the 
programs well, but we also need the concept of sharing and some 
stability in the program. So what has been proposed is a 
phasing, which would begin in 1998, with that program andwith a 
certain share of the other programs. This is in response to the 
expressed concerns of Congress about greater competition and 
opportunity. I think it is a good idea that we look at those programs 
and open them up and see how they can be done better and keep the 
organizations accountable. It is going to be difficult for some 
organizations. We need to try to keep the quality of the programs as we 
go through that process.
    Mr. Rogers. All right. Mr. Mollohan.

                          rfa 1998 enhancement

    Mr. Mollohan. Thank you, Mr. Chairman. Last year 
Congressman Royce's Radio Free Asia enhancement legislation 
passed the Congress by 401 to 21. Congratulations. That is a 
really good vote. It increased or proposes to increase funding. 
I don't think you got your money yet for that, $31.2 million in 
Fiscal Year 1999. I don't think the Senate has done anything 
with that. Does that legislation have a status over in the 
Senate?
    Mr. Beard. Counterpart measures have been introduced but 
they have not acted on them. Your bill (FY 1998 CJS 
Appropriation Act) did include additional money for RFA, as you 
know.
    Mr. Mollohan. But it did not include that much.
    Mr. Beard. Almost $35 million in 1998, including Radio 
Construction and IBO accounts.
    Mr. Mollohan. Well, what is the Administration's position 
on that legislation?
    Mr. Burke. I believe that the Administration position on 
that legislation is quite favorable.
    Mr. Mollohan. They support that legislation?
    Mr. Burke. Yes.
    Mr. Mollohan. And they support the additional increase of 
30 something, $31 million in Fiscal Year 1999.
    Mr. Burke. I believe so, yes.
    Mr. Mollohan. Is that reflected in your request?
    Mr. Beard. Full-year costs of the enhanced broadcasting to 
China approved in FY 1998 are annualized in 1999.
    Mr. Scardino. The full cost of the increased broadcasting 
is in 1998 but not in addition to that.
    Mr. Mollohan. That was my question. My question is, as I 
understand this legislation, it proposes an increase of funding 
of $46 million for 1998, of which, as you point out, part of 
that is funded in 1998 and then another $31 million in 1999. My 
question was, is that part of your budget request?
    Mr. Beard. No, sir, it is not.
    Mr. Mollohan. What you have in there is annualizing the 
first----
    Mr. Beard. Annualized from this year's appropriation, yes, 
sir.
    Mr. Burke. I remember why you were concerned in the past. 
Your concerns in the past were, will the presence, I believe, 
will the presence of RFA and anything that RFA does be eating 
away at the Voice of America and the strength of the Voice of 
America. When this legislation came, and I remind you that we 
had not at that time, we did not ask you this, it was the 
Speaker of the House who led the charge on this, on returning 
from a trip abroad. The first thing that we did, just so you 
understand how we operate, the first thing we did is that 
Evelyn Lieberman of the Voice of America and Dick Richter and 
Kevin Klose, who is head of International Broadcasting, they 
sat down and in areas, because clearly it was your concerns 
about robbing Peter to pay Paul as you go ahead in the future. 
The Congress had decided that they wanted a Radio Free Asia and 
we have to carry it out to the best of our ability. But I will 
tell you, they are here and you can ask them, we are here to 
make sure that we carry it out in such a way that each service 
is satisfied and we take advantage of every dollar.
    Mr. Duffey. Could I just, on the privilege of age, make a 
suggestion. I think the Congress would well serve the American 
people by looking, and I am describing all our programs, at 
their effectiveness.
    Mr. Mollohan. I didn't hear you.
    Mr. Duffey. At how effective what we are now doing in 
exchanges and broadcasting is. We are trying to ask the 
question, and I know the broadcasting people work very hard at 
it. I am impressed by the polling I see such as we are able to 
get. It is not insignificant that young people, for example, in 
China do not respond in the same way to the United States they 
once did. They don't look at us as some sort of great kind of 
saviour out of the West. They look with some skepticism, 
sometimes in an irrational way. For example, a large number of 
young people in China still blame the United States for their 
not getting the Olympics when it went to Australia. It is 
strange how that sort of hangs on. In Kentucky and West 
Virginia, we know that sometimes memories like that affect 
perceptions for a long time. I have been looking at some data 
from the Mideast. We sent over some people to talk about our 
position in Iraq. Part of the problem is we needed to explain 
it in greater detail, explain the history, use photographs and 
graphs. We prepared a videotape last week and someone went over 
to start the briefings. But as I read the notes, I see that 
there is enormous resistance among a younger generation of 
journalists and leaders regardless of what we say. So it is an 
impertinent suggestion, but it might be very interesting for 
the Congress to run some hearings that looked at the two parts 
of the world we are now most frustrated with communicating 
with. The Middle East and China are two parts of the world 
where our intentions, thoughvery noble, were based on a 
missionary attitude that is irrelevant now. It has changed. We need to 
reconsider what is effective in communicating. I know we will try to do 
our job and I know the broadcasting people work very hard at trying to 
understand their audiences. But it would be very refreshing if the 
Congress actually took up that question as well. It might give some 
guidelines, what really is working for us and what frankly is still a 
romantic, sentimental notion of what we used to do during the Cold War.
    Mr. Mollohan. Thank you, Mr. Chairman.
    Mr. Rogers. Mr. Skaggs.

                          efficacy of tv marti

    Mr. Skaggs. I have gotten a signal from the Chairman that 
we don't have too much time. Keep your answers brief for me, 
please. Just so both your and my evenhandedness are on the 
record, Mr. Burke, would you compare and contrast, as they say 
in college exams, the efficacy of and importance of Radio Marti 
with that of TV Marti?
    Mr. Burke. Yes.
    Radio Marti I think has a bad rap. I think it does a 
wonderful job. I think it is doing a better job now, especially 
with Mr. San Roman where attention is paid not so much to 
office politics but running it like a professional news 
organization. Radio Marti did extraordinary coverage during the 
Pope's visit. Radio Marti is a valuable asset to the United 
States of America. I have already expressed myself on TV Marti. 
I think the constant spending of money for something that just 
will not work simply because it is a political problem, to cut 
it off is shortsighted. At a time when there are other problems 
facing us in the world, by God, in tight budget times we can 
use that money.
    Mr. Skaggs. Mr. Korologos, is this an opinion you share?
    Mr. Korologos. Yes, sir, Mr. Skaggs.
    Mr. Skaggs. Is there anything you can think of technically 
that can be used to fix this problem to assure that a TV signal 
on whatever frequency cannot be jammed or can be received?
    Mr. Burke. Congressman, there is nothing that I know of 
that would fix this problem.
    Mr. Skaggs. Since we have a test period coming up here 
shortly, how should we and our colleagues judge the success or 
not of this switch to UHF?
    Mr. Burke. The Congress has been very specific in the kind 
of information that they want. And they don't want political 
speeches and they don't want hemming and hawing and beating 
around the bush. You want to know if anyone on the Island of 
Cuba can see television that we send through UHF signal.
    Mr. Skaggs. Will you be able to tell us that?
    Mr. Burke. I have instructed the staff and they know full 
well, and they say that by April 15 you will know the answer to 
that question.
    Mr. Skaggs. Thank you.
    Mr. Rogers. Does the Director wish to say anything to that?
    Mr. San Roman. Obviously, Mr. Chairman and Members of 
Congress, obviously we disagree. I, coming from a Communist 
country, I was born in Cuba, I obviously feel that the 
opportunity to disagree is one of the great advantages of this 
democracy. I do think that TV Marti plays a very important role 
in the foreign policy of the United States. It is very 
important for everyone in this room, including Members of 
Congress, to understand that from the factors we have, 
information, that the hierarchy of the Cuban government watches 
TV Marti because we open the signal and it gets down-linked by 
satellite dishes. It is also very important to understand that 
we are going to proceed within the mandates of this Congress 
with a UHF system, as the Chairman is saying. We will continue 
with the testing. We will come back to you, and obviously it is 
the prerogative of the Congress to come and dictate what shall 
be done with TV Marti. But I think that with an opportunity, at 
least I think I deserve an opportunity to make it work.
    As my colleague, Mr. Richter, was saying, one of the 
problems with TV Marti is that we are only coming from one 
direction and that direction the Cuban government knows and 
they concentrate all the jammers along the northern coast of 
Havana. So it is something that we will have to look at, but we 
will follow, like I should do, follow the mandate of Congress 
and as well as that from USIA and the IBB Director and the BBG.
    Mr. Burke. That is the only thing that Mr. San Roman and I 
have a healthy disagreement about, and we knew that from the 
first day we met.
    Mr. Duffey. Let me make one more suggestion--a positive 
one. One difference between a Communist country and a free 
country is that free countries are not so obsessed with 
secrecy. An important contribution this committee and the 
Congress could make is to free the documents in the 1980s that 
described how we got into this situation. They should not 
continue to be classified, as they are now, because they would 
help us all learn something from our history. That effort, 
would reflect the real difference between a closed society and 
an open society.
    Mr. Rogers. On that happy note, we thank you for your 
testimony and the staff that is here. I think you know that we 
are still under spending caps. Same caps that had been on us 
last year are still there, even though there is talk of a 
surplus. Don't hold your breath. So we still have austere 
years, albeit money rich years. We will do our best to 
accommodate your needs as best we can.
    Mr. Skaggs. Mr. Chairman, are questions for the record 
still open from yesterday for Secretary Albright?
    Mr. Rogers. Sure.
    Thank you very much.



[Pages 482 - 542--The official Committee record contains additional material here.]

















                           W I T N E S S E S

                              ----------                              
                                                                   Page
Albright, Hon. M. K..............................................     1
Bruke, David.....................................................   363
Cohen, B. R......................................................   221
Duffey, Joseph...................................................   363
Fuller, W. P.....................................................   529
Gershman, Carl...................................................   365
Greene, Richard..................................................   221
Korologos, Tom...................................................   363
Lyman, Ambassador Princeton......................................   307
Richardson, Ambassador Bill......................................   307
Williams-Bridgers, J. L..........................................   501
















                               I N D E X

                              ----------                              

                           Secretary of State

                                                                   Page
Access to All Iraqi Sites........................................   149
Adequate Military Resources for Carving Out Foreign Policy.......   162
Administration's View of Mexico City Policy......................   157
Biographical Sketch--Secretary of State Albright.................    25
Budget In Brief--U.S. Department of State--Fiscal Year 1999......    26
Clarification of Details in the U.N. Iraqi Agreement.............   147
General Statement--Chairman Rogers...............................     1
Impact of USIA Broadcasts to Iraq................................   155
Implemented Reforms at the United Nations........................   153
International and Constitutional Laws that Allow the U.S. to 
  Initiate Military Action Against Iraq..........................   158
Lifting of U.N. Sanctions Against Iraq...........................   165
Middle East Peace Process........................................   162
Opening Remarks--Secretary of State Albright.....................   140
    Asia-Pacific Community Issues................................   142
    Bosnian Peace................................................   141
    Current Situation in Iraq....................................   140
    Diplomatic Representation....................................   145
    Front-Burner Foreign Policy Issues...........................   140
    FY 1999 State Department Operating Budget Request............   144
    Information Technology.......................................   145
    Move of the German Capital from Bonn to Berlin...............   144
    Posts in China...............................................   144
    Reorganization of Foreign Affairs............................   145
    Support for the ACDA and USIA Budget Requests................   145
    United Nations Reform and Paying Our United Nations 
      Peacekeeping Bill..........................................   143
Organ Harvesting Efforts in Chinese Prisons......................   161
Payment of United Nations Arrearages.............................   151
Questions for the Record:
    Chairman Rogers:
        Bosnia Peacekeeping......................................   175
        Budget Request...........................................   179
        Embassies (Beijing)......................................   182
        Embassies (Berlin).......................................   180
        Government Performance and Results Act...................   183
        United Nations...........................................   169
    Congressman Forbes:
        Fisheries Issues.........................................   219
    Congressman Kolbe:
        Asia Foundation..........................................   191
        Border Crossing Cards (BCC)..............................   184
    Congressman Latham:
        Certification............................................   213
        Department of State Facilities Infrastructure 
          Improvements...........................................   217
        Drug Fugitives...........................................   214
        Kyoto Climate Treaty.....................................   216
        Mexican Extradition Case.................................   208
        Military Preparedness....................................   204
    Congressman Skaggs:
        USIS Personnel in Foreign Missions.......................   193
    Congressman Taylor:
        Russia...................................................   197
        U.S. Assistance to Russia................................   195
Request for Advanced Appropriations to Fund U.N. Arrearages......   153
Secretary General of the United Nations' Agreement with Iraq.....   146
Statement for the Record--Secretary Albright.....................     3
Status of NATO Expansion.........................................   156
U.S. Authority to Declare a Breach of the U.N. Iraqi Agreement...   164
U.S. Diplomatic Policy Towards Iran..............................   154
U.S. Involvement in Middle East Process..........................   164
What Constitutes a Breach of the Iraq Agreement..................   151
What Saddam Hussein Received from U.N.-Iraq Agreement............   165

                   Administration of Foreign Affairs

Berlin Embassy...................................................   284
Biography--Under Secretary Cohen.................................   256
Border Crossing Cards............................................   268
Closing Remarks--Chairman Rogers.................................   288
Computer Modernization...........................................   287
Defense Department in Foreign Policy.............................   273
Diplomatic Security and the FBI..................................   288
Embassies in Berlin and China....................................   267
Embassy Facilities in Russia.....................................   272
Energy Efficiency................................................   259
Facilities.......................................................   258
Funding for Berlin and Beijing Embassies.........................   278
ICASS............................................................   260
Information Technology.........................................257, 258
Machine-Readable Visa Fees.......................................   285
Minority Recruitment.............................................   261
Opening Statement--Under Secretary Cohen.........................   221
    Border Security..............................................   227
    Consolidation of the Foreign Affairs Agencies................   228
    FY 1999 Budget Request.......................................   228
    ICASS........................................................   228
    Overseas Staffing............................................   228
    Real Property................................................   227
    Security.....................................................   227
    United States Department of State Statistics.................   223
Personnel and Training...........................................   257
Proposed Use of Proceeds of Sale for Major Facility Acquisition 
  and Construction Projects......................................   280
Questions for the Record:
    Submitted by Chairman Rogers:
        Diplomatic Security......................................   293
        Diplomatic Telecommunications Service....................   296
        Government Performance and Results Act (GPRA)............   297
        INS/State Interface......................................   302
        Logistics................................................   298
        Monitoring the Operation of ICASS........................   295
        Overall Information Resource Management Budget...........   290
        Vacancies................................................   299
    Submitted by Congressman Taylor:
        Russia Facility Priorities...............................   306
        Vladisvostok Project Costs...............................   305
        Working Conditions in Vladivostok........................   304
Re-Inventing the State Department................................   288
Security.........................................................   271
State Department Management......................................   257
Statement for the Record--Secretary Cohen........................   230
Use of Funds from Sales of Surplus Property......................   278
Use of Machine-Readable Visa Fees................................   270
Visa Expirations.................................................   259
Year 2000 Compliance.............................................   273

              International Organizations and Peacekeeping

Approval of Peacekeeping Missions................................   344
Arrears Owed by Other Countries................................328, 337
Arrears Owed to the U.N..........................................   322
Assessment Rate Reduction......................................326, 330
Authorization Bill Impact........................................   344
Authorization for Arrears........................................   329
Biographies:
    Ambassador Bill Richardson...................................   320
    Ambassador Princeton Lyman...................................   321
Bosnia.........................................................339, 343
Central African Republic.........................................   343
Effect of Paying Partial Arrears.................................   333
Effects of Paying Arrears........................................   327
Impact of Not Paying Arrears...................................330, 335
Iraq.............................................................   341
Loss of Voting Rights............................................   331
Opening Statement--Ambassador Richardson.........................   307
Other Countries' Assessment Rate.................................   334
Peacekeeping Cooperation.......................................341, 344
Questions for the Record Submitted by Chairman Rogers:
    Arrearages for the Other 45 Organizations....................   348
    International Organizations..................................   351
    Special Session on Disarmament...............................   358
    Tribunals....................................................   352
    U.N. Arrearages..............................................   346
    U.N. Reform..................................................   349
    USUN Offices and Residences..................................   356
Resolving Arrears Issue..........................................   338
Statement for the Record--Ambassador Richardson..................   312
Supplemental Appropriation.......................................   324
U.N. Assessment Scale............................................   324
U.N. Assessments to Other Countries..............................   326
Withdrawal from International Organizations......................   334

  United States Information Agency and Broadcasting Board of Governors

Biography of Director Joseph Duffey..............................   387
Consolidation....................................................   465
Educational and Cultural Exchanges:
    Competition in Fulbright Senior Scholar Program..............   477
    Exchanges Coordination.......................................   476
    Fulbright Increase...........................................   468
    Reduction in Other Exchanges.................................   472
International Broadcasting:
    Biography of BBG Chairman David Burke........................   463
    Broadcast Jamming in China...................................   474
    Broadcast to China...........................................   474
    Broadcasting to Iraq.........................................   471
    Broadcasting to the Mideast..................................   473
    Efficacy of TV Marti.........................................   480
    Farsi Broadcasting...........................................   475
    RFA 1998 Enhancement.........................................   478
    Radio Free Iraq..............................................   464
    Summary Statement of BBG Chairman David Burke................   453
    Written Statement of BBG Chairman David Burke................   455
National Endowment for Democracy:
    NED and Asia Foundation Programs in China....................   469
    Written Statement of President Carl Gershman.................   365
OMB Request......................................................   466
Personnel........................................................   470
Program and Budget in Brief......................................   388
Questions and Answers Submitted for the Record...................   482
Rationale for Reductions in Public Diplomacy.....................   464
Reductions in International Information Programs.................   476
Summary Statement of Director Joseph Duffey......................   376
Technology.......................................................   467
Written Statement of Director Joseph Duffey......................   379

                  Statements Submitted for the Record

Inspector General of the U.S. Department of State, ACDA, and 
  USIA, including the Broadcasting Board of Governors............   501
The Asia Foundation..............................................   529

                            <all>
</pre></body></html>
